APPENDIX A

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 1

RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 21a0020p.06

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

LEDURA WATKINS,
Plaintiff-Appellee,

┐
│
│

>

v.
ROBERT H. HEALY, in his individual capacity,
Defendant-Appellant.

│
│
│
│
│
┘

No. 20-1074

Appeal from the United States District Court
for the Eastern District of Michigan at Flint.
No. 4:17-cv-13940—Matthew F. Leitman, District Judge.
Argued: December 2, 2020
Decided and Filed: January 28, 2021
Before: MOORE, GILMAN, and GRIFFIN, Circuit Judges.
_________________
COUNSEL
ARGUED: Davidde A. Stella, WAYNE COUNTY CORPORATION COUNSEL, Detroit,
Michigan, for Appellant. Wolfgang Mueller, MUELLER LAW FIRM, Novi, Michigan, for
Appellee. ON BRIEF: Davidde A. Stella, WAYNE COUNTY CORPORATION COUNSEL,
Detroit, Michigan, for Appellant. Wolfgang Mueller, MUELLER LAW FIRM, Novi, Michigan,
for Appellee.
_________________
OPINION
_________________
KAREN NELSON MOORE, Circuit Judge. In 1976, 19-year-old Ledura Watkins was
convicted of the murder of Yvette Ingram and sentenced to life in prison without the possibility

1a

(2 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 2

(3 of 24)

of parole. The State of Michigan’s case against Watkins hinged on a begrudged schoolfellow
and a single hair: Watkins’s 20-year-old high school classmate Travis Herndon testified that he
and Watkins robbed and murdered Ingram together, and Detroit Police Department Evidence
Technician Ronald Badaczewski testified that a hair found on Ingram’s clothing matched a hair
sample of Watkins.

After Watkins’s conviction, Herndon repeatedly recanted.

In sworn

affidavits, letters, and testimony, Herndon continuously attested that Wayne County Prosecutor
Robert H. Healy and Detective Neil Schwartz threatened to charge him with Ingram’s murder
and another unrelated murder if Herndon did not tape a statement that implicated Watkins and
testify to that effect at Watkins’s trial. Yet Watkins’s efforts to overturn his conviction were of
no avail for four decades. In January 2017, Watkins presented to the state trial court new
evidence that Badaczewski’s hair analysis methods were seriously flawed. Based on this new
evidence, the state trial court dismissed the case against Watkins without prejudice.
In December 2017, Watkins filed a 42 U.S.C. § 1983 suit against Healy, the estate of
Schwartz, Badaczewski, and the City of Detroit. Healy responded with a Federal Rule of Civil
Procedure 12(b)(6) motion to dismiss. The district court denied Healy’s motion, and this appeal
ensued. Although we lack appellate jurisdiction to consider most of Healy’s arguments, we hold
that Healy is not entitled to absolute immunity for his alleged actions and that Healy has forfeited
the issue of qualified immunity at this stage of the suit. Accordingly, we AFFIRM.
I. BACKGROUND
On September 6, 1975, schoolteacher and drug dealer Yvette Ingram was robbed and shot
dead in her Detroit home. R. 30 (Am. Compl. at 4) (Page ID #7490). 1 The Detroit Police
Department (“DPD”) had no leads on Ingram’s murder until October 14 of that year, when 20year-old Travis Herndon was arrested for an unrelated armed robbery. Id. at 5 (Page ID #7491).

1Because

this is a review of the district court’s denial of a motion to dismiss for failure to state a claim
under Rule 12(b)(6), we must “construe the complaint in the light most favorable to the plaintiff, accept all wellpleaded factual allegations as true, and draw all reasonable inferences in [the plaintiff’s] favor.” Waskul v.
Washtenaw Cnty. Cmty. Mental Health, 979 F.3d 426, 440 (6th Cir. 2020). Accordingly, we draw the background
section largely from Watkins’s amended complaint, R. 30 (Am. Compl. at 1) (Page ID #7487), and we acknowledge
where Healy concedes Watkins’s allegations.
Healy observes that Ingram was a “high school teacher and part-time drug dealer” and that Ingram was
murdered on September 6, 1975. Appellant’s Br. at 4.

2a

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 3

While in custody, Herndon told a police officer that 19-year-old Ledura Watkins robbed and
killed Ingram on the orders of Gary Vazana, a corrupt police officer and drug dealer. Id.2 Days
later, Robert H. Healy—an Assistant Prosecuting Attorney for Wayne County—and Neil
Schwartz—a DPD Sergeant—interrogated Herndon about the Ingram murder. Id. at 2–3, 5
(Page ID #7488–89, 7491). Herndon told a different story to Healy and Schwartz; Herndon now
asserted that both Watkins and Herndon, acting on Vazana’s orders, drove Vazana’s car to
Ingram’s home and “used Vazana’s pistol to kill Ingram.” Id. at 6 (Page ID #7492).3 At some
point, Healy left the interrogation room before returning and passing a note to Schwartz.
Schwartz read the note and purportedly handed it to Herndon. Id. “The note indicated that
Vazana had been found shot to death in his residence.” Id. Healy left the room again. Id. at 7
(Page ID #7493).4
Schwartz apparently “attempted to have Herndon make a tape-recorded statement
implicating [] Watkins.” Id. But Herndon allegedly changed his tune for a third time:
Herndon specifically told S[chwartz] that his earlier statement about Ledura
Watkins’[s] involvement was not true. Herndon told S[chwartz] that Vazana
drove Herndon to Yvette Ingram’s house and robbed and killed her, with Vazana
shooting Ingram twice in the head while she was on her bed. Herndon
specifically told S[chwartz] that Watkins was not involved in the Yvette Ingram
murder.
Id. Schwartz then reportedly joined Healy outside the interrogation room, where “H[ealy] and
S[chwartz] conspired and agreed to frame [Watkins] by fabricating evidence that Herndon and

2Healy

accepts that “Herndon voluntarily told HPPD personnel, including a Detective Donald Roberts
(deceased), that . . . Watkins had murdered Ingram on the orders of a corrupt Highland Park police officer named
Gary Vazana.” Appellant’s Br. at 4–5. Healy contends that Vazana was “[a]ssigned to Highland Park High School
beginning in 1970 or 1971 [and] became acquainted with both Herndon and Watkins, who were both students
there.” Id. at 5.
3Healy

confirms that, at this point in the interrogation, “Herndon identified Vazana as the organizer,
Watkins as the murderer, and himself as the accomplice.” Appellant’s Br. at 6.
4Healy

affirms that “[a]t some point during the day, [] Healy returned briefly to the room and handed
Sergeant Schwartz a note indicating that Vazana had been killed.” Appellant’s Br. at 7. Healy argues, however, that
Schwartz did not show the note to Herndon, contrary to Watkins’s allegations. Id.

3a

(4 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 4

Watkins killed Yvette Ingram.” Id.5 Healy and Schwartz allegedly returned to the interrogation
room, where the following apparently transpired:
H[ealy] told Herndon that he and S[chwartz] wanted Ledura Watkins for the
Ingram murder because they believed he was involved and that he likely
murdered Gary Vazana. [] Herndon again told H[ealy] and S[chwartz] that
Watkins had nothing to do with the murder, and that Herndon and Vazana killed
Ingram. H[ealy] and S[chwartz] threatened Herndon that they would charge
Herndon with the Ingram murder unless he implicated Watkins in the murder.
H[ealy] stated he would grant Herndon immunity if he testified against Watkins.
[] H[ealy] and S[chwartz] also threatened to charge Herndon with the recent
murder of Jr. Cunningham, as Herndon was the last individual who was seen with
Cunningham before his murder.
Id. at 7–8 (Page ID #7493–94). Herndon—who purportedly “bore a grudge against Watkins and
believed that Watkins had recently fired shots at Herndon while Herndon was out of jail on
bond”—acceded. Id. at 8 (Page ID #7494). Schwartz tape-recorded Herndon, who “implicated
Watkins in Yvette Ingram’s murder[,]” id., and narrated how he and Watkins robbed and killed
Ingram on Vazana’s orders, R. 34-8 (Taped Statement at 2–3) (Page ID #7973–74).
On October 22, 1975, Schwartz filed a warrant request for Watkins with the Wayne
County Prosecutor’s Office. R. 30 (Am. Compl. at 10) (Page ID #7496); R. 34-9 (Warrant Req.
at 2) (Page ID #7982). Herndon’s tape-recorded statement was the “sole basis for probable cause
for Watkins’[s] arrest and continued detention, as there was no other evidence linking Watkins to
the crime.” R. 30 (Am. Compl. at 9) (Page ID #7495).6 Watkins was arrested that same day. Id.
at 11 (Page ID #7497).
Watkins’s trial commenced on March 8, 1976.

Consistent with his tape-recorded

statement, Herndon testified that both he and Watkins killed Ingram. Id. at 13–15 (Page ID
#7499–501); R. 34-16 (Trial Tr. Part 1 at 379–584) (Page ID #8161–8365). DPD evidence

5Healy

portrays the conversation between Schwartz and Healy outside the interrogation room as follows:
“At some point after Herndon implicated Watkins, Sergeant Schwartz informed Defendant-Appellant Assistant
Prosecuting Attorney Robert H. Healy of these statements. APA Healy came over to speak with Sergeant Schwartz
and Herndon about the immunity issue [i.e., whether Herndon would be granted immunity for Ingram’s murder in
exchange for testifying against Watkins] and then left again.” Appellant’s Br. at 6.
6Healy

asserts that Schwartz submitted a warrant request for Watkins “on the basis of Herndon’s
statements[.]” Appellant’s Br. at 7.

4a

(5 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 5

technician Ronald Badaczewski testified that a single hair on Ingram’s pants “could” have a
“common origin” with a sample supposedly taken from Watkins.7 R. 30 (Am. Compl. at 15–16)
(Page ID #7501–02); R. 34-16 (Trial Tr. Part 2 at 669–814) (Page ID #8420–544). Herndon
supplied the sole eyewitness testimony that implicated Watkins in Ingram’s murder, and the lone
hair was the only physical evidence linking Watkins to the scene of the crime. R. 30 (Am.
Compl. at 15) (Page ID #7501).8 Watkins was convicted of first-degree murder on March 16,
1976 and sentenced to life in prison without the possibility of parole. Id. at 18–19 (Page ID
#7504–05); R. 34-17 (Jury Verdict at 3) (Page ID #8645); R. 34-18 (Sent’g Tr. at 3) (Page ID
#8653).
Herndon repeatedly recanted his testimony in affidavits, letters, and at evidentiary
hearings.9 But Watkins’s many appeals and post-conviction proceedings10 yielded no relief until

7Prior

to the trial, Badaczewski had produced a four-page lab report that concluded that hair samples
purportedly procured from Watkins and Herndon were “microscopically similar and could have a common origin
with several unknown hairs” on Ingram’s pants. R. 30 (Am. Compl. at 12) (Page ID #7498). Watkins alleges that
Badaczewski’s lab report was not turned over to Watkins’s defense team until 2012. Id. at 24 (Page ID #7510).
8Healy

points out that other witnesses testified at Watkins’s trial. See Appellant’s Br. at 9–13. He is
correct. But the trial transcript reveals that the other witnesses supplied evidence of how the DPD handled the crime
scene and hair samples; how Herndon first told the police that he had information about Ingram’s murder; and that
Watkins knew Vazana, who, again, was a drug-dealing police officer whom the DPD assigned to Herndon and
Watkins’s school. Only Herndon’s and Badaczewski’s testimony linked Watkins to the scene of the crime.
9On

June 12, 1980, Herndon signed two affidavits, one of which recanted his trial testimony and implicated
only Vazana in Ingram’s murder. R. 30 (Am. Compl. at 19) (Page ID #7505); R. 34-24 (Herndon 1980 Aff. 1 at 5–
8) (Page ID #8719–22). About three weeks later, Watkins filed a motion in state court for a new trial based on
Herndon’s affidavits. R. 30 (Am. Compl. at 19) (Page ID #7505); R. 34-24 (Mot. New Trial at 1–3) (Page ID
#8716–18). The court held an evidentiary hearing on October 22 of that year, during which Herndon “recanted his
earlier trial testimony[,]” “stated that [Watkins] did not commit the murder of Yvette Ingram[,]” and “implicated
Vazan[a][.]” R. 34-26 (1981 Op. at 2) (Page ID #8731); R. 30 (Am. Compl. at 19) (Page ID #7505). The court
denied Watkins relief, reasoning that Badaczewski’s expert testimony that “one hair” taken from Ingram’s pants
matched Watkins served as additional grounds for Watkins’s conviction, R. 34-26 (1981 Op. at 3) (Page ID #8732),
and that “the recanting affidavits and evidentiary hearing testimony of Herndon’s [were] lacking in
trustworthiness[,]” id. at 5 (Page ID #8734).
Since then, Herndon has recanted his trial testimony on at least three more occasions via two letters to
Michigan judges and another affidavit. On November 16, 1980, Herndon allegedly sent a letter to the trial court,
with the then-Chief Judge copied, “regarding Herndon’s false trial testimony.” R. 30 (Am. Compl. at 19) (Page ID
#7505). On August 12, 2000, Herndon allegedly wrote a letter to Judge Susan Borman, “again admitting to
murdering Yvette Ingram and lying at the Watkins trial.” Id. at 19 n.2. On November 13, 2017, Herndon signed
another affidavit attesting to the events during his interrogation as alleged by Watkins. R. 36-8 (Herndon 2017 Aff.
at 2–4) (Page ID #9650–52). Watkins does not provide a record cite in his brief for the 1980 letter or 2000 letter.
Nor can we find either document in the district court record. But because this is an appeal of a district court’s denial
of a Rule 12(b)(6) motion, we nonetheless construe Watkins’s allegations as true.

5a

(6 of 24)

Case: 20-1074

this millennium.

Document: 45-2

Filed: 01/28/2021

Page: 6

On January 19, 2017, Watkins filed a successive motion for relief from

judgment with the state trial court, which included an affidavit from a forensic hairanalysis expert that challenged Badaczewski’s testimony and hair analysis.11 R. 34-48 (2017
Mot. at 1–3) (Page ID #9181–83); R. 30 (Am. Compl. at 24) (Page ID #7510). The Wayne
County Prosecutor’s Office moved to dismiss Watkins’s case without prejudice. 12 R. 34-49
(Stip. Order at 1–3) (Page ID #9236–38); R. 30 (Am. Compl. at 25) (Page ID #7511). On June
15, 2017, the state court vacated Watkins’s conviction and sentence and dismissed the case
without prejudice. R. 34-49 (Stip. Order at 3) (Page ID #9238). Watkins had been incarcerated
for over forty-one years for Ingram’s murder. R. 30 (Am. Compl. at 26) (Page ID #7512).13
On December 6, 2017, Watkins filed suit pursuant to 42 U.S.C. § 1983 and 42 U.S.C.
§ 198814 in federal court against Healy, Schwartz’s estate,15 Badaczewski, and the City of
In his 2017 successive petition for relief, Watkins asserts that Herndon wrote yet another letter to an
acquaintance in which he admitted that he testified falsely against Watkins. R. 34-48 (2017 Mot. at 33) (Page ID
#9213). Because Watkins did not mention this letter in his amended complaint, we do not consider it.
10See

People v. Watkins, 259 N.W.2d 381 (Mich. Ct. App. 1977); People v. Watkins, 883 N.W.2d 758

(Mich. 2016).
11Watkins

also contended that the DPD committed a Brady violation; acknowledged that Herndon had
recanted in 1980, 2000, and 2006; and raised as impeachment evidence a newly discovered statement written by the
DPD regarding Herndon’s initial communication to the police that only Watkins killed Ingram. R. 34-48 (2017
Mot. at 1–3) (Page ID #9181–83).
The Wayne County Prosecutor’s office stipulated to several facts: that “[t]he ground raised by [Watkins]
that warrants granting him relief is that the evidence in this case included Detroit Police testimony regarding
microscopic hair analysis which is undermined by new Federal Bureau of Investigation standards of hair
comparison”; that the People’s case “hinged” on Herndon’s testimony and Badaczewski’s “microscopic hair
analysis/comparison testimony”; that “[a]ll evidence pertinent to this case has been destroyed” and “no pertinent
evidence remains”; that Watkins’s expert’s proposed testimony and the “new . . . FBI standards for hair comparison
are newly discovered evidence” that “Howenstine’s proposed testimony and the new (2016) revised FBI standards
for hair comparison . . . makes a different result probable on retrial”; and that “[i]nsufficient evidence exists to retry
[Watkins].” R. 34-49 (Stip. Order at 1–3) (Page ID #9236–38).
12

13Watkins’s

complaint further alleges: “On October 30, 2017, Defendant, B[adaczewski], testified in
another case involving Plaintiff’s wrongful conviction that he never believed that forensic hair analysis was reliable
enough to be used in a courtroom. Instead, he believed that forensic hair analysis, like polygraph examinations,
should be used only as an investigative tool. He knew that a forensic hair examiner could never testify that one hair
‘matched’ another hair or that they were from the same source to a ‘high degree of probability.’” R. 30 (Am.
Compl. at 26) (Page ID #7512).
14Watkins’s

amended complaint states: “This is an action for damages brought pursuant to 42 U.S.C.
§§1983 and 1998, the 4th and 14th Amendments to the United States Constitution[.]” R. 30 (Am. Compl. at 1–2)
(Page ID #7487–88) (emphasis added). We assume “1998” refers to 42 U.S.C. § 1988. This error is
inconsequential in this appeal because the sole issue that we address on review—absolute immunity—implicates
only 42 U.S.C. § 1983.

6a

(7 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 7

Detroit.16 R. 1 (Compl. at 1–2) (Page ID #1–2). In his amended complaint, Watkins brings the
following claims against Healy:
•

Count I: fabrication of evidence in violation of the Fourth Amendment, R. 30
(Am. Compl. at 28) (Page ID #7514);

•

Count II: fabrication of evidence in violation of the Fourteenth Amendment, id.
at 30 (Page ID #7516);

•

Count III: malicious prosecution in violation of the Fourth Amendment, id. at 31
(Page ID #7517);

•

Count VIII: civil conspiracy in violation of the Fourth Amendment, id. at 43
(Page ID #7529);

•

Count IX: civil conspiracy in violation of the Fourteenth Amendment, id. at 44
(Page ID #7530);

•

Count XV: common law malicious prosecution, id. at 56 (Page ID #7542).

His complaint also included a variety of state and federal claims against the other defendants.
In January 2019, Healy moved to dismiss Watkins’s amended complaint pursuant to Rule
12(b)(6), R. 34 (Mot. Dismiss at 1) (Page ID #7734), which the district court denied, Watkins v.
Healy, No. 17-CV-13940, 2019 WL 3777631, at *1 (E.D. Mich. Aug. 12, 2019). The district
court also denied Healy’s motion for reconsideration. Watkins v. Healy, 429 F. Supp. 3d 420,
442 (E.D. Mich. 2019). Healy timely filed a notice of appeal, bringing this case before this
court.
II. DISCUSSION
A. Jurisdiction
Healy raises six issues on appeal:

(1) whether the applicable three-year statute of

limitations bars Watkins’s constitutional claims; (2) whether absolute immunity insulates Healy
15Schwartz

died in 2010. See Appellant’s Br. at 3 n.6.

16On

July 25, 2017, Watkins sued the State of Michigan in state court pursuant to Michigan’s Wrongful
Imprisonment Compensation Act. The Michigan Court of Claims granted summary disposition to defendants,
reasoning that Watkins’s hair-analysis expert’s affidavit “only articulates generic problems” with Badaczewski’s
analysis and trial testimony, but “fails to connect those problems to the testimony offered at [Watkins’s] criminal
trial in a way that undermines the specific conclusions reached in that case.” R. 41-4 (Mich. Ct. Cl. Order at 10)
(Page ID #9917). The Michigan Court of Appeals affirmed. See Watkins v. State, No. 348855, 2020 WL 6236500,
at *1 (Mich. Ct. App. Oct. 22, 2020).

7a

(8 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 8

from Watkins’s constitutional and common law claims; (3) whether the criminal proceedings
terminated in favor of Watkins for his § 1983 claims; (4) whether the criminal proceedings
terminated in favor of Watkins for his state-law claims; (5) whether Watkins has plausibly
alleged a claim for civil conspiracy under § 1983; and (6) whether Watkins’s § 1983 suit denies
Healy due process. See Appellant’s Br. at xi.
The parties have approached jurisdiction rather haphazardly. Neither Healy nor Watkins
contested jurisdiction in their briefs.17 After we pressed the issue at oral argument, Healy’s
counsel protested that this court does have appellate jurisdiction to consider all six of Healy’s
arguments. Watkins’s counsel then expressed for the first time that this court has appellate
jurisdiction over only the issue of absolute immunity (Issue #2). Healy’s counsel replied that this
court at least maintains appellate jurisdiction over both absolute immunity and the question of
favorable termination (Issues #3 and #4). Healy subsequently submitted to this court a Federal
Rule of Appellate Procedure 28(j) letter, in which he advanced for the first time that this court
should exert pendent appellate jurisdiction to consider the statute-of-limitations issue (Issue #1).
No. 20-1074, R. 44 (28(j) Letter at 2).
Notwithstanding the parties’ scattered jurisdictional arguments, we must satisfy ourselves
that we have appellate jurisdiction. See Innovation Ventures, LLC v. Custom Nutrition Labs.,
LLC, 912 F.3d 316, 327 (6th Cir. 2018).

Thus, we address whether we have appellate

jurisdiction to review Healy’s six issues per the collateral-order doctrine or via our pendent
appellate jurisdiction.
Title 28 U.S.C. § 1291 grants appellate jurisdiction to the courts of appeals “only from
‘final decisions’ of the district courts,” Mitchell v. Forsyth, 472 U.S. 511, 524 (1985), and a
district court’s order denying a Rule 12(b)(6) motion to dismiss is usually not a final decision

17In

their briefs, Healy submits that we have jurisdiction pursuant to 28 U.S.C. § 1292(b), see Appellant’s
Br. at x, and Watkins argues that we have jurisdiction pursuant to 28 U.S.C. § 1291, see Appellee’s Br. at 1. There
is no record of the district judge certifying that his opinion “involves a controlling question of law as to which there
is substantial ground for difference of opinion and that an immediate appeal from the order may materially advance
the ultimate termination of the litigation[.]” 28 U.S.C. § 1292(b). Nor is there any record of the Sixth Circuit
permitting any such appeal. See id. Thus, this court does not have jurisdiction under § 1292(b). Any appellate
jurisdiction that we may have in this case is limited to § 1291 via the collateral-order doctrine or our pendent
appellate jurisdiction, as explained infra.

8a

(9 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 9

that we may review under § 1291, see Hart v. Hillsdale County, 973 F.3d 627, 634–35 (6th Cir.
2020).

A judicially created exception to this rule is the collateral-order doctrine, which

originated in Cohen v. Beneficial Industrial Loan Corp., 337 U.S. 541 (1949). In Cohen, the
Supreme Court expressed that it had “long given” § 1291 a “practical rather than a technical
construction.” Id. at 546. The Court concluded that a district court decision is immediately
appealable if it falls within “that small class which finally determine claims of right separable
from, and collateral to, rights asserted in the action, too important to be denied review and too
independent of the cause itself to require that appellate consideration be deferred until the whole
case is adjudicated.” Id.
One such collateral determination is a district court’s denial of a defendant’s motion for
dismissal or summary judgment on the grounds of absolute immunity or qualified immunity “to
the extent that it turns on an issue of law[.]” Forsyth, 472 U.S. at 525–30; see also Nixon v.
Fitzgerald, 457 U.S. 731, 742 (1982). “[T]his exception is a narrow one. A denial of a claim of
qualified immunity is immediately appealable only if the appeal is premised not on a factual
dispute, but rather on neat ‘abstract issues of law.’” Hart, 973 F.3d at 635 (quoting Phillips v.
Roane County, 534 F.3d 531, 538 (6th Cir. 2008)) (alteration in original). The prosecutorialimmunity issues here (Issue #2) implicate a “purely legal” question, Forsyth, 472 U.S. at 530,
specifically whether the Court’s prosecutorial-immunity jurisprudence applies retroactively to
the events underlying Watkins’s suit, see § II.B.3., infra. The collateral-order doctrine also
allows us to consider whether Healy has satisfied his burden under Rule 12(b)(6) to show that
absolute immunity is justified with respect to Watkins’s claims. See Prince v. Hicks, 198 F.3d
607, 612 (6th Cir. 1999). Thus, we have appellate jurisdiction to review the district court’s
denial of absolute immunity for Healy’s federal-law and state-law immunity arguments. See
Peterson v. Heymes, 931 F.3d 546, 552–53 (6th Cir. 2019).18

18“We

must look to state immunity law to determine if a denial of immunity based on state law is
appealable.” Brent v. Wayne Cnty. Dep’t of Human Servs., 901 F.3d 656, 691 (6th Cir. 2018) (alteration and citation
omitted), cert. denied, 139 S. Ct. 1551 (2019). Specifically, we look to whether a state “has extended an underlying
substantive right to the defendant official to be free from the burdens of litigation arising from acts taken in the
course of his duties.” Id. (citation omitted). When state law focuses only on granting officials immunity from
liability, officials have no right to an interlocutory appeal. See id. But if a state seeks to guard officials from “‘the
general costs of subjecting officials to the risks of trial—distraction of officials from their governmental duties,

9a

(10 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 10

The collateral-order doctrine does not permit us, however, to consider Healy’s five other
issues. Healy did not raise his civil conspiracy and due-process arguments (Issues #5 and #6) to
the district court; his forfeiture means that the district court issued no determination regarding
these issues that could be considered collateral.19 More importantly, we are not convinced that
any of these five issues would satisfy the Supreme Court’s three-prong collateral-order test. See
Coopers & Lybrand v. Livesay, 437 U.S. 463, 468 (1978) (explaining that to be a qualifying
collateral order, a district court decision must:

(1) “conclusively determine the disputed

question”; (2) “resolve an important issue completely separate from the merits of the action”; and
(3) “be effectively unreviewable on appeal from a final judgment”). At bottom, the third prong
is not met here because delaying review of these five issues until entry of final judgment does
not “imperil a substantial public interest” or “some particular value of a high order.” Mohawk
Indus., Inc. v. Carpenter, 558 U.S. 100, 107 (2009) (quoting Will v. Hallock, 546 U.S. 345, 352–
53 (2006)).
In his Rule 28(j) letter, Healy entreats us to exercise our pendent appellate jurisdiction to
review the statute-of-limitations issue (Issue #1). We decline Healy’s invitation. We maintain
pendent appellate jurisdiction over otherwise nonappealable issues that are “inextricably
intertwined” with appealable issues. See Brennan v. Twp. of Northville, 78 F.3d 1152, 1157 (6th
Cir. 1996). This occurs when the nonappealable issue is “coterminous with, or subsumed in” the
appealable issue, or, put another way, when “[o]ur finding on the first issue necessarily and
unavoidably decides the second.” Id. at 1158. Such jurisdiction is “discretionary” and “a refusal
inhibition of discretionary action, and deterrence of able people from public service,’ we will conclude that the state
intended to immunize its officials from suit and therefore intended to authorize interlocutory appeals from the denial
of such immunity.” Id. (quoting Forsyth, 472 U.S. at 526).
“Michigan courts have recognized a common-law prosecutorial immunity that closely tracks the absolute
§ 1983 immunity conferred by the Supreme Court in Imbler.” Cheolas v. City of Harper Woods, No. 06-11885,
2009 WL 388548, at *9 (E.D. Mich. Feb. 13, 2009) (collecting cases); see also Payton v. Wayne County,
357 N.W.2d 700, 702–03 (Mich. Ct. App. 1984) (citing Imbler v. Pachtman, 424 U.S. 409 (1976)); Davis v. Eddie,
343 N.W.2d 11, 13 (Mich. Ct. App. 1983) (same). Thus, Michigan has adopted the Supreme Court’s desire to
immunize officials from litigation. See Forsyth, 472 U.S. at 526; see also Davis, 343 N.W.2d at 13 (“The public
interest requires that persons occupying such important positions and so closely identified with the judicial
departments of the government should speak and act freely and fearlessly in the discharge of their important official
functions.”) (quoting Bloss v. Williams, 166 N.W.2d 520, 523 (Mich. Ct. App. 1968)). Accordingly, we have
jurisdiction to address whether Michigan’s common-law prosecutorial immunity insulates Healy from Watkins’s
state-law malicious prosecution claim.
19We

discuss forfeiture further in § II.C., infra.

10a

(11 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 11

[to extend the doctrine] could be based on particular circumstances in the case.” Id.; see also
Williams v. Commonwealth of Kentucky, 24 F.3d 1526, 1542 (6th Cir. 1994). Wary that Healy
seeks “to parlay [a] Cohen-type collateral order[] into [a] multi-issue interlocutory appeal
ticket[,]” we invoke our discretion and decline to exercise our pendent appellate jurisdiction over
any of his five other issues. Swint v. Chambers Cnty. Comm’n, 514 U.S. 35, 49–50 (1995).
Healy’s letter correctly points out that the D.C. Circuit has held and the Tenth Circuit has
suggested that pendent appellate jurisdiction permits review of an otherwise unappealable
statute-of-limitations defense in other contexts. See Rendall-Speranza v. Nassim, 107 F.3d 913,
917 (D.C. Cir. 1997); Wilkins v. DeReyes, 528 F.3d 790, 796 (10th Cir. 2008). Because the
courts of appeals have set their own standards for when pendent appellate jurisdiction is
appropriate, other circuits’ decisions are less persuasive here than they are in other contexts.20
We, and only we, decide whether to grant pendent appellate jurisdiction. Because the statute of
limitations issue is not “inextricably intertwined” with the appealable immunity issues, we
decline to exercise pendent appellate jurisdiction over the limitations issue.
Accordingly, we consider only one of Healy’s issues—whether his alleged actions are
shielded by absolute immunity.

20The circuits that invoke pendent appellate jurisdiction diverge as to the breadth of this kind of
jurisdiction. For example, the D.C. Circuit exercises appellate jurisdiction “only when ‘substantial considerations of
fairness or efficiency demand it.’” Rendall-Speranza, 107 F.3d at 917 (quoting Gilda Marx, Inc. v. Wildwood
Exercise, Inc., 85 F.3d 675, 679 (D.C. Cir.1996)). When deciding whether this standard has been met, the D.C.
Circuit considers several factors, only one of which is whether the issues are “inextricably intertwined.” Because we
home in on the “inextricably intertwined” analysis, it is not at all given that we—or other circuits that follow their
own standards—would reach the same conclusion as the D.C. Circuit. Indeed, the Fourth Circuit, Fifth Circuit, and
the Tenth Circuit (in a case with similar facts to Watkins’s suit) have declined to exercise pendent appellate
jurisdiction over a statute-of-limitations defense when they had appellate jurisdiction over a denial of immunity. See
Johnson v. Johnson, 694 F. App’x 945, 947 (5th Cir. 2017); Sanchez v. Hartley, 810 F.3d 750, 761 (10th Cir. 2016);
Ochoa Lizarbe v. Rivera Rondon, 402 F. App’x 834, 837 (4th Cir. 2010).

In short, because the circuits differ as to whether pendent appellate jurisdiction should be invoked at all,
what the scope of such jurisdiction is, and when it is appropriate to review pendent issues, we follow our own
precedent in deciding whether to exercise our discretionary pendent appellate jurisdiction.

11a

(12 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 12

B. Absolute Immunity
Healy argues that he is entitled to absolute immunity regarding Watkins’s constitutional
and common-law claims. See Appellant’s Br. at 39. Taking Watkins’s plausible allegations in
his amended complaint as true, we conclude that Healy is not entitled to absolute immunity.
1. Standard of Review
We review de novo a district court’s denial of a Rule 12(b)(6) motion to dismiss based on
absolute immunity. Koubriti v. Convertino, 593 F.3d 459, 466 (6th Cir. 2010). “To survive a
motion to dismiss, a complaint must contain sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). “A claim has facial plausibility
when the plaintiff pleads factual content that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.” Id. (citing Twombly, 550 U.S. at 556).
Federal courts must “construe the complaint in the light most favorable to the plaintiff, accept all
well-pleaded factual allegations as true, and draw all reasonable inferences in [the plaintiff’s]
favor.” Waskul v. Washtenaw Cnty. Cmty. Mental Health, 979 F.3d 426, 440 (6th Cir. 2020).
“As a general rule, a court considering a motion to dismiss ‘must focus only on the allegations in
the pleadings.’” Id. (quoting Bates v. Green Farms Condo. Ass’n, 958 F.3d 470, 483 (6th Cir.
2020)).
2. Advocacy Versus Investigation
Because “Michigan courts have recognized a common-law prosecutorial immunity that
closely tracks the absolute § 1983 immunity conferred by the Supreme Court[,]” we turn to the
Supreme Court to resolve whether Healy is entitled to absolute immunity for both Watkins’s
federal-law and state-law claims.

See Cheolas v. City of Harper Woods, No. 06-11885,

2009 WL 388548, at *9 (E.D. Mich. Feb. 13, 2009) (collecting cases). In Imbler v. Pachtman,
424 U.S. 409 (1976), the Court held that prosecutors enjoy absolute immunity from § 1983 suits
for damages when they act “within the scope of [their] duties in initiating and pursuing a
criminal prosecution[,]” id. at 410. The Court acknowledged that “initiating a prosecution and []
presenting the State’s case” are “intimately associated with the judicial phase of the criminal

12a

(13 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 13

process[,]” but declined to reach the question of whether absolute immunity is accorded to “those
aspects of the prosecutor’s responsibility that cast him in the role of an administrator or
investigative officer rather than that of advocate.” Id. 430–31; see also Burns v. Reed, 500 U.S.
478, 491 (1991) (explaining that Imbler “reserved judgment” regarding whether prosecutors
were entitled to absolute immunity in their “role as ‘administrator or investigative officer[]’”).
In the decades following Imbler, the Court “revisited and refined” its prosecutorial
immunity jurisprudence. Rouse v. Stacy, 478 F. App’x 945, 947 (6th Cir. 2012); see, e.g., Burns,
500 U.S. at 486, 495 (acknowledging “the functional approach to immunity employed in Imbler”
and “inquir[ing as to] whether the prosecutor’s actions are closely associated with the judicial
process[]”). One such instance is Buckley v. Fitzsimmons, 509 U.S. 259 (1993), where the Court
clarified that the key to an absolute immunity inquiry is “the nature of the function performed,
not the identity of the actor who performed it[,]” id. at 269 (quoting Forrester v. White, 484 U.S.
219, 229 (1988)). In Buckley, the Court addressed the question that it had declined to reach in
Imbler. The Court reiterated that acts undertaken by a prosecutor “in his role as advocate for the
State”—involving “actions preliminary to the initiation of a prosecution and actions apart from
the courtroom”—are accorded absolute immunity. Buckley, 509 U.S. at 272 (quoting Imbler,
424 U.S. at 431 n.33). “[But] when a prosecutor ‘functions as an administrator rather than as an
officer of the court’ he is entitled only to qualified immunity.” Id. at 273 (quoting Imbler, 424
U.S. at 431 n.33).
Decades of clarification have produced sundry examples of prosecutorial actions that fall
on both sides of the advocacy-investigation border. Prosecutors function as advocates—and are
thus protected by absolute immunity—when “knowingly us[ing] false testimony and
suppress[ing] material evidence[,]” Imbler, 424 U.S. at 413; “evaluating evidence and
interviewing witnesses as he prepares for trial,” Buckley, 509 U.S. at 273; “participat[ing] in a
probable cause hearing,” Burns, 500 U.S. at 487; “prepar[ing] and filing . . . the information and
the motion for an arrest warrant[,]” Kalina v. Fletcher, 522 U.S. 118, 129 (1997); or “making
statements at a preliminary examination about the availability of a witness,” Adams v. Hanson,
656 F.3d 397, 399 (6th Cir. 2011). Prosecutors act as investigators and are entitled at most to
only qualified immunity when giving “legal advice to the police[,]” Burns, 500 U.S. at 487, 496,

13a

(14 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 14

including “g[iving] legal advice prior to the existence of probable cause and prior to [the
prosecutor’s] determination that she would initiate criminal proceedings against [a defendant,]”
Prince, 198 F.3d at 614–15; “fabricat[ing] [] false evidence” before “a special grand jury was
empaneled[,]” Buckley, 509 U.S. at 275; and “directing the [police’s] investigation, advising the
[police] regarding the legality of the [products seized from defendants], and propelling the
officers to execute [an operation to seize products]” “prior to the initiation of judicial
proceedings and without probable cause[,]” Rieves v. Town of Smyrna, 959 F.3d 678, 692 (6th
Cir. 2020). The Court has “emphasized that the official seeking absolute immunity bears the
burden of showing that such immunity is justified for the function in question[,]” Burns,
500 U.S. at 486, and is “quite sparing” in granting absolute immunity, Buckley, 509 U.S. at 269
(quoting Forrester, 484 U.S. at 224).
Watkins alleges that Healy committed four acts inside, or right outside, Herndon’s
interrogation room, all of which could implicate the doctrine of absolute immunity. First, Healy
allegedly threatened to charge Herndon with two murders, even though Herndon had told Healy
that Watkins was not involved in Ingram’s murder. R. 30 (Am. Compl. at 28) (Page ID #7514).
Second, Healy apparently promised Herndon immunity for testifying at Watkins’s trial,
notwithstanding Herndon’s statements regarding Watkins’s lack of involvement in the Ingram
murder. Id. Third, Healy purportedly “assist[ed] with the interrogation of Herndon.” Id. at 29
(Page ID #7515).21 Fourth, Healy supposedly conspired with Schwartz to “intimidat[e] and
coerc[e] Travis Herndon into falsely implicating Watkins.” Id. at 43–44 (Page ID #7529–30).
Absolute immunity protects none of these four acts. Healy purportedly questioned and
threatened a witness during an interrogation that took place in the midst of the investigation into
Ingram’s murder. All four of Healy’s alleged actions occurred before any probable cause
hearing, see Buckley, 509 U.S. at 275; cf. Burns, 500 U.S. at 487; before any arrest warrant was

21In

Count III, Watkins alleges that Healy “influenced or participated in the initiation of criminal
prosecution when he deliberately and knowingly fabricated evidence by manufacturing Travis Herndon’s false
‘fourth version’ of the murder, which was material to a finding of probable cause.” R. 30 (Am. Compl. at 32) (Page
ID #7518). The portion of the sentence about the initiation of criminal prosecution could be interpreted as Watkins’
alleging that Healy improperly prosecuted him, which could be protected by Imbler as a function of advocacy. But
the latter half of the sentence and the rest of Count III focus on the purported knowing fabrication of evidence
during interrogation, which is clearly an investigative function.

14a

(15 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 15

sought, cf. Kalina, 522 U.S. at 129; or before a grand jury was convened, see Buckley, 509 U.S.
at 275.

By interrogating Herndon—and allegedly threatening Herndon during said

interrogation—Healy was not performing “the advocate’s role [of] evaluating evidence and
interviewing witnesses as he prepares for trial”; he was performing “the detective’s role in
searching for the clues and corroboration that might give him probable cause to recommend that
a suspect be arrested.” Buckley, 509 U.S. at 273 (emphases added).22 Healy’s four actions were
completely divorced from “the judicial phase of the criminal process.” See Imbler, 424 U.S. at
430.

In short, “[p]rosecutors who supervise and participate in unconstitutional police

interrogations of a criminal suspect are not entitled to absolute immunity.” Wendrow v. Mich.
Dep’t of Human Servs., 534 F. App’x 516, 527 (6th Cir. 2013); see also Fields v. Wharrie,
740 F.3d 1107, 1113 (7th Cir. 2014) (refusing to “bless [the] breathtaking injustice” of a
“[p]rosecutor, acting pre-prosecution as an investigator, [who] fabricates evidence and introduces
the fabricated evidence at trial”).23

22Watkins

points out that Healy was deposed in Watkins’s lawsuit against the State of Michigan, which is
currently making its way through state court. Watkins highlights the transcript of the relevant part of Healy’s
deposition, in which Healy admits that the purpose of an investigative interview—such as the interview of
Herndon—“is to get information from a prisoner.” Appellee’s Br. at 37. This statement of Healy could be
interpreted as Healy’s conceding that his interrogating Herndon was the performance of investigative functions. Of
course, for a Rule 12(b)(6) appeal, this court is limited to the facts stated in the complaint. But this admission
indicates that Watkins has met his burden under Iqbal and Twombly of plausibly alleging that Healy was acting in
his investigative role.
23Healy

cites several cases about prosecutorial immunity that are readily distinguishable.

The case that most supports Healy’s position is our unpublished case, Beckett v. Ford, 384 F. App’x 435
(6th Cir. 2010). In Beckett, we determined that a prosecutor who “pressured, threatened, and enticed witnesses to lie
at Beckett’s trial” was performing advocacy functions and was entitled to absolute immunity. Id. at 451. But
Beckett’s and Watkins’s complaints are noticeably dissimilar. “[D]espite pointing to the fact that [the prosecutor]
did some investigating, Beckett does not allege that [the prosecutor] engaged in any wrongdoing as part of that
investigating. Instead, Beckett argues that [the prosecutor] acted improperly while preparing [the witness] to
testify.” Id. at 441 n.3 (emphases added). Beckett’s complaint alleged that the prosecutor threatened the witness
when “he reviewed with [the witness] what [the witness] would say on the stand.” Id. at 451 (emphasis added).
Here, Watkins does not allege that Healy was preparing Herndon’s testimony for trial in the immediate lead-up to
trial; Watkins alleges that Healy pressured Herndon to testify to secure an unconstitutional conviction before any
probable cause existed, any warrant was sought, and any grand jury was convened. Further, Watkins plausibly
alleges that Healy threatened Herndon during an interrogation in order to falsify a taped statement that would serve
as the sole basis for an arrest warrant; this falls squarely into the investigative stage of this case.
For the same reasons, this case is also distinguishable from Spurlock v. Thompson, 330 F.3d 791 (6th Cir.
2003). In Spurlock, we granted absolute immunity to a prosecutor who allegedly had two witnesses testify falsely at
a defendant’s second criminal trial. See id. at 795. But in Spurlock, the supposed coercion took place long after the
investigative stage, because probable cause had been established and an entire first trial had already transpired. See

15a

(16 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 16

Healy argues that a prosecutor ceases to be an investigator and starts acting like an
advocate when the “prosecutor speak[s] with an accomplice/witness after that individual had
already implicated someone in a murder to a detective.” Appellant’s Br. at 46. Here, contends
Healy, Herndon had already implicated Watkins before Healy and Schwartz apparently
threatened Herndon. Id. But erecting Healy’s suggested barrier between investigation and
advocacy would impermissibly contradict the Supreme Court. In Buckley, the Court concluded
that “[a] prosecutor neither is, nor should consider himself to be, an advocate before he has
probable cause to have anyone arrested.” Buckley, 509 U.S. at 274. “Of course,” the Court
continued, “a determination of probable cause does not guarantee a prosecutor absolute
immunity from liability for all actions taken afterwards. Even after that determination, . . . a
prosecutor may engage in ‘police investigative work’ that is entitled to only qualified immunity.”
Id. at 274 n.5.
In other words, the Buckley Court made clear that a prosecutor acts only as an
investigator and not an advocate before probable cause surfaces and may act as either
investigator or advocate after probable cause arises. Because an individual who implicates
someone in a murder does not necessarily generate probable cause, Healy’s suggested bright-line
rule would radically dislocate the Court’s thoughtful consideration of when investigation may
cease and advocacy might begin. Instead, a straightforward application of Buckley is merited.
Here, Watkins plausibly alleges that Herndon’s taped statement, which Healy allegedly helped
procure, was the sole basis for Schwartz’s application for an arrest warrant. Thus, Watkins
alleges that Healy was functioning as an investigator, and not as an advocate.
Even if Herndon’s two initial statements—which implicated Watkins—generated
probable cause before Schwartz tape-recorded Herndon, Buckley dictates that this would not
automatically transform Healy from investigator to advocate. Wendrow v. Michigan Department
of Human Services is illustrative. In Wendrow, we denied absolute immunity to two prosecutors
who interviewed a suspect before the suspect’s parent was arrested. 534 F. App’x at 527. Even
id. The events in Spurlock occurred in the heart of a period where the prosecutor was acting solely as an advocate,
not an investigator. Further, as in Beckett, the Spurlock prosecutor supposedly pressured the witnesses in the
process of preparing the witnesses’ statements at the second trial. See id. Again, Healy’s alleged coercion of
Herndon took place in the context of interrogation—a purely investigative function—and Healy supposedly acted to
create the sole basis of probable cause; thus, probable cause did not yet exist.

16a

(17 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 17

though the interview “took place after probable cause to arrest [the parent] was established and
in preparation for court proceedings[,]” we rejected the prosecutors’ position “that they were
merely interviewing witnesses as part of their preparation for trial” and that “gathering new
information does not transform their function into that of investigation.” Id. Consistent with
Buckley, we once again reject any bright-line rules that would suggest that a prosecutor
automatically passes from the realm of investigation to the world of advocacy as soon as a
witness implicates someone or when probable cause arises.24
3. Retroactivity
Healy falls back on an equity-laden retroactivity argument. He urges that we apply only
Imbler, a 1976 decision, and not Buckley, a 1993 decision. See Appellant’s Br. at 43. Healy
protests that “Healy’s actions in connection with the prosecution of Watkins in 1975 and 1976
were protected by immunity at the time he performed his duties” and that “[i]t is unfair to
evaluate his actions in light of precedent established 17–18 years after he took them.” Id.
According to Healy, “the standards of prosecutorial immunity in effect in 1975–76 should apply
and would have immunized him from Watkins’[s] § 1983 claims.” Id. at 39.
Healy’s backward-looking approach flies in the face of the Supreme Court’s retroactivity
rule for civil cases. In Harper v. Virginia Department of Taxation, 509 U.S. 86 (1993), the
Supreme Court addressed the “precise extent to which the presumptively retroactive effect of this
Court’s decisions may be altered in civil cases.” Id. at 96. Citing its earlier plurality decision in
James B. Beam Distilling Co. v. Georgia, 501 U.S. 529 (1991), the Court held that:
When this Court applies a rule of federal law to the parties before it, that rule is
the controlling interpretation of federal law and must be given full retroactive

24None

of the cases that Healy cites support his suggested demarcation. In Ireland v. Tunis, 113 F.3d 1435
(6th Cir. 1997), we explained only that “[a] prosecutor’s decision to file a criminal complaint and seek an arrest
warrant and the presentation of these materials to a judicial officer fall squarely within the aegis of absolute
prosecutorial immunity[,]” id. at 1446. Ireland did not speak to whether investigatory functions ceased when a
witness implicated someone. So too does Healy embellish the implications of Red Zone 12 LLC v. City of
Columbus, 758 F. App’x 508 (6th Cir. 2019). In Red Zone, the allegations about the prosecutor’s “conduct all center
around his initiation and prosecution of the . . . suit.” Id. at 514. Any boundary that could be gleaned from Ireland
or Red Zone relates to the prosecutor’s decision to initiate a suit and not the moment that a witness implicates a
suspect or when probable cause emerges.

17a

(18 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 18

effect in all cases still open on direct review and as to all events, regardless of
whether such events predate or postdate our announcement of the rule.
Harper, 509 U.S. at 97–98.
Applying Beam and Harper to Buckley is straightforward. Absolute immunity is a
federal rule, see Buckley, 509 U.S. at 270 (describing the “rule of absolute immunity”), that the
Court has applied to the parties before it without reservation, see, e.g., id. at 275. Thus, Buckley
and its progeny apply with full retroactive force to the events underlying Watkins’s claims. Our
understanding of Harper is confirmed by Supreme Court and courts of appeals decisions that
apply Buckley to events that long predated the filing of a § 1983 suit. See, e.g., Kalina, 522 U.S.
at 120, 126 (applying Buckley even though underlying events occurred in 1992); Collyer v.
Darling, 98 F.3d 211, 216, 221 (6th Cir. 1996) (citing Buckley even though underlying events
took place between 1982–1985 and suit was filed in 1992); Giuffre v. Bissell, 31 F.3d 1241,
1244, 1254 (3d Cir. 1994) (applying Buckley even though underlying events took place in 1991
and § 1983 suit was filed in 1992); Fields, 740 F.3d at 1110–11 (applying Buckley even though
underlying events occurred in 1985); see also Reynoldsville Casket Co. v. Hyde, 514 U.S. 749,
752 (1995) (describing Harper’s holding as “when (1) the Court decides a case and applies the
(new) legal rule of that case to the parties before it, then (2) it and other courts must treat that
same (new) legal rule as ‘retroactive,’ applying it, for example, to all pending cases, whether or
not those cases involve predecision events”) (emphasis added).
By beseeching us to consider whether it is “fair” to hold him to modern standards of
prosecutorial immunity, Healy asks us to flout the Court’s “ban against selective application of
new rules.” Harper, 509 U.S. at 97 (internal quotation marks omitted). We have “no more
constitutional authority in civil cases than in criminal cases to disregard current law,” and “[i]n
both civil and criminal cases, we can scarcely permit the substantive law to shift and spring
according to the particular equities of individual parties’ claims of actual reliance on an old rule
and of harm from a retroactive application of the new rule.”

Id. (alterations and internal

quotation marks omitted); see also Pollard v. State Farm Fire & Cas. Nat’l Union Fire Ins. Co.,
122 F. App’x 837, 842 (6th Cir. 2005) (rejecting argument that litigants’ reliance interests on old

18a

(19 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 19

precedent should prevent court from applying new Supreme Court decision retroactively
pursuant to Harper).
Even if we were to consider Healy’s equitable contentions, “the standards of
prosecutorial immunity in effect in 1975–76” in no way aid Healy’s appeal. Appellant’s Br. at
39. The law that existed in the Sixth Circuit during this period was identical to Buckley. In
Imbler, the Court acknowledged that several courts of appeals had “h[e]ld that a prosecutor
engaged in certain investigative activities enjoys, not the absolute immunity associated with the
judicial process, but only a good-faith defense comparable to the policeman’s.” Imbler, 424 U.S.
at 430 & n.31 (collecting cases). The Court concluded that it “ha[d] no occasion to consider”
these courts of appeals’ decisions. Id. at 430. Relevant here is our decision Hilliard v. Williams,
465 F.2d 1212 (6th Cir. 1972) [hereinafter Hilliard I], which Justice White examined in his
Imbler concurrence, Imbler, 424 U.S. at 443 (White, J., concurring). The Hilliard I court held
that a prosecutor’s “deliberate suppression” of exculpatory evidence was “beyond the scope of
duties constituting an integral part of the judicial process.” Hilliard I, 465 F.2d at 1218 (internal
quotation marks omitted). This is essentially Buckley’s holding. Thus, even without Buckley,
Healy’s actions would not benefit from absolute immunity in light of Hilliard I.
Healy correctly points out that we later vacated Hilliard I in light of Imbler in Hilliard v.
Williams, 540 F.2d 220 (6th Cir. 1976) (per curiam) [hereinafter Hilliard II]. But Healy cannot
overcome his own logic. Hilliard I was decided on July 31, 1972; Healy allegedly fabricated or
conspired to fabricate evidence in October 1975; Imbler was decided on March 2, 1976; Watkins
was convicted on March 16, 1976; and Hilliard II was issued on August 2, 1976. In October
1975—when Healy supposedly fabricated evidence—the law was plainly Hilliard I. On March
16, 1976, the law was still Hilliard I because Imbler specified that the Court was not overruling
courts of appeals’ decisions, like Hilliard I, that refused to accord absolute immunity to
prosecutors performing functions outside the scope of advocacy. Imbler, 424 U.S. at 430.
Because Hilliard I was the law in the Sixth Circuit from July 31, 1972 to August 16, 1976,
Healy’s argument defeats itself.

19a

(20 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 20

C. Qualified Immunity
Pursuant to the Imbler and Buckley line of cases, Healy is at most entitled to qualified
immunity for his alleged actions. But Healy failed to raise a qualified-immunity argument to the
district court or in his brief before us; he has thus forfeited the issue at this stage of the case.
In his Rule 12(b)(6) motion, Healy cursorily references qualified immunity under a
section titled “Absolute Immunity Bars the Fourth Amendment Claims[.]” R. 34 (Mot. Dismiss
at 24–25) (Page ID #7763–64). Under this heading, Healy supplies one paragraph that describes
the qualified immunity two-prong test without any application to the present case. Another
section header reads “Absolute and/or Qualified Immunity Bars the Due Process Claim[,]” but
the sole paragraph that follows pertains only to absolute immunity. Id. at 35–36 (Page ID
#7774–75). The district court found:
Healy cites boilerplate law related to the doctrine of qualified immunity. But the
arguments that Healy makes under this section of his motion relate solely to
absolute immunity, not qualified immunity. Healy has not developed any
argument in his pending motion to dismiss that he is entitled to qualified
immunity, and he has not provided the Court any basis to conclude that he is
entitled to qualified immunity. To the extent that Healy believes that he may be
entitled to qualified immunity, he may raise that argument on summary judgment.
Watkins, 2019 WL 3777631, at *9 n.8. In a footnote in his motion for reconsideration, Healy
mentioned qualified immunity just one time: “The reason why APA Healy framed this in the
amended motion to dismiss as ‘absolute and/or qualified immunity’ is because it is not clear how
the two doctrines interact when there is an argument that an individual would not have been on
notice whether absolute immunity would apply to particular conduct.” R. 49 (Mot. Reconsider at
12 n.5) (Page ID #10098). Based on this footnote, the district court—in its opinion denying
reconsideration—found that Healy “appears to contend, in other words, that he is entitled to
qualified immunity[.]” Watkins, 429 F. Supp. 3d at 440. The court still rejected qualified
immunity as a basis to dismiss Watkins’s suit. Id. 440–41.
On appeal, Healy’s brief includes sparse references to the policies behind qualified
immunity in a section titled “Applying Later Standards of Prosecutorial Immunity Is Unfair To a
Prosecutor Who Would Have Relied on Its Protections in Performing His or Her Duties[,]” in

20a

(21 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 21

which Healy argues that “nothing in Imbler or in any binding precedent in this Circuit would
have put APA Healy on notice that he was ‘abandoning’ his role as a ‘prosecutor’ by speaking
with the primary witness/accomplice who had already implicated a suspect (twice) in a
contemplated murder prosecution.” Appellant’s Br. at 43–45. Nowhere in this section, or
elsewhere in his brief, does Healy articulate the qualified-immunity rules or otherwise argue that
qualified immunity applies to his actions in 1975 and 1976. At most, Healy references the
“purpose of qualified immunity” to support his “fairness” argument. Id. at 44. In his brief,
Healy does not dispute the district court’s finding that qualified immunity does not bar Watkins’s
suit.
By failing properly to assert qualified immunity in his Rule 12(b)(6) motion to dismiss,
Healy has forfeited this issue.25 See 600 Marshall Ent. Concepts, LLC v. City of Memphis,
705 F.3d 576, 585 (6th Cir. 2013) (“[T]he failure to present an issue to the district court forfeits
the right to have the argument addressed on appeal.”) (citation omitted); United States v. White,
920 F.3d 1109, 1122–23 n.4 (6th Cir. 2019) (Clay, J., concurring in part) (“[A] defendant forfeits
an argument by, for instance, failing to make it before the district court, failing to make it in its
opening appellate brief, or identifying it without pressing it.” (citations omitted)), cert. denied,
140 S. Ct. 2667 (2020). Healy’s mentioning qualified immunity in a footnote in his motion to
reconsider is insufficient. See Roger Miller Music, Inc. v. Sony/ATV Publ’g, LLC, 477 F.3d 383,
395 (6th Cir. 2007). Even if we were to disregard the district court’s finding that Healy’s Rule
12(b)(6) motion failed to raise a qualified-immunity argument, Healy forfeited the issue on
appeal via his perfunctory mentions of qualified immunity in his brief. See Turner v. City of
Taylor, 412 F.3d 629, 639 (6th Cir. 2005); Langley v. DaimlerChrysler Corp., 502 F.3d 475, 483
(6th Cir. 2007).26

25Some

of our precedents interchange the terms “waiver” and “forfeiture.” Although related, the concepts
are distinct. “Waiver is affirmative and intentional, whereas forfeiture is a more passive failure to make the timely
assertion of a right.” Berkshire v. Beauvais, 928 F.3d 520, 530 (6th Cir. 2019) (alterations and internal quotation
marks omitted). Because Healy failed to raise a qualified-immunity argument to the district court and, at most,
identified without pressing the issue in his brief, forfeiture is the correct term here. See id.
26At

oral argument, we asked Healy’s counsel whether Healy had forfeited the issue of qualified immunity.
Healy’s counsel submitted that Healy had sufficiently addressed the issue of qualified immunity in his favorabletermination arguments. We disagree. In his motion to dismiss, Healy submits “[i]n the [a]lternative” that “to

21a

(22 of 24)

Case: 20-1074

Document: 45-2

Filed: 01/28/2021

Page: 22

The rule that we “would typically consider” an issue omitted from a brief to be waived or
forfeited is “not jurisdictional, and [we] may choose to entertain arguments not raised by the
parties when the failure to do so would constitute a miscarriage of justice.” Dorris v. Absher,
179 F.3d 420, 425 (6th Cir. 1999). But no miscarriage of justice would occur by applying
forfeiture principles and declining to reach the question of qualified immunity given the current
posture of this case:
[I]t is generally inappropriate for a district court to grant a 12(b)(6) motion to
dismiss on the basis of qualified immunity. Although an officer’s entitlement to
qualified immunity is a threshold question to be resolved at the earliest possible
point, that point is usually summary judgment and not dismissal under Rule 12. It
is often perilous to resolve a Rule 12(b)(6) motion on qualified immunity grounds
because development of the factual record is frequently necessary to decide
whether the official’s actions violated clearly established law.
Hart, 973 F.3d at 635 (citations, alterations, and quotation marks omitted). In sum, Healy has
forfeited the issue of qualified immunity at this stage of the proceedings. Should Healy raise
qualified immunity in a motion for summary judgment, as the district court suggests, that would
be the more appropriate time for this court to address that issue.
III. CONCLUSION
In sum, Healy is not entitled to absolute immunity for Watkins’s claims of constitutional
and common law malicious prosecution and falsification of evidence, and Healy has forfeited the
issue of qualified immunity at this stage of the litigation. We affirm the denial of absolute
immunity to Healy and remand for further proceedings consistent with this opinion.

establish a malicious prosecution claim under § 1983, a plaintiff must show that the proceedings ‘terminated in his
favor.’” R. 34 (Mot. Dismiss at 34) (Page ID #7773). There is no mention of qualified immunity. Healy’s brief
states that “[f]or each of his federal claims, Watkins has the burden under § 1983 to demonstrate that the criminal
proceedings ‘terminated in his favor’ to establish a Constitutional violation to overcome any qualified immunity that
would attach.” Appellant’s Br. at 49. Besides putting the words “qualified immunity” in this sentence, Healy does
not otherwise contend that he is entitled to qualified immunity in his favorable-termination arguments or in any
other part of his brief. For the same reasons that we articulate supra, this bare mention of “qualified immunity”
constitutes forfeiture.

22a

(23 of 24)

Case: 20-1074

Document: 45-3

Filed: 01/28/2021

Page: 1

(24 of 24)

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 20-1074

LEDURA WATKINS,

FILED

Plaintiff - Appellee,

Jan 28, 2021
DEBORAH S. HUNT, Clerk

v.
ROBERT H. HEALY, in his individual capacity,
Defendant - Appellant.

Before: MOORE, GILMAN, and GRIFFIN, Circuit Judges.

JUDGMENT
On Appeal from the United States District Court
for the Eastern District of Michigan at Flint.
THIS CAUSE was heard on the record from the district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is ORDERED that the district court’s denial of absolute
immunity to Robert H. Healy is AFFIRMED, and the case is REMANDED for further proceedings
consistent with the opinion of this court.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

23a

APPENDIX B

Case: 20-1074

Document: 48-1

Filed: 03/16/2021

Page: 1

No. 20-1074
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

LEDURA WATKINS,
Plaintiff-Appellee,
v.
ROBERT H. HEALY, IN HIS INDIVIDUAL CAPACITY,
Defendant-Appellant.

BEFORE:

(1 of 2)

FILED

Mar 16, 2021
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

ORDER

MOORE, GILMAN, and GRIFFIN, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the petition
for rehearing and concludes that the issues raised in the petition were fully considered upon the original
submission and decision of the case. The petition then was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied. However, the panel makes the following edits to the opinion:
Page 5, footnote 8, line 4 - replace “whom the DPI” with “who was”
Page 5, footnote 9, line 5 - strike “on October 22 of that year”
Page 19, first full paragraph, line 9 - insert “vacated, Williams v. Hilliard, 424 U.S. 961
(1976),” after “[hereinafter Hillard I],”
Page 19, second full paragraph, line 1 - replace “we later” with “the Supreme Court”
Page 19, second full paragraph, line 1 - insert “and we reconsidered” after “vacated”
Page 19, second full paragraph, penultimate line - replace “August 16” with “March 22”
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

24a

Case: 20-1074

Document: 48-1

Filed: 03/16/2021

Page: 1

No. 20-1074
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

LEDURA WATKINS,
Plaintiff-Appellee,
v.
ROBERT H. HEALY, IN HIS INDIVIDUAL CAPACITY,
Defendant-Appellant.

BEFORE:

(1 of 2)

FILED

Mar 16, 2021
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

ORDER

MOORE, GILMAN, and GRIFFIN, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the petition
for rehearing and concludes that the issues raised in the petition were fully considered upon the original
submission and decision of the case. The petition then was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied. However, the panel makes the following edits to the opinion:
Page 5, footnote 8, line 4 - replace “whom the DPI” with “who was”
Page 5, footnote 9, line 5 - strike “on October 22 of that year”
Page 19, first full paragraph, line 9 - insert “vacated, Williams v. Hilliard, 424 U.S. 961
(1976),” after “[hereinafter Hillard I],”
Page 19, second full paragraph, line 1 - replace “we later” with “the Supreme Court”
Page 19, second full paragraph, line 1 - insert “and we reconsidered” after “vacated”
Page 19, second full paragraph, penultimate line - replace “August 16” with “March 22”
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

25a

APPENDIX C

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9952

Page 1 of 46

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LEDURA WATKINS,
Plaintiff,

Case No. 17-cv-13940
Hon. Matthew F. Leitman

v.
ROBERT H. HEALY, et al.,
Defendants.
_________________________________/
OPINION AND ORDER DENYING DEFENDANT ROBERT H. HEALY’S
MOTION TO DISMISS (ECF #34)
In 1976, Plaintiff Ledura Watkins was convicted of first-degree murder in
state court and sentenced to life in prison without the possibility of parole. In 2017,
the state trial court vacated Watkins’ conviction and released him from custody
based on a finding that certain expert testimony admitted against Watkins at trial –
asserting that Watkins’ hair matched a hair found on the victim – was unreliable.
Watkins has now filed this civil-rights action against the City of Detroit and certain
individuals involved in his arrest and prosecution, including Defendant Robert H.
Healy, a former state-court prosecutor. Watkins alleges that Healy fabricated
evidence against him and maliciously prosecuted him. Healy filed a motion to
dismiss Watkins’ claims on January 25, 2019. (See Mot. to Dismiss, ECF #34.) For
the reasons that follow, Healy’s motion is DENIED.
1

26a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9953

Page 2 of 46

I
On September 6, 1975, “a Detroit school teacher and reputed drug dealer”
named Yvette Ingram “was found shot to death in her home” in Detroit. (Am. Compl.
at ¶12, ECF #30 at Pg. ID 7490.) Roughly one month later, the City of Highland
Park Police took a man named Travis Herndon into custody on an unrelated offense.
(See id. at ¶15, Pg. ID 7491.) While Herndon was in custody, he “told a Highland
Park police officer … that he [Herndon] had information regarding the Ingram
murder.” (Id.) Herndon said that Watkins “robbed and killed [] Ingram on the orders
of Highland Park police officer[] Gary Vazana.” (Id. at ¶16, Pg. ID 7491.)
On October 21, 1975, Healy and Neil Schwartz, then a sergeant with the
Detroit Police Department, “interrogated [Herndon] at length about the [] Ingram
murder.” (Id. at ¶17, Pg. ID 7491.) During that interrogation, Herndon initially
provided a different version of events than the version that he recounted to the
Highland Park police. Herndon told Healy and Schwartz that he and Watkins, not
Watkins alone, killed Ingram on instructions from Vazana. (See id. at ¶20, Pg. ID
7492.) More specifically, Herndon said that “he and Watkins drove Vazana’s car”
to Ingram’s home and “used Vazana’s pistol to kill Ingram.” (Id.)
At some point during the interrogation, “Healy left the room and [then]
returned, passing a note to Schwartz.” (Id. at ¶21, Pg. ID 7492.) Schwartz read the
note and then handed it to Herndon. (See id.) “The note indicated that Vazana had
2

27a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9954

Page 3 of 46

been found shot to death in his residence.”1 (Id.) Healy thereafter left the room a
second time “while Schwartz attempted to have Herndon make a tape-recorded
statement” that implicated Watkins in Ingram’s murder. (Id. at ¶22, Pg. ID 7493.)
Herndon then changed his story again and offered a third version of events.
Herndon “specifically told Schwartz that his earlier statement about [] Watkins’
involvement [in Ingram’s murder] was not true.” (Id. at ¶23, Pg. ID 7493.) Herndon
then said that Vazana, not Watkins, drove Herndon to Ingram’s home and that
Vazana, not Watkins, shot and killed Ingram. (See id.) Schwartz then left the room
to consult with Healy. (See id. at ¶24, Pg. ID 7493.)
According to Watkins, “while outside the interrogation room, Healy and
Schwartz conspired and agreed to frame [Watkins for Ingram’s murder] by
fabricating evidence that Herndon and Watkins killed [] Ingram.” (Id.) “When they
returned, Healy told Herndon that he and Schwartz wanted [] Watkins for the Ingram
murder because they believed he was involved and that [Watkins] likely murdered
[] Vazana.” (Id. at ¶25, Pg. ID 7493.) “Herndon again told Healy and Schwartz that

1

Healy vigorously disputes this chronology. He argues that based on the time of
Vazana’s death, and when police first learned that Vazana had been killed, it was
impossible for Herndon to have learned about Vazana’s death from Schwartz and
Healy during this interrogation. (See Mot. to Dismiss, ECF #34 at Pg. ID 7770-71.)
However, for the purposes of the motion to dismiss only, the Court will accept the
timeline of events as Watkins’ plausibly alleges in the Amended Complaint.
3

28a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9955

Page 4 of 46

Watkins had nothing to do with the murder[] and that Herndon and Vazana [had]
killed Ingram.” (Id. at ¶26, Pg. ID 7493.)
Healy and Schwartz then began to threaten Herndon. They told Herndon “that
they would charge [him] with the Ingram murder unless he implicated Watkins.” (Id.
at ¶27, Pg. ID 7493-94.) Healy and Schwartz also threatened to charge Herndon
with another, unrelated murder if he did not implicate Watkins. (See id. at ¶28, Pg.
ID 7494.) “In the face of these threats …. [Herndon] agreed to testify against
Watkins.” (Id. at ¶29, Pg. ID 7494.)
Schwartz then “took the affirmative step of tape recording a statement from []
Herndon that implicated Watkins in [] Ingram’s murder.” (Id. at ¶30, Pg. ID 7494.)
In that recording, Herndon said that he and Watkins had killed Ingram “on orders
from [] Vazana.” (Id. at ¶30 n.1, Pg. ID 7494.) “Schwartz deliberately chose not to
record Herndon’s statement that [] Vazana[] murdered [] Ingram[] and that []
Watkins had nothing to do with the murder.” (Id. at ¶33, Pg. ID 7495.)
“One day after procuring Herndon’s made-up statement, Schwartz filed a
Warrant Request [for Watkins] with the Wayne County Prosecutor’s Office.” (Id. at
¶39, Pg. ID 7496.) Healy was not involved in the decision to seek a warrant for
Watkins’ arrest. (See id. at ¶40, Pg. ID 7496-97.) Instead, “Schwartz submitted [the
warrant request] to the Prosecutor’s Office and swore to facts in support of the
warrant.” (Id. at Pg. ID 7497.) Judge John Patrick O’Brien issued the arrest warrant
4

29a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9956

Page 5 of 46

on October 22, 1975. (See id.) Watkins was thereafter arrested for Ingram’s murder
pursuant to that warrant. (See id. at ¶44, Pg. ID 7497.) The content of Herndon’s
incriminating statement was “the sole basis for probable cause for Watkins’ arrest.”
(Id. at ¶32, Pg. ID 7495; emphasis in original.) At that time, “there was no other
evidence linking Watkins to the crime.” (Id.)
At Watkins’ preliminary examination, Healy elicited testimony from Herndon
that he and Watkins killed Ingram at Vazana’s request. (See id. at ¶32, Pg. ID 7495.)
The state district court then bound Watkins “over for trial based on Herndon’s []
testimony.” (Id.)
Watkins’ murder trial began in March of 1976. (See id. at ¶51, Pg. ID 7498.)
Healy again acted as the state-court prosecutor. (See id. at ¶52, Pg. ID 7499.) At the
trial, the prosecution relied on two primary pieces of evidence: (1) Herndon’s
testimony that he and Watkins killed Ingram (see id. at ¶¶ 56-64, Pg. ID 7499-7501)
and (2) expert testimony from evidence technician Ronald Badaczewski that a hair
found on Ingram’s pants was “microscopically similar [to]” and “was a match to”
Watkins’ hair. (Id. at ¶¶ 66-67, Pg. ID 7501.) The hair evidence was “[t]he only
physical evidence linking [] Watkins to the scene [of the crime].” (Id. at ¶65, Pg. ID
7501.)

5

30a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9957

Page 6 of 46

On March 16, 1976, a jury convicted Watkins of first-degree murder. (See id.
at ¶81, Pg. ID 7504.) The state trial court then sentenced Watkins “to a term of life
in prison without the possibility of parole.” (Id. at Pg. ID 7505.)
Numerous appeals and post-conviction motions for relief from judgment
followed. In 1980, during an evidentiary hearing on one of Watkins’ motions,
Herndon testified that both his tape-recorded statement implicating Watkins and his
trial testimony to that effect were false, that Healy and Schwartz had pressured him
into implicating Watkins, and that Vazana, not Watkins, murdered Ingram. (See id.
at ¶86, Pg. ID 7505.) The state trial court concluded that Herndon’s recantation was
not credible, and it denied Watkins’ motion. (See 5/21/1981 State-Court Order, ECF
#34-26.)
In 2016, Watkins filed a new motion for relief from judgment in the state trial
court. (See Am. Compl., ECF #12 at ¶100, Pg. ID 7510.) In that motion, Watkins
challenged the reliability and admissibility of the hair evidence introduced at his trial
– the only physical evidence linking him to the Ingram murder. (See id.) The Wayne
County Prosecutor’s Office then stipulated to the following facts in state court:
 New Federal Bureau of Investigation standards of hair comparison
“undermined” the hair analysis offered at Watkins’ criminal trial;
 The prosecutor’s office could not re-test the hair evidence because
“[a]ll evidence pertinent to this case ha[d] been destroyed;”

6

31a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9958

Page 7 of 46

 The new standards for hair-comparison evidence, and the inability to
re-test the hair evidence, “ma[de] a different result probable on retrial;”
and
 “Insufficient evidence exist[ed] to retry [Watkins].”
(Id. at ¶101, Pg. ID 7511; see also 6/15/2017, “Stipulated Order Granting [Watkins’]
Successive Motion for Relief from Judgment and Dismissing Case without
Prejudice,” ECF #34-49.) After stipulating to these facts, the prosecutor’s office
“move[d] the [state c]ourt to dismiss the case without prejudice.” (6/15/2017 StateCourt Order, ECF #34-49 at Pg. ID 9238.) Based on the parties’ stipulated facts and
the motion by the prosecutor’s office to dismiss the case, the state trial court granted
Watkins’ motion for relief from judgment, dismissed the murder charge against him
without prejudice, and released him from custody. (See id.)
II
On December 6, 2017, Watkins filed this civil-rights action against Healy,
Schwartz’ estate,2 Badaczewski, and the City of Detroit. (See Compl., ECF #1.)
Healy moved to dismiss the claims Watkins brought against him (See Mot., ECF
#21), and the Court held a hearing on that motion on October 17, 2018. The Court

2

Schwartz passed away before Watkins filed this action. Watkins’ has brought his
claims related to Schwartz’ conduct against “John Ferguson, Esq., Personal
Representative of the Estate of Neil Schwartz, deceased.”
7

32a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9959

Page 8 of 46

thereafter entered an order (1) directing Watkins to file an Amended Complaint and
(2) terminating Healy’s motion to dismiss without prejudice. (See Order, ECF #29.)
Watkins filed his Amended Complaint on December 12, 2018. (See Am.
Compl., ECF #30.) Relevant to the pending motion, Watkins brings the following
claims against Healy:
 Fabrication of evidence in violation of the Fourth Amendment (Count I);
 Fabrication of Evidence in violation of the Due Process Clause of the
Fourteenth Amendment (Count II);
 Malicious Prosecution in violation of the Fourth Amendment (Count III);
 Civil Conspiracy in violation of the Fourth Amendment (Count VIII);
 Civil Conspiracy in violation of the Fourteenth Amendment (Count IX); and
 Common law Malicious Prosecution (Count XV).
Healy moved to dismiss Watkins’ amended claims against him on January 25,
2019. (See Mot. to Dismiss, ECF #34.) The Court held a hearing on Healy’s motion
on July 22, 2019.
III
Healy moves to dismiss the claims brought against him pursuant to Federal
Rule of Civil Procedure 12(b)(6). “To survive a motion to dismiss” under Rule
12(b)(6), “a complaint must contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662,
8

33a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9960

Page 9 of 46

678 (2009) (quoting Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555 (2007)). A
claim is facially plausible when a plaintiff pleads factual content that permits a court
to reasonably infer that the defendant is liable for the alleged misconduct. See id.
When assessing the sufficiency of a plaintiff’s claim, a district court must accept all
of a complaint’s factual allegations as true. See Ziegler v. IBP Hog Mkt., Inc., 249
F.3d 509, 512 (6th Cir. 2001). “Mere conclusions,” however, “are not entitled to the
assumption of truth.

While legal conclusions can provide the complaint’s

framework, they must be supported by factual allegations.” Iqbal, 556 U.S. at 664.
A plaintiff must therefore provide “more than labels and conclusions,” or “a
formulaic recitation of the elements of a cause of action” to survive a motion to
dismiss. Twombly, 550 U.S. at 556. “Threadbare recitals of the elements of a cause
of action, supported by mere conclusory statements, do not suffice.” Iqbal, 556 U.S.
at 678.
IV
Healy moves to dismiss Watkins’ Fourth Amendment claims (Counts I, III,
and VIII) on several grounds. The Court will address each in turn.

9

34a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9961

Page 10 of 46

A
Healy first argues that Watkins’ Fourth Amendment claims are barred by the
applicable three-year statute of limitations.3 (See Mot. to Dismiss, ECF #34 at Pg.
ID 7758-63.) In the context of this argument, Healy divides Watkins’ Fourth
Amendment claims into two separate components: the first seeking damages for
allegedly wrongful detention from the date of arrest through the end of Watkins’
preliminary examination (the “Arrest Claim”) and the second seeking damages for
allegedly wrongful detention from the end of the preliminary examination through
Watkins’ conviction at trial (the “Pre-Trial Claim”). Healy insists that both of these
Fourth Amendment claims accrued long before Watkins filed this action and are
therefore time-barred. The Court disagrees.
1
Healy contends that the three-year limitations period on Watkins’ Arrest
Claim began to run in “October 1975” when Watkins was “arraign[ed]” on the arrest

3

Section 1983 does not include its own statute of limitations. “In Wilson v. Garcia,
471 U.S. 261, 276-80 (1985), the Supreme Court held that the appropriate statute of
limitations to be applied in all section 1983 actions is the state statute of limitations
governing actions for personal injury.” McCune v. City of Grand Rapids, 842 F.2d
903, 905 (6th Cir. 1988). Michigan’s statute of limitations governing actions for
personal injury is three years. See id. (citing Mich. Comp. Laws § 600.5805)).
Therefore, the statute of limitations that applies to Watkins’ Section 1983 claims is
three years. See id.
10

35a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9962

Page 11 of 46

“warrant.” (Id. at Pg. ID 7759.) Healy rests this argument largely on the United
States Supreme Court’s decision in Wallace v. Kato, 549 U.S. 384 (2007).
In Wallace, the Supreme Court determined the date on which a claim seeking
damages for a warrantless arrest accrues. In fixing the accrual date, the Supreme
Court “look[ed] first to the common law of torts” because that law serves as an
important “guide” in “defining the contours and prerequisites of a § 1983 claim.”
Manuel v. City of Joliet, --- U.S. ---, 137 S.Ct. 911, 920 (2017) (describing analysis
in Wallace). The Supreme Court explained that plaintiff’s claim in Wallace was in
the nature of a common-law claim for “false imprisonment” because the plaintiff
was seeking compensation for an arrest made in the absence of judicial process.
Wallace, 549 U.S. at 389-90. And because “a false imprisonment ends once the
victim becomes held pursuant to [judicial] process,” id. at 389 (emphasis in
original), the plaintiff’s false imprisonment claim accrued when the state court
issued process holding him over for trial:
Reflective of the fact that false imprisonment consists of
detention without legal process, a false imprisonment ends
once the victim becomes held pursuant to such process—
when, for example, he is bound over by a magistrate or
arraigned on charges. Thereafter, unlawful detention
forms part of the damages for the “entirely distinct” tort of
malicious prosecution, which remedies detention
accompanied, not by absence of legal process, but
by wrongful institution of legal process. If there is a false
arrest claim, damages for that claim cover the time of
detention up until issuance of process or arraignment, but
not more. From that point on, any damages recoverable
11

36a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9963

Page 12 of 46

must be based on a malicious prosecution claim and on the
wrongful use of judicial process rather than detention
itself. Thus, petitioner's contention that his false
imprisonment ended upon his release from custody, after
the State dropped the charges against him, must be
rejected. It ended much earlier, when legal process was
initiated against him, and the statute would have begun to
run from that date, but for its tolling by reason of
petitioner's minority.
Id. at 389–90 (footnotes, internal punctuation, and internal citations omitted;
emphasis in original).
Healy’s reliance on Wallace is misplaced. The Fourth Amendment claim in
Wallace was fundamentally different from Watkins’ Fourth Amendment claim here.
Unlike the plaintiff in Wallace, Watkins was arrested pursuant to judicial process –
an arrest warrant. Therefore, the false imprisonment paradigm applied by the
Supreme Court in Wallace does not fit here. See Winfrey v. Rogers, 901 F.3d 483,
492-93 (5th Cir. 2018) (rejecting defendant’s argument that plaintiff’s Fourth
Amendment claim seeking damages arising out of an arrest pursuant to a warrant
“fits within Wallace v Kato”).
Watkins’ claim seeking damages for detention that resulted from judicial
process – i.e., from an arrest warrant – most closely resembles a common-law claim
for “the tort of malicious prosecution.” Id. (choosing the most analogous commonlaw tort claim for a Section 1983 claim seeking damages arising from an arrest
pursuant to a warrant). And that has important consequences for the date on which
12

37a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9964

Page 13 of 46

the claim accrued. At common law, a plaintiff asserting a malicious prosecution
claim must show that the underlying criminal proceedings against him have
terminated in his favor. See Manuel, 137 S.Ct. at 921 (internal quotation marks
omitted) (“An element of [the] tort [of malicious prosecution] is the termination of
the ... proceeding in favor of the accused”). For that reason, eight “Courts of Appeal
[including the Sixth Circuit] have incorporated a ‘favorable termination’ element
[into Section 1983 claims seeking damages for detention pursuant to judicial
process] and so pegged the statute of limitations to the dismissal of the [underlying]
criminal case.” Id. at 921 and 917 n.4 (citing Sykes v. Anderson, 625 F.2d 294, 30809 (6th Cir. 2010)).
Under this framework, Watkins’ Arrest Claim accrued “when [his] criminal
proceedings end[ed] in his favor” in 2017. Winfrey, 901 F.3d at 492-93 (determining
accrual date for Fourth Amendment claim arising out of arrest made pursuant to a
warrant); see also Myers v. Koopman, 738 F.3d 1190, 1193-95 (10th Cir. 2013)
(holding that Fourth Amendment claim arising out of arrest pursuant to a warrant
did not accrue until “the original [criminal] action terminated in favor of the
plaintiff”). Because Watkins filed this action less than three years after his criminal
proceedings terminated in his favor, his Arrest Claim is not time-barred.4

4

There is admittedly some uncertainty as to whether, after the Supreme Court’s
decision in Manuel, the favorable termination of criminal proceedings remains an
element of any Fourth Amendment claim. In Manuel, the Supreme Court clarified
13

38a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9965

Page 14 of 46

2
Likewise, the Pre-Trial Claim did not accrue until the underlying criminal
proceedings terminated in Watkins’ favor. As described above, the Pre-Trial Claim
seeks damages for Watkins’ detention pursuant to legal process – namely the state
court’s order detaining him for trial. Therefore, like the Arrest Claim, the Pre-Trial
claim is in the nature of a claim for malicious prosecution. And for all of the reasons
explained in Section IV(A)(1) above, such a claim does not accrue until the
underlying criminal proceedings are terminated in the plaintiff’s favor. The PreTrial Claim thus did not accrue until the state trial court vacated Watkins’ conviction

that while the Fourth Amendment protects against pre-trial deprivations of liberty
effected through legal process, the Fourth Amendment “drops out” after “a trial has
occurred.” Manuel, 137 S.Ct. at 920 n.8. There seems to be a reasonable argument
that because the Fourth Amendment “drops out” once a trial has occurred, the result
of the trial – and, more specifically, whether the trial has terminated in favor of the
defendant (who later becomes a civil plaintiff in a Section 1983 action) – is irrelevant
to whether a Fourth Amendment violation has occurred. See Pagan-Gonalez v.
Moreno, 919 F.3d 582, 609 (1st Cir. 2019) (Barron, J. concurring) (“With respect to
making favorable termination an element of the Fourth-Amendment-based tort … I
see little reason to retain that element post-Manuel. The termination of the
prosecution – even if unfavorable to the defendant – cannot render the pre-trial
seizure of the defendant constitutional if that seizure was unlawful from the
inception. No matter how the prosecution ends – including if it ends in a conviction
– the defendant still has a right for there to have been a constitutionally valid basis
for the pre-trial detention that he endured”). But because the Sixth Circuit currently
recognizes favorable termination as an element of a Fourth Amendment claim that
resembles a claim for malicious prosecution, see Sykes, supra, this Court feels
compelled to recognize that element in the context of Watkins’ Fourth Amendment
claims. Any decision to eliminate the favorable-termination element of claims like
these must be made by the Sixth Circuit.
14

39a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9966

Page 15 of 46

and dismissed the criminal charge against him in 2017. Because Watkins’ filed this
action within three years of that dismissal, the Pre-Trial Claim is not time-barred.
3
Healy offers an alternative argument as to why both the Arrest Claim and the
Pre-Trial Claim are time-barred. Healy says that the law governing claims like these
has changed since the time of Watkins’ arrest and prosecution. Healy contends that
while a plaintiff bringing these claims under today’s law may have to show that the
underlying criminal proceedings terminated in the plaintiff’s favor, that showing was
not required under the law as it existed in 1975-76. Healy argues that at that time, a
plaintiff could have brought these claims even if the underlying criminal proceedings
had not terminated in the plaintiff’s favor. More specifically, Healy maintains that
the favorable-termination element of these claims was first added by – and did not
exist prior to – the Supreme Court’s 1994 decision in Heck v. Humphrey, 512 U.S.
477 (1994). In Heck, the Supreme Court held that “in order to recover damages for
allegedly unconstitutional conviction or imprisonment … a § 1983 plaintiff must
prove that the conviction or sentence has been [terminated in the plaintiff’s favor].”
Id. at 466-87. Healy asserts that Heck does not apply “retroactively” and that
Watkins therefore could have brought the Arrest and Pre-Trial Claims in the 1970s
even though he had not yet prevailed in his criminal case. (Mot. to Dismiss, ECF
#34 at Pg. ID 7762-63.) Healy insists that because Watkins failed to bring these
15

40a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9967

Page 16 of 46

claims while they were potentially viable (i.e., during the three years between 19751978 for the Arrest Claim and 1976-1979 for the Pre-Trial Claim), the claims expired
and were not somehow resurrected by Heck. (See id.) The Court disagrees – at least
for now.
Healy has not yet persuaded the Court that Watkins could have brought the
Arrest and Pre-Trial Claims in the 1970s without showing a successful termination
of the underlying criminal proceedings. Indeed, there is reason to believe that
between 1975-1979 Watkins could not have brought these claims without first
prevailing in his underlying criminal proceedings. As Judge David Barron of the
United States Court of Appeals for the First Circuit has explained (in a concurring
opinion cited by Healy5), prior to 1994, claims seeking to recover damages for
wrongful pre-conviction detention were “conceived as ones that sought remedies for
violations of an individual’s substantive due process rights.” Pagan-Gonalez v.
Moreno, 919 F.3d 582, 604 (1st Cir. 2019) (Barron, J. concurring). And in the
context of those claims, courts “routinely required the plaintiffs … to show … that
the prosecutions ultimately had been terminated in favor of the plaintiffs.” Id. at 605.
Then, in 1994, the Supreme Court decided Albright v. Oliver, 510 U.S. 266
(1994). “Albright changed the legal landscape quite significantly.” Id. at 606. In
Albright, the Supreme Court held that plaintiffs challenging pre-conviction detention

5

See Healy Reply Br., ECF #41 at Pg. ID 9877.
16

41a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9968

Page 17 of 46

under Section 1983 must root their claims in a specific constitutional provision rather
than in the Due Process Clause. See id. After Albright, ten circuit courts of appeals
held that claims challenging pre-trial detention pursuant to judicial process should
grounded in the Fourth Amendment, and, as noted above, eight of those appellate
courts – including the Sixth Circuit – held that a plaintiff asserting a Fourth
Amendment claim seeking damages for detention pursuant to judicial process must
show that the underlying criminal proceedings terminated in his favor. See Manuel,
137 S.Ct. at 921 and 917 n.4 (citing Sykes, 625 F.2d at 308-09). Thus, there is reason
to believe that in the Sixth Circuit (and elsewhere), successful termination has
consistently been an element of claims like the Arrest and Pre-Trial Claims from the
time before Albright through to present day.
Healy has not cited any case that persuades the Court that Watkins could have
brought the Arrest or Pre-Trial Claims in the 1970s without having first prevailed in
the underlying criminal proceedings. Healy directs the Court to the Supreme Court’s
decisions in Allen v. McCurry, 449 U.S. 90 (1980), Haring v. Prossie, 462 U.S. 306
(1983), and Briscoe v. Lahue, 460 U.S. 325 (1983). (See Mot. to Dismiss, ECF #34
at Pg. ID 7762.) He says that those cases demonstrate that around the time of
Watkins’ conviction, “the Supreme Court heard numerous § 1983 Fourth
Amendment and Due Process challenges brought by convicted individuals” who had
not had their convictions overturned. (Id.) But none of those cases squarely
17

42a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9969

Page 18 of 46

addressed the question of whether a plaintiff had to prevail in underlying criminal
proceedings before bringing a claim seeking damages for pre-conviction detention
pursuant to judicial process. Instead, they addressed very different questions.6 And
Healy has not cited a single case from around the time of Watkins’ conviction in
which any federal court allowed a plaintiff to bring a Section 1983 action seeking
damages for detention that resulted from judicial process without first having
prevailed in the underlying criminal proceedings.7 For all of these reasons, the Court
is not yet persuaded that Watkins could have brought his Arrest or Pre-Trial Claims

6

For example, the plaintiffs in in Allen and Haring brought civil claims arising out
of allegedly unconstitutional searches, not wrongful arrest or pre-conviction
detention. Moreover, Allen and Haring turned on issues of res judicata and
collateral estoppel that are not relevant here. Similarly, in Briscoe, the plaintiff
sought damages related to allegedly false testimony offered at his criminal trial, not
wrongful arrest or pre-conviction detention. And Briscoe focused on the narrow
issue of witness immunity. Furthermore, all of these decisions were issued in 1980
or later and thus could not have established in 1975 that Watkins could have sought
damages for his pre-conviction detention without showing a favorable termination
of his criminal case. For all of these reasons, the Court is not persuaded that Allen,
Haring, or Briscoe firmly establishes that in 1975, a plaintiff could have brought a
Section 1983 claim seeking damages for an arrest or pre-conviction detention
without showing a favorable termination of the underlying criminal proceedings.

7

Healy directs the Court to the Sixth Circuit’s decision in Mulligan v. Schlachter,
389 F.2d 231 (1968). (See Healy Reply Br., ECF #41 at Pg. ID 9878.) In Mulligan,
the Sixth Circuit held that claims against police officers arising out of an allegedly
“unlawful arrest and search” were barred by the applicable statute of limitations. Id.
at 233. But there is no indication in Mulligan that the arrest was made pursuant to a
warrant. Thus, the claims in Mulligan appear like the claims in Wallace, and unlike
the constitutional claims raised here.
18

43a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9970

Page 19 of 46

in the 1970s even though he had not yet prevailed in his criminal case. Thus, the
Court declines to dismiss Watkins’ Fourth Amendment claims as time-barred.
B
Healy next asserts that even if Watkins’ Fourth Amendment claims are not
time-barred, they should be dismissed because Watkins has failed to show that the
underlying criminal proceedings terminated in his favor. (See Mot. to Dismiss, ECF
#34 at Pg. ID 7773.) Healy acknowledges that the state trial court vacated Watkins’
criminal conviction and dismissed the charge against Watkins. But Healy insists
that, as a matter of law, that ruling did not amount to a “favorable termination.”
(Healy Reply Br., ECF #41 at Pg. ID 9887.) The Court disagrees.
“Criminal proceedings are terminated in favor of the accused by the formal
abandonment of the proceedings by the public prosecutor.” Wilkins v. DeReyes, 528
F.3d 790, 802 (10th Cir. 2008) (quoting Second (Restatement) of Torts § 659(c)).
That is exactly what Watkins contends happened here. Watkins plausibly alleges
that the Wayne County Prosecutor’s Office moved to dismiss the charge against him
because there was “[i]nsufficient evidence” to support the conviction or to justify a
re-trial. (6/15/2017 State-Court Order, ECF #34-49.) Watkins therefore plausibly
alleges that the Wayne County Prosecutor’s Office “formal[ly] abandon[ded]” the
criminal proceedings against him. Wilkins, 528 F.3d at 802.

19

44a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9971

Page 20 of 46

The Tenth Circuit’s decision in Wilkins is instructive on this point. In Wilkins,
prosecutors charged two men with capital murder. At the conclusion of both trials,
the juries “could not reach a verdict and mistrials were declared.” Id. at 795. The
state “initially decided to retry” the men, but the trial court then determined that a
key witness statement “would be excluded from evidence in the retrials as
inadmissible hearsay.” Id. “In light of the exclusions, the district attorney decided
to dismiss the charges because insufficient evidence existed to go forward with the
prosecutions. Accordingly, the district attorney dismissed the criminal cases …
reserving the right to retry both men.” Id.
The men later brought malicious prosecution claims against the investigating
police officers under Section 1983. The officers argued that the claims failed as a
matter of law because the underlying criminal proceedings had not terminated in the
plaintiffs’ favor.

The Tenth Circuit rejected that argument and held that the

prosecutor’s dismissal of the charges constituted a “favorable termination.” Id. at
804. The court explained that the dismissals “were the result of a judgment by the
prosecutor that the case could not be proven beyond a reasonable doubt” because
there was “insufficient evidence upon which to retry the defendants.” Id. at 803. The
court concluded that where a prosecutor dismisses charges because there is
“insufficient evidence to convict,” such a dismissal is “consistent with [a] favorable
termination.” Id. at 804.
20

45a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9972

Page 21 of 46

In this action, as in Wilkins, the state-court prosecutor “decided to dismiss the
charge[] because insufficient evidence existed to go forward with the prosecution[].”
Id. at 795. And, as in Wilkins, because the prosecutor “concluded that without the
excluded [evidence the prosecutor] could not prove the charged crimes beyond a
reasonable doubt,” the termination of Watkins’ criminal proceedings “is consistent
with [a] favorable termination.” Id. at 804.
Healy counters that the dismissal of the criminal charge here did not amount
to a favorable termination because the dismissal did not indicate that Watkins was
actually innocent of the dismissed charge. (See Mot. to Dismiss, ECF #34 at Pg. ID
7773.) But “innocence” in this context is not strictly limited to factual innocence.
Indeed, “the inability of a prosecutor to prove a case beyond a reasonable doubt at
trial can be consistent with the innocence of the accused and can be deemed a
favorable termination in favor of the accused.” Wilkins, 528 F.2d at 803 (citing
Restatement (Second) of Torts § 660, cmt. b). Moreover, “if the circumstances show
that unreliable evidence has been suppressed and the prosecution then abandoned
the case because of [a] lack of sufficient reliable evidence, that would be a
circumstance where the dismissal is indicative of innocence.” Id. “The dispositive
inquiry is whether the failure to proceed implies a lack of reasonable grounds for the
prosecution.” Id. (internal quotation marks omitted).

Here, Watkins plausibly

alleges that the Wayne County Prosecutor’s Office moved the state trial court to
21

46a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9973

Page 22 of 46

dismiss the charge against him after it determined that there was a “lack of sufficient
reliable evidence” and a “lack of reasonable grounds for the prosecution.” Id. The
dismissal is therefore “indicative of innocence,” as that concept is understood in the
context of constitutional claims for malicious prosecution. Id.
Healy next argues that the dismissal of the underlying criminal charge against
Watkins was not a “favorable termination” because it was the result of a compromise
between Watkins and the Wayne County Prosecutor’s Office. Healy directs the
Court to Section 660 of the Restatement (Second) of Torts. That section provides
that where criminal charges are “withdrawn …. pursuant to an agreement of
compromise with the accused,” such a withdrawal is not a favorable termination.
Restatement (Second) of Torts § 660(a). Healy contends that the state-court order
vacating Watkins’ conviction and dismissing the charge against Watkins confirms
that Watkins obtained relief pursuant to a compromise agreement. But while the
facts in that order were stipulated and agreed to, the prosecution alone moved to
dismiss the criminal charge against Watkins. (See 6/15/2017 State-Court Order, ECF
#34-49.) Moreover, Watkins’ allegations do not suggest that the dismissal of the
charge against him resulted from a compromise. At the summary judgment stage,
Healy may present evidence, if there is any, that the dismissal resulted from a
compromise, but at the pleadings stage, Watkins plausibly alleges that it did not.

22

47a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9974

Page 23 of 46

Finally, Healy argues that the underlying criminal proceedings did not
terminate in Watkins’ favor because the charge against Watkins was dismissed
without prejudice. But a dismissal without prejudice is a common manner in which
prosecutors dismiss criminal cases, and the mere fact that the charge against Watkins
was dismissed without prejudice does not preclude a finding that the termination was
in Watkins’ favor. Indeed, the prosecutor in Wilkins dismissed the charges in that
case while “reserving the right to retry both men,” and the Tenth Circuit nonetheless
held that the proceedings terminated in the plaintiffs’ favor. Wilkins, 528 F.3d at 795.
C
Healy next argues that he is entitled to absolute immunity with respect to all
of Watkins’ Fourth Amendment claims. (See Mot. to Dismiss, ECF #34 at Pg. ID
7763-69.) The Court disagrees. Given Watkins’ allegations, Healy is not entitled to
absolute immunity at this time.8

8

In the section of Healy’s motion to dismiss in which he argues that he is entitled to
absolute immunity with respect to Watkins’ Fourth Amendment claims, Healy cites
boilerplate law related to the doctrine of qualified immunity. (See Mot. to Dismiss,
ECF #34 at Pg. ID 7763-64.) But the arguments that Healy makes under this section
of his motion relate solely to absolute immunity, not qualified immunity. Healy has
not developed any argument in his pending motion to dismiss that he is entitled to
qualified immunity, and he has not provided the Court any basis to conclude that he
is entitled to qualified immunity. To the extent that Healy believes that he may be
entitled to qualified immunity, he may raise that argument on summary judgment.
23

48a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9975

Page 24 of 46

1
“A government official is entitled to absolute immunity for performing
functions ‘intimately associated with the judicial phase of the criminal process.’”
Adams v. Hanson, 656 F.3d 397, 401 (6th Cir. 2011) (quoting Imbler v. Pachtman,
424 U.S. 409, 430 (1976)). “The official seeking absolute immunity bears the
burden of showing that such immunity is justified for the function in question.”
Buckley v. Fitzsimmons, 509 U.S. 259, 269 (1993).
In Buckley, the Supreme Court clarified the scope of prosecutorial immunity.
It directed courts to use a “functional approach” when determining whether a
prosecutor is entitled to absolute immunity. Buckley, 509 U.S. at 269. Under that
approach, a prosecutor is entitled to absolute immunity only when he is “functioning
as [an] ‘advocate[]’” with respect to activities “intimately associated with the
judicial phase of the criminal process.” Id. at 271, 274. The Supreme Court
explained that “[t]here is a difference between the advocate’s role in evaluating
evidence and interviewing witnesses as he prepares for trial, on the one hand, and
the detective’s role in searching for the clues and corroboration that might give him
probable cause to recommend that a suspect be arrested, on the other hand.” Id. at
273. The court continued that “[w]hen a prosecutor performs the investigative
functions normally performed by a detective or police officer,” the prosecutor is not
acting as an “advocate” and is therefore not entitled to absolute immunity. Id. The
24

49a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9976

Page 25 of 46

court further noted that “[a] prosecutor neither is, nor should consider himself to be,
an advocate before he has probable cause to have anyone arrested.” Id. at 274.
Applying those standards, the Supreme Court held in Buckley that a
prosecutor was not entitled to absolute immunity from a claim that he fabricated
evidence. See id. The Court stressed that the prosecutor’s alleged fabrication of
evidence took place before probable cause to arrest the suspect existed and before a
grand jury returned an indictment against the suspect. See id. The court therefore
concluded that the prosecutor was not acting as an “advocate” whose activities were
“intimately associated with the judicial process” at the time of the alleged
fabrication. Id. Instead, he was performing functions that were more investigative
in nature. See id. Thus, he was not shielded by absolute immunity.
2
Watkins plausibly alleges that at the time Healy fabricated Herndon’s
statement, Healy (1) was performing “investigative functions” and (2) was not acting
as an “advocate” with respect to activities “intimately associated with the judicial
phase of the criminal process” Id. Healy’s alleged fabrication of that statement took
place before there was probable cause to arrest Watkins, before any charges were
filed against Watkins, and before the judicial process against Watkins began.
Indeed, Watkins’ plausibly alleges that the alleged purpose of coercing Herndon into
identifying Watkins as Ingram’s killer was to create the evidence needed to establish
25

50a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9977

Page 26 of 46

probable cause so that the judicial process could begin. Simply put, Watkins fairly
alleges that Healy was “perform[ing] the investigative functions normally performed
by a detective or police officer,” id. at 273, when Healy fabricated the evidence that
led to Watkins’ pre-conviction detention, and therefore Healy is not entitled to
absolute immunity from Watkins’ Fourth Amendment claims at the pleadings stage.
The Sixth Circuit’s decision Wendrow v. Michigan Dept. of Human Services,
534 F. App’x 516 (6th Cir. 2013), confirms this conclusion. Wendrow arose out of
the alleged sexual abuse of AW, a minor. During the investigation and before any
arrests, two prosecutors interviewed AW’s sibling, IW. See id. at 526. Eventually,
AW and IW’s parents were arrested and faced charges arising out of the alleged
abuse. See id. at 522-23. The charges were later dismissed, and the parents then
“initiated litigation … against the … prosecutors … involved in the sexual-abuse
investigation and prosecution.” Id. at 523. Among other claims, the parents alleged
that the prosecutors violated IW’s constitutional rights during their interview of him.
See id. at 526. The district court held that the prosecutors were entitled to absolute
immunity from these claims because they were interviewing a “witness” in
preparation for trial. Id. On appeal, the plaintiffs argued that there was a question of
fact regarding whether prosecutors were “acting in an investigatory rather than
prosecutorial role during [the] interview” and therefore whether the prosecutors were
“entitled to absolute immunity.” Id.
26

51a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9978

Page 27 of 46

The Sixth Circuit agreed. That court explained that under Buckley “[a]ctivities
undertaken in an effort to ‘search[ ] for clues and corroboration that might give [the
prosecutor] probable cause to recommend that a suspect be arrested’ are not entitled
to immunity.” Id. at 527 (quoting Buckley, 509 U.S. at 273.) And the court
concluded that because there was a question of fact regarding whether, at the time
of IW’s interview, he was a suspect in his sister’s alleged abuse, there was also a
question of fact with respect to whether the prosecutors’ interview of IW could “fall
within [the prosecutor’s] roles as investigators.” Id. The court therefore held that
there was a disputed question of fact with respect to whether prosecutors’ “actions
could be characterized as investigative or prosecutorial.” Id. at 527-28.
Likewise here, Watkins plausibly alleges that Healy’s actions were
undertaken to create “probable cause to recommend that [Watkins] be arrested.” Id.
at 527. Therefore, at this point, Healy is not entitled to absolute immunity with
respect to Watkins’ Fourth Amendment claim for damages. See also Adams, 656
F.3d at 402 (citing Buckley, noting that “[i]nvestigative acts outside the scope of
absolute immunity include … conspiring to fabricate evidence during the time
before convening a grand jury,” and explaining that acts “such as the preliminary
gathering of evidence that may ripen into a prosecution[] are too attenuated to the
judicial process to afford absolute protection”); Hill v. City of New York, 45 F.3d
653, 663 (2d Cir. 1995) (noting that when a “prosecutor manufactures evidence for
27

52a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9979

Page 28 of 46

the purpose of obtaining probable cause to arrest a suspect,” the prosecutor is not
entitled to absolute immunity for that alleged fabrication).9
Healy cites several cases for the proposition that his actions as alleged by
Watkins fell “squarely within the role of a prosecutor” and an advocate and are
therefore protected by absolute immunity. (Mot. to Dismiss, ECF #34 at Pg. ID
7769.) But the cases cited by Healy are distinguishable. Healy first directs the Court
to the Sixth Circuit’s decision in Beckett v. Ford, 384 F. App’x 435, 449-50 (6th Cir.
2010). In Beckett, a state-court prosecutor allegedly coerced an individual to falsely
implicate the plaintiff in a murder investigation, and the Sixth Circuit held that the
prosecutor was entitled to absolute immunity. The Sixth Circuit stressed that the
alleged misconduct had a close connection to the trial process. The prosecutor
allegedly “pressured, threatened, and enticed witnesses to lie at [the plaintiff’s] trial,
presented false testimony at that trial, failed to disclose a deal he and [a police
officer] had made with [a witness], and conspired with [a police officer] to frame
[the plaintiff] for [] murder.” Beckett, 384 F. App’x at 451. The court concluded that
“even if [the prosecutor] threatened, coerced, or enticed [the witness] into presenting
9

See also Williams v. City of Chicago, 315 F.Supp.3d 1060, 1076-77 (N.D. Ill. 2018)
(denying prosecutor’s motion to dismiss based on absolute immunity where plaintiff
alleged that the prosecutor “was directly involved in conducting a pre-charging
coercive overnight interview of [a witness],” “author[ed] a statement riddled with
falsehoods for [the witness] to sign,” and then “relied on [that false] statement to
procure charges against [the plaintiff]” because these allegations involved
“investigative misconduct” that took place before criminal charges were filed).
28

53a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9980

Page 29 of 46

false testimony, [the prosecutor] did so as part of his effort to prosecute [the plaintiff]
for [the] murder.

In other words, despite [the plaintiff’s] assertion that any

fabrication of evidence ‘occurred during the investigatory phase of [the plaintiff’s]
ordeal,’ and despite [the plaintiff’s] assertion that [the prosecutor] was engaged in
investigation … [the prosecutor] was acting neither as an investigator nor an
administrator when he reviewed with [the witness] what [the witness] would say on
the stand.” Id. (internal citation omitted). Healy’s alleged fabrication of Herndon’s
statement before probable cause existed and before any charging decision had been
made lacks the close connection that existed in Beckett between the prosecutor’s
misconduct and the presentation of the state’s case at trial.
Healy also relies on Spurlock v. Thompson, 330 F.3d 791 (6th Cir. 2003). In
Spurlock, the Sixth Circuit held that a prosecutor who allegedly conspired with
police officers to offer false testimony at a defendant’s criminal trial was entitled to
absolute immunity. The Sixth Circuit explained that “[p]rosecutorial decisions
regarding witness testimony, including what witnesses to use at trial, and what
questions to ask them, are activities intimately associated with the judicial phase of
a criminal trial and, therefore, are protected by absolute prosecutorial immunity.” Id.
at 798. The court therefore held that the prosecutor’s decision “to have [two
witnesses] testify falsely at [the defendant’s] second criminal trial, even if done
knowingly, [was] protected by absolute immunity.” Id. But Spurlock did not hold
29

54a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9981

Page 30 of 46

that the prosecutor was absolutely immune for conduct that took place before
probable cause to arrest existed. On the contrary, the court in Spurlock explained
that “where the role as advocate has not yet begun, namely prior to indictment …
absolute immunity does not apply.” Id. at 799.10
Here, for all of the reasons stated above, Watkins plausibly alleges that
Healy’s fabrication of evidence took place “prior to indictment” and before Healy’s
“role as advocate [had even] begun.” Id. Therefore, at this stage, Healy is not entitled

10

Healy also relies upon the Sixth Circuit’s decision in Joseph v. Patterson, 795
F.2d 551 (6th Cir. 1986) for the proposition that “the harm flowing from a
prosecutor’s decision to seek an arrest warrant after participating with police to
coerce a witness into offering false testimony is protected by absolute immunity.”
(Mot. to Dismiss, ECF #34 at Pg. ID 7769.) But Joseph is inapposite for several
reasons. First, the Sixth Circuit emphasized in Joseph that “the prosecutors
knowingly obtained issuance of criminal complaints and arrest warrants … based on
false, coerced statements elicited from [a witness].” Joseph, 795 F.2d at 555. But
here, Watkins specifically alleges that “Healy was not involved in the decision to
seek a warrant for [Watkins’] arrest.” (Am. Compl. at ¶40, ECF #30 at Pg. ID 749798; emphasis added). Thus, Joseph involved a closer link between the prosecutors’
fabrication of evidence and the judicial process than is allegedly present here.
Second, while the court in Joseph did grant prosecutors absolute immunity related
to their roles obtaining the arrest warrants, the court declined to grant prosecutors
absolute immunity with respect to actions they took before those warrants were
requested. More specifically, the court declined to grant the prosecutors absolute
immunity related to their conduct coercing a witness “into making false statements
which support a later criminal complaint.” Joseph, 795 F.2d at 555 (emphasis
added). The court recognized that certain, pre-arrest activities by prosecutors were
“investigatory activit[ies],” and that such activit[ies] were not entitled to absolute
immunity. Id. Finally, in any event, Joseph was decided before Buckley, and it was
expressly abrogated by the Supreme Court’s decision in Kalina v. Fletcher, 522 U.S.
118, 123 (1997). For all of these reasons, the Court concludes that Joseph does not
entitle Healy to absolute immunity.
30

55a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9982

Page 31 of 46

to absolute immunity from Watkins’ Fourth Amendment claims seeking to recover
damages for his pre-conviction detention.
3
Healy counters that even if he is not entitled to absolute immunity under the
law as it stands today (i.e., under Buckley and its progeny), he did enjoy absolute
immunity with respect to all of Watkins’ Fourth Amendment claims in 1975 at the
time of his alleged wrongful acts. (See Mot. to Dismiss, ECF #34 at Pg. ID 776467.) Healy insists that in 1975, the law of absolute immunity did not draw the
distinction between investigative and prosecutorial acts described in Buckley, and
that at that time, prosecutors were absolutely immune for all of their conduct, no
matter when in the criminal process that conduct occurred. And Healy says Buckley
cannot and did not retroactively strip him of the absolute immunity that he enjoyed
at the time of his alleged actions in this case. The Court disagrees with Healy’s
assessment of the law of absolute immunity in 1975.
Shortly after Watkins’ conviction, the United States Supreme Court decided
Imbler, supra, a case involving prosecutorial immunity. In Imbler, the Supreme
Court noted that for many years, several lower courts had declined to recognize a
blanket immunity for prosecutors. See Imbler, 424 U.S. at 430. Those courts
“focus[ed] upon the functional nature of the activities [of the prosecutor] rather than
[the prosecutor’s] status.” Id. For instance, in Robichaud v. Ronon, 351 F.2d 533,
31

56a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9983

Page 32 of 46

537 (9th Cir. 1965), one of the cases cited by the Supreme Court in Imbler, the Ninth
Circuit held that when analyzing a prosecutor’s claim for absolute immunity, “[t]he
trial court must determine the nature of the acts alleged to have been wrongfully
committed, for the [prosecutors] may have abandoned their ‘quasi-judicial’ role. If
they, so doing, committed acts, or authoritatively directed the commission of acts,
which ordinarily are related to police activity as opposed to judicial activity, then the
cloak of immunity should not protect them.” Id. The standard applied by the Ninth
Circuit in Robichaud is analogous to the standard later adopted by the Supreme
Court in Buckley.
Prior to Healy’s alleged conduct here, the Sixth Circuit and this Court
followed Robichaud. For example, in Hillard v. Williams, 465 F.2d 1212 (6th Cir.
1972) (“Hilliard I”), the Sixth Circuit relied in part on Robichaud and held that “the
immunity of a prosecuting attorney from civil liability is not absolute.” Id. at 1217.
The court held that “acts which were outside [a prosecutor’s] quasi-judicial
capacity and beyond the scope of duties constituting an integral part of the judicial
process,” were not entitled to absolute immunity. Id. at 1218. And in Link v.
Greyhound, 288 F.Supp. 898, 900 (E.D. Mich. 1968), this court quoted Robichaud
for the proposition that “the key to the immunity previously held to be protective to
the prosecuting attorney is that the acts, alleged to have been wrongful, were

32

57a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9984

Page 33 of 46

committed by the officer in the performance of an integral part of the judicial
process.”
As these cases demonstrate, at the time of Healy’s alleged wrongful acts in
1975, the Sixth Circuit did not recognize blanket immunity for prosecutors. Instead,
like the Supreme Court in Buckley, the Sixth Circuit confined a prosecutor’s absolute
immunity to activities closely associated with the judicial process.11 And for all of
the reasons explained above, the Court concludes that Healy’s alleged conduct here
did not occur as an integral part of the judicial process. Thus, Healy has not

11

In support of Healy’s argument that the Court cannot strip him of the blanket
absolute immunity that he claims to have enjoyed at the time of his alleged
misconduct, Healy cites the Sixth Circuit’s decision later decision in the Hilliard
case: Hilliard v. Williams, 540 F.2d 220 (6th Cir. 1976) (“Hilliard II”). In Hilliard
II, the Sixth Circuit reconsidered its ruling in Hillard I in light of the Supreme
Court’s decision in Imbler. The Sixth Circuit held that based upon Imbler, the
prosecutor was entitled to absolute immunity. See Hilliard, 540 F.2d at 221-22.
Healy interprets Hilliard II as rejecting the functional approach to prosecutorial
immunity and holding that prosecutors have blanket immunity. But even if Healy
reads Hilliard II correctly, it does not help him here. Hilliard II was not decided
until after Healy’s alleged misconduct. And as explained above, at the time of
Healy’s alleged misconduct, Healy did not enjoy blanket immunity; instead, his
entitlement to absolute immunity was tied to whether he was performing a function
that was closely related to the judicial process. Thus, evaluating Healy’s absolute
immunity claim under the functional approach would not retroactively strip Healy
of immunity that he enjoyed at the time of his alleged misconduct. Moreover, if, as
Healy claims, Hilliard II rejected the functional approach, the Supreme Court
restored that approach in Buckley in 1993. In sum, then, at the two relevant points
in this case – the time of Healy’s alleged misconduct and the time that Watkins filed
this action – Healy did not enjoy blanket absolute immunity.
33

58a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9985

Page 34 of 46

persuaded the Court that he enjoyed absolute immunity at the time of his alleged
actions in this case.
D
Healy next argues that Watkins’ Fourth Amendment “fabrication of evidence”
claim fails because Watkins failed to allege that Healy “fabricated” Herndon’s
statement. (Mot. to Dismiss, ECF #34 at Pg. ID 7771-72.) Healy contends that a
prosecutor “fabricates” evidence only where he creates evidence against a suspect
knowing that the evidence is false. Healy insists that Watkins does not allege such
fabrication here. According to Healy, Watkins alleges only that Healy (1) was
confronted with two different versions of events offered by Herndon – one
implicating Watkins and one not doing so – (2) concluded that the version
implicating Watkins was true, and (3) compelled Herndon to make a statement
incorporating that version. Healy says that, at most, such conduct amounts to
“coercion” of a statement and that coercion, standing alone, does not amount to
“fabrication.” See, e.g., Wrice v. Burge, 187 F.Supp.3d 939, 952 (N.D. Ill. 2015)
(holding that a plaintiff failed to state a cognizable fabrication-of-evidence claim
where he alleged only that police officers had “tortured him … into making
statements, not that the officers fabricated those statements out of whole cloth
knowing they were false”); Anderson v. City of Rockford, 2018 WL 2332066, at *15
(N.D. Ill. May 23, 2018) (holding that a plaintiff “need[ed] to identify evidence
34

59a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9986

Page 35 of 46

showing that defendants knew that a witness’ statement later presented as testimony
was false, not merely evidence that the statement and resulting testimony were
coerced”).
But Watkins plausibly alleges that Healy did fabricate a false statement by
Herndon. Watkins claims that Healy forced Herndon to implicate Watkins after
Herndon had (1) recanted and labeled as “not true” his earlier statements accusing
Watkins of killing Ingram, (2) told Healy “that Watkins had nothing to do with the
murder,” and (3) said that “Herndon and Vazana,” not Watkins, killed Ingram. (Am.
Compl. at ¶¶23, 26, ECF #30 at Pg. ID 7493.) These are plausible allegations that
Healy knew (or should have known) that Herndon’s statement implicating Watkins
was false. Because Watkins plausibly alleges that Healy coerced Herndon into
making a statement Healy knew to be untrue, Watkins has sufficiently alleged that
Healy fabricated evidence.12
V
Healy next argues that he is entitled to the dismissal of Watkins’ Due Process
claims (Counts II and IX). The Court will address each of Healy’s Due Process
arguments in turn.

12

Healy has not cited any case in which a court has found a lack of “fabrication”
where an officer or prosecutor compelled a witness to make a statement that the
witness has indicated is not true.
35

60a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9987

Page 36 of 46

A
Healy first argues that he is entitled to dismissal of Watkins’ Due Process
claims on the basis of absolute immunity. (See Mot. to Dismiss, ECF #34 at Pg. ID
7774-75.) According to Healy, “prosecutors were and are absolutely immune from
claims that they elicited known false or perjured testimony at trial that was used by
a jury to convict.” (Id. at Pg. ID 7774.) Healy claims that “[t]his absolute immunity
bars the Due Process claim here” because the “harm could only have resulted from
[] Healy’s alleged use and elicitation of Herndon’s false testimony to convict
[Watkins].” (Id. at Pg. ID 7775.) The Court disagrees.
Watkins’ Due Process claim does not necessarily rest upon Healy’s “use and
elicitation of Herndon’s false testimony” at trial. Watkins alleges in his Due Process
claims that he was damaged by Healy’s pre-trial fabrication of Herndon’s false
statement. Watkins plausibly contends that without that statement, he never would
have been subjected to a trial or wrongfully detained. (See Am. Compl. at ¶32, ECF
#30 at Pg. ID 7495.) This type of fabrication-of-evidence claim does not hinge upon
the use of fabricated evidence at trial, and thus Healy’s absolute immunity for trialrelated conduct does not shield him from such a claim.
The Sixth Circuit’s recent decision in Jackson v. City of Cleveland, 925 F.3d
793 (2019), confirms that a Due Process fabrication-of-evidence claim does not
necessarily depend upon the introduction or use of the fabricated evidence at trial.
36

61a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9988

Page 37 of 46

In Jackson, the three civil plaintiffs were convicted of murder in an earlier statecourt criminal trial. See id. at 802. “Their convictions were based largely on the
purportedly eyewitness testimony of Edward Vernon, who then was thirteen years
old.” Id. During the investigation into the murder, police officers brought Vernon
to the police station so that he could identify two of the plaintiffs during a line-up.
When the officers asked Vernon if he “recognize[d]” anyone in the line-up, “Vernon
replied that he [did] not.” Id. at 804. Two detectives “then brought Vernon into a
room, whereupon [one officer] accused Vernon of lying, threatened to send his
parents to jail for perjury, banged on a table, and used racial pejoratives to describe
Vernon.” Id. Officers thereafter “gave Vernon a piece of paper, explained to him
that it said that he had failed to identify [the arrested suspects] in the line-up because
he had been scared of their retaliating, and told Vernon to sign it, which he did.” Id.
At the plaintiffs’ criminal trials, Vernon’s signed statement explaining why
he failed to identify the defendants in the line-up was not admitted into evidence by
the prosecution.13 Instead, Vernon offered testimony consistent with that statement.
See id. The plaintiffs were then convicted, largely based on Vernon’s live testimony.

13

The three plaintiffs in Jackson were tried separately. Vernon’s signed statement
was introduced by the defense for impeachment purposes at one of the trials and not
introduced at all for any purpose at the other two trials. See Jackson, 925 F.3d at
816. The Sixth Circuit noted that it was “fair to conclude … [that] Vernon’s live
testimony, not the statement, led to the convictions at all three trials.” Id. (internal
punctuation omitted).
37

62a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9989

Page 38 of 46

See id. at 805. Forty years later, Vernon “formally recanted his testimony,” and the
charges against the plaintiffs were dismissed. Id.
Following the plaintiffs’ release from custody, plaintiffs filed suit “based on
alleged violations of their constitutional rights.” Id. at 802. The plaintiffs included
in their complaint a claim that the officers violated the Due Process Clause by
fabricating Vernon’s statement explaining his failure to identify the plaintiffs in the
line-up. See id. at 813, 815-817. One of the defendant officers thereafter moved for
summary judgment on the ground that “the fabricated statement [did not] affect[] the
decision of the jury” because it was not admitted at the plaintiffs’ trials. Id. at 816.
The district court granted the officer’s motion `and concluded that the witness’s “live
testimony, not the statement, led to the convictions.” Id. (internal quotation marks
omitted).
The Sixth Circuit reversed. It held that “the relevant question [was] not
whether the fabricated evidence was shown to the jury; it [was] whether the
statement affected the decision of the jury.” Id. (emphasis in original). The court
then held that “fabricated evidence that is used as the basis for a criminal charge can
form the basis for a § 1983 claim because, absent that evidence, there would have
been no jury.” Id. (internal punctuation omitted). The court further noted that “a jury
[in the plaintiffs’ Section 1983 case] could [also have found] that the falsified
statement caused the criminal verdicts because the statement coerced Vernon [the
38

63a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9990

Page 39 of 46

witness who allegedly provided the false statement] to testify in conformance with
[the statement].” Id. Jackson therefore demonstrates that a claim for fabrication of
evidence in violation of the Due Process Clause may rest upon alleged misconduct
that occurs long before, and is not part of, the trial process.
As in Jackson, Watkins may pursue a Due Process fabrication-of-evidence
claim based upon alleged misconduct that Healy took separate and apart from his
(Healy’s) participation in Watkins’ criminal trial. Indeed, Watkins’ fabrication
claim is like the one asserted by the plaintiffs in Jackson. Watkins plausibly alleges
that before the judicial process began, Healy fabricated evidence – Herndon’s
statement – that led to the filing of criminal charges and to the impaneling of the jury
for trial. (Am. Compl. at ¶32, ECF #30 at Pg. ID 7495.) And because Watkins’ Due
Process fabrication-of-evidence claim is based upon alleged misconduct occurring
before, and apart from, the commencement of the judicial process, Healy is not
absolutely immune from that claim.
Finally, the fact that Healy may enjoy absolute immunity for introducing
allegedly-false testimony by Herndon at trial does not somehow retroactively
immunize Healy’s fabrication of Herndon’s statement long before trial and prior to
the commencement of the judicial process. See, e.g., Spurlock v. Satterfield, 167
F.3d 995, 1000 (6th Cir. 1999) (“The simple fact that acts may ultimately lead to

39

64a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9991

Page 40 of 46

witness testimony does not serve to cloak these actions with absolute testimonial
immunity”).
For all of these reasons, Healy has not persuaded the Court that he is entitled
to absolute immunity with respect to Watkins’ Due Process claims.14
B
Healy next argues that Watkins’ Due Process claims are barred by the statute
of limitations. (See Mot. to Dismiss, ECF #34 at Pg. ID 7775-77.) This argument
closely tracks Healy’s Fourth Amendment statute-of-limitations argument discussed
in detail above. Healy maintains that the time of Watkins’ conviction in 1976, a
malicious prosecution claim brought under the Due Process Clause did not require a
plaintiff to show that the underlying criminal proceedings had terminated in the
plaintiff’s favor. Healy insists that it was not until the Supreme Court’s decisions in
Heck, supra, and McDonough v. Smith, 139 S.Ct. 2149 (2019), that it became clear
that a convicted criminal defendant had to obtain relief from his conviction before
he could pursue a Due Process claim seeking to recover for post-conviction
detention. Healy therefore contends that Watkins could have brought his Due

14

The section of Healy’s motion to dismiss in which he seeks absolute immunity for
Watkins’ Due Process claims is titled “Absolute and/or Qualified Immunity Bars the
Due Process Claim.” (Mot. to Dismiss, ECF #34 at Pg. ID 7774.) But Healy has not
made any argument that he is entitled to qualified immunity. Instead, the argument
that he presents in his motion is limited to solely absolute immunity. To the extent
that Healy contends that he may be entitled to qualified immunity, he may raise that
defense on summary judgment.
40

65a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9992

Page 41 of 46

Process claims at the time of his conviction and that the claims are time-barred
because he did not do so.
For all of the reasons explained above with respect to Watkins’ Fourth
Amendment claims, the Court disagrees that Watkins’ Due Process claims are barred
by the statute of limitations. Simply put, Healy has not yet persuaded the Court that
in 1976 Watkins could have brought a Due Process-based claim for damages without
showing that his criminal proceedings terminated in his favor. Healy is therefore
not entitled to dismissal of Watkins’ Due Process claims on the basis that those
claims expired in 1979 (three years after Watkins’ conviction).
C
Finally, Healy argues that Watkins’ Due Process claim fails because Watkins
has not alleged that Healy actually “fabricated” evidence. This argument tracks
Healy’s attack on Watkins’ claim that Healy fabricated evidence in violation of the
Fourth Amendment. For the same reasons that the Court rejected this attack
Watkins’ Fourth Amendment fabrication-of-evidence claim (see above at Section
IV(D)), the Court declines to dismiss Watkins’ Due Process fabrication-of-evidence
claim on the ground that Watkins’ has failed to allege a “fabrication” by Healy.

41

66a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9993

Page 42 of 46

VI
Finally, Healy moves to dismiss Watkins’ state common-law malicious
prosecution claim (Count XV) on two grounds. First, Healy argues that he is entitled
to absolute immunity under Michigan law. (See Mot. to Dismiss, ECF #34 at Pg. ID
7777-80.) Second, Healy contends that Watkins has not sufficiently pleaded that his
underlying criminal proceedings terminated in his favor. (See id. at Pg. ID 7780-82.)
The Court will examine each of these arguments separately.
A
Healy first argues that “[a]t the time of the 1975-76 investigation and trial,
and today, Michigan common law provides absolute immunity for prosecutors
accused of manipulating/coercing false testimony before charges were filed, using
and eliciting false evidence at a preliminary examination, and using and eliciting
false evidence at a criminal trial.” (Id. at Pg. ID 7777.) Healy further insists that
“[it] cannot be said that Michigan common law in the 1970s, or today, has or would
have tracked later Supreme Court holdings regarding the scope of § 1983 absolute
immunity” (i.e., the approach endorsed in Buckley that rejected blanket immunity
for prosecutors). (Id. at Pg. ID 7778.) The Court disagrees.
Michigan law with respect to prosecutorial immunity generally follows the
federal standard discussed in detail above. See, e.g., Cheolas v. City of Harper, 2009
WL 388548, at *9 (E.D. Mich. Feb. 13, 2009) (“Michigan courts have recognized a
42

67a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9994

Page 43 of 46

common-law prosecutorial immunity that closely tracks the absolute § 1983
immunity conferred by the Supreme Court in Imbler”). More specifically, Michigan
law incorporates the distinction in federal law between investigatory actions (which
are not entitled to absolute immunity) and actions intimately associated with the
judicial process (which are). See Mathews v. Blue Cross and Blue Shield of
Michigan, 572 N.W.2d 603 (Mich. 1998). In Matthews, the Michigan Supreme
Court favorably cited the United States Supreme Court’s decision in Kalina v.
Fletcher, 118 S.Ct. 502 (1997), for the proposition that “a prosecutor is fully
protected by ‘absolute immunity ... when performing traditional functions’ of an
advocate.” Matthews, 572 N.W.2d at 611 n.16 (quoting Kalina, 118 S.Ct. at 507-08;
emphasis added). This indicates to the Court that Michigan law generally tracks the
functional approach to prosecutorial immunity adopted by the Supreme Court in
Buckley and that federal courts in this circuit applied for many years before Buckley.
And for all of the reasons that Healy is not entitled absolute immunity under federal
law at this stage, Healy is not now entitled to absolute immunity under Michigan
law.
Healy counters that the Michigan Supreme Court’s decision in Belt v. Ritter,
189 N.W.2d 221 (Mich. 1971), demonstrates that Michigan prosecutors enjoyed
blanket absolute immunity in 1975 and 1976. The Court does not share Healy’s
reading of Belt. In Belt, the Michigan Supreme Court explains that “[t]e judiciary
43

68a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9995

Page 44 of 46

has long been granted immunity from suits for malicious prosecution, and this
immunity has gradually been extended to cover prosecuting attorneys, on the theory
that they act in a quasi-judicial capacity.” Id. at 222. But Belt does not define “quasijudicial capacity,” and it says nothing about what conduct is undertaken in that
capacity and thus may be afforded absolute immunity. Nor does Belt hold that
prosecutors have absolute immunity for actions outside the traditional functions of
an advocate. In sum, Belt does not establish that prosecutors have absolute immunity
for the conduct in which Healy allegedly engaged. And Healy has not cited a single
Michigan case in which any Michigan court has ever held that a prosecutor is
absolutely immune for conduct similar to Healy’s alleged fabrication of Herndon’s
statement here.
B
Healy next argues that under Michigan law, the dismissal of the criminal
proceedings against Watkins did not amount to a termination of the proceedings in
Watkins’ favor.

This argument closely tracks the no-favorable-termination

argument that Healy presented in support of his request that the Court dismiss
Watkins’ federal constitutional claims. Healy insists that a plaintiff pursuing a
common-law malicious prosecution claim under Michigan law must show that the
underlying criminal proceedings terminated in the plaintiff’s favor, and Healy
contends that “proceedings are terminated in favor of the accused [under Michigan
44

69a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9996

Page 45 of 46

law] only when their final disposition is such as to indicate the innocence of the
accused.” (Mot. to Dismiss, ECF #34 at Pg. ID 7780, quoting Restatement (Second)
Torts § 660 cmt. a; internal punctuation omitted). The Court disagrees.
In Wolfe v. Perry, 412 F.3d 707 (6th Cir. 2005), the Sixth Circuit explained
that “Michigan courts have defined ‘termination of the criminal proceedings in favor
of the accused’ to include ‘the formal abandonment of the proceedings by the public
prosecutor. Specifically, the ‘dismissal of criminal charges at the insistence of the
prosecutor … implies a lack of reasonable ground for prosecution and is a favorable
termination of the proceeding for purposes of a malicious prosecution action.’”
Wolfe, 412 F.3d at 715 (quoting Cox v. Williams, 592 N.W.2d 173, 174-75 (Mich.
App. 1999)).
As explained in detail above, Watkins plausibly alleges that a “formal
abandonment of the proceedings by the public prosecutor” is precisely what
happened here.

Thus, for the same reasons that Healy’s “factual innocence”

argument failed under federal law, it also fails under Michigan law. Indeed, Healy
has not cited any Michigan cases in which any court has held that “innocence” in
this context under Michigan law is strictly limited to factual innocence.
Finally, Healy argues that “where a termination results from a compromise or
settlement …. There is no favorable termination that will serve as a basis for a cause
of action for malicious prosecution.” (Mot. to Dismiss, ECF #34 at Pg. ID 7781,
45

70a

Case 4:17-cv-13940-MFL-MKM ECF No. 47 filed 08/12/19

PageID.9997

Page 46 of 46

quoting Peterson Novelties, Inc. v. City of Berkley, 672 N.W.2d 351, 363-64 (Mich.
App. 2003).) And Healy insists that the dismissal of the criminal charge here was
the result of a “compromise or settlement” between Watkins and the Wayne County
Prosecutor’s Office. But, for all of the reasons described above, at this stage of the
proceedings, the Court cannot conclude as a matter of law that the dismissal was the
result of a “compromise or settlement.” Healy may explore the circumstances that
led to the dismissal of the criminal charge against Watkins during discovery and
may, if appropriate, raise this argument on a full record during the summary
judgment phase of this action.
VII
For the reasons explained above, Healy’s motion to dismiss (ECF #34) is
DENIED.

Dated: August 12, 2019

s/Matthew F. Leitman
MATTHEW F. LEITMAN
UNITED STATES DISTRICT JUDGE

I hereby certify that a copy of the foregoing document was served upon the
parties and/or counsel of record on August 12, 2019, by electronic means and/or
ordinary mail.
s/A. Chubb for Holly A. Monda
Case Manager
(810) 341-9764

46

71a

APPENDIX D

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.1 Filed 12/06/17 Page 1 of 39

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LEDURA WATKINS, individually;
Plaintiff,
No.
Hon.

-vROBERT H. HEALY, in his individual
capacity; John Ferguson, Esq., Personal
Representative of the Estate of
NEIL SCHWARTZ, deceased, in his
individual capacity; RONALD
BADACZEWSKI, in his individual capacity;
CITY OF DETROIT, a Municipal corporation;
jointly and severally,
Defendants.

COMPLAINT AND JURY DEMAND
NOW COMES the Plaintiff, LEDURA WATKINS, individually, by and
through his attorneys, MUELLER LAW FIRM, by WOLFGANG MUELLER,
and files his Complaint against the Defendants, ROBERT H. HEALY, John
Ferguson, Esq., Personal Representative of the Estate of NEIL
SCHWARTZ, in his individual capacity; RONALD BADACZEWSKI, in his
individual capacity, and CITY OF DETROIT, a municipal corporation, in this
civil action, stating unto this Court as follows:

72a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.2 Filed 12/06/17 Page 2 of 39

1.

This is an action for damages brought pursuant to 42 U.S.C.

§§1983 and 1998, the Fourth, Fifth, Sixth and Fourteenth Amendments to
the United States Constitution against Defendants, ROBERT H. HEALY
(“HEALY”), in his individual capacity; John Ferguson, Esq., Personal
Representative of the Estate of NEIL SCHWARTZ (“SCHWARTZ”), in his
individual capacity; RONALD BADACZEWSKI, (“BADACZEWSKI”), in his
individual capacity; and CITY OF DETROIT (“DETROIT”), a municipal
corporation.
2.

Jurisdiction is founded upon 28 U.S.C. §1331 and 28 U.S.C.

§1343.
3.

Forum is proper based on the situs of the incident, which

occurred in the CITY OF DETROIT.
GENERAL ALLEGATIONS
4.

At all pertinent times Plaintiff, LEDURA WATKINS, was a

United States citizen.
5.

At all pertinent times, Defendant, HEALY, was employed as an

Assistant Prosecuting Attorney by the Wayne County Prosecutor’s Office, a
department of the County of Wayne, and was acting within the scope of his
employment and under color of law.

73a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.3 Filed 12/06/17 Page 3 of 39

6.

HEALY, as a lawyer and prosecutor, was under a professional

duty to refrain from prosecuting a case in which he knew probable cause
was lacking. Michigan Rules of Professional Conduct, Rule 3.8, “Special
Responsibilities of a Prosecutor,” stated, in pertinent part: “A prosecutor in
a criminal case shall: (a) refrain from prosecuting a charge that the
prosecutor knows is not supported by probable cause.”
7.

At all pertinent times, Defendant, SCHWARTZ, was employed

as a Sergeant by the Detroit Police Department (“DPD”), a department of
DETROIT, and was acting within the scope of his employment and under
color of law.
8.

SCHWARTZ, as a sworn police officer, had taken an oath, the

Law Enforcement Code of Ethics, that stated, in pertinent part: “As a sworn
police officer, my fundamental duty is to serve the community; to safeguard
lives and property; to protect the innocent against deception, the weak
against oppression or intimidation and the peaceful against violence or
disorder; and to respect the constitutional rights of all to liberty, equality and
justice.”
9.

At all pertinent times, Defendant, BADACZEWSKI, was

employed as an Evidence Technician by the Detroit Police Department

74a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.4 Filed 12/06/17 Page 4 of 39

(“DPD”), a department of DETROIT, and was acting within the scope of his
employment and under color of law.
10.

BADACZEWSKI, as a sworn police officer, had taken an oath,

the Law Enforcement Code of Ethics, that stated, in pertinent part: “As a
sworn police officer, my fundamental duty is to serve the community; to
safeguard lives and property; to protect the innocent against deception, the
weak against oppression or intimidation and the peaceful against violence
or disorder; and to respect the constitutional rights of all to liberty, equality
and justice.”
11.

Defendant, DETROIT, at all relevant times, was a municipal

corporation organized under the laws of the State of Michigan.
12.

On September 6, 1975, Yvette Ingram, a Detroit school teacher

and reputed drug dealer, was found shot to death in her home after a
robbery; drugs, money, and three rings were stolen.
13.

The autopsy report from the Wayne County Medical Examiner’s

Office, dated September 7, 1975, stated that Yvette Ingram died from two
gunshot wounds to the right temple.
14.

As part of the crime scene investigation, evidence technicians

collected several pieces of physical and trace evidence and had them
analyzed. In particular, several pieces of Yvette Ingram’s hair were delivered

75a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.5 Filed 12/06/17 Page 5 of 39

to the DPD Crime Lab for analysis. On September 8, 1975, at 8:10 a.m., the
evidence was placed into evidence envelopes, and labeled with Evidence
Property Tag numbers (“EPT#”):
EPT #345584 – Hammer;

EPT #345595 – Fingernails;

EPT #345585 – Pillow;

EPT #345598 – Hair;

EPT #345587 – Jacket & Towel;

EPT #345615 – Bedding;

EPT #345594 – Clothes;

EPT #362821 – Hair Sample;

15.

The Detroit Police had no solid leads until approximately

October 14, 1975, when Travis Herndon, then 20 years old, who was in the
Highland Park Jail following an arrest on an unrelated armed robbery
charge, told a Highland Park police officer, Donald Roberts, that he had
information regarding the Ingram murder.
16.

A memo authored by police officer, Thomas Rossler, indicated

that Travis Herndon claimed that Ledura Watkins, then 19, robbed and
killed Yvette Ingram on the orders of Highland Park police officer, Gary
Vazana, who was involved in selling drugs. Herndon was reportedly afraid
of Vazana, who carried many guns. Rossler stated that he knew Vazana,
who Rossler described as “wild.”
17.

On October 21, 1975, Herndon was taken from the Highland

Park Jail to the Wayne County Prosecutor’s Office, where he was

76a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.6 Filed 12/06/17 Page 6 of 39

interrogated at length about the Yvette Ingram murder by Defendants,
HEALY and SCHWARTZ.
18.

While assisting with the interrogation of Herndon, HEALY was

acting in an investigatory capacity, doing the job a police investigator would
normally do. Because HEALY’s investigative interrogation of Herndon was
undertaken prior to any decision to submit a warrant request for Plaintiff’s
arrest, HEALY is not entitled to absolute immunity in a civil action.
19.

During the interrogation, Herndon first told HEALY and

SCHWARTZ that he and Ledura Watkins were with a corrupt Highland
Park police officer, Gary Vazana, at a Holiday Inn hotel in Highland Park,
where Vazana ordered them to kill Ingram because Vazana was
dissatisfied with the cocaine he had purchased from Ingram. Herndon told
HEALY and SCHWARTZ that Vazana was a known drug dealer in
Highland Park.
20.

Herndon told HEALY and SCHWARTZ that he and Watkins

drove Vazana’s car (with personalized license plate “VAZANA”) and used
Vazana’s pistol to kill Ingram.
21.

HEALY and SCHWARTZ let Herndon know that they were

aware of Vazana’s drug-dealing activities. During the interview, HEALY left
the room and returned, passing a note to SCHWARTZ. SCHWARTZ read

77a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.7 Filed 12/06/17 Page 7 of 39

the note and handed it to Herndon, with HEALY in the room. The note
indicated that Vazana had been found shot to death in his residence.
22.

HEALY then left the room while SCHWARTZ attempted to have

Herndon make a tape-recorded statement implicating Ledura Watkins.
23.

Herndon specifically told SCHWARTZ that his earlier statement

about Ledura Watkins’ involvement was not true. In fact, Vazana drove
Herndon to Yvette Ingram’s house and robbed and killed her, with Vazana
shooting Ingram twice in the head while she was on her bed.
24.

SCHWARTZ then left the room and returned with HEALY.

While outside the interrogation room, HEALY and SCHWARTZ conspired
and agreed to frame Plaintiff by fabricating evidence that Herndon and
Watkins killed Yvette Ingram. In doing so, HEALY violated Michigan Rule
of Professional conduct 3.8(a), and SCHWARTZ violated his oath as a law
enforcement officer.
25.

When they returned, HEALY told Herndon that he and

SCHWARTZ wanted Ledura Watkins for the Ingram murder because they
believed he was involved and that he likely murdered Gary Vazana.
26.

Herndon again told HEALY and SCHWARTZ that Watkins had

nothing to do with the murder, and that Herndon and Vazana killed Ingram.

78a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.8 Filed 12/06/17 Page 8 of 39

27.

HEALY and SCHWARTZ threatened Herndon that they would

charge Herndon with the Ingram murder unless he implicated Watkins in
the murder. HEALY stated he would grant Herndon immunity if he testified
against Watkins. TT 386-388.
28.

HEALY and SCHWARTZ also threatened to charge Herndon

with the recent murder of Jr. Cunningham, as Herndon was the last
individual who was seen with Cunningham before his murder.
29.

In the face of these threats, Herndon, who bore a grudge

against Watkins and believed that Watkins had recently fired shots at
Herndon while Herndon was out of jail on bond, agreed to testify against
Watkins.
30.

In furtherance of the conspiracy to frame LEDURA WATKINS,

SCHWARTZ took the affirmative step of tape recording a statement from
Travis Herndon that implicated Watkins in Yvette Ingram’s murder,
although SCHWARTZ and HEALY knew that Herndon and Gary Vazana
killed Ms. Ingram, and Watkins was not involved.
31.

The tape-recorded statement began at 1:25 p.m. and

concluded at 2:22 p.m.

79a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.9 Filed 12/06/17 Page 9 of 39

32.

The Herndon statement became the sole basis for probable

cause for Watkins’ arrest, as there was no other evidence linking Watkins
to the crime.
33.

SCHWARTZ deliberately chose not to record Herndon’s

statement that Gary Vazana, murdered Yvette Ingram, and that Ledura
Watkins had nothing to do with the murder.
34.

On and before October 21, 1975, the City of Detroit, by and

through its final policymakers, had a custom and policy to authorize,
condone, tolerate, and approve illegal and unconstitutional actions by
Detroit Police Department officers and command staff.
35.

The illegal and unconstitutional actions and practices included

but were not limited to:
a.

Conducting inadequate investigations into serious felony
cases, such as murder, to expeditiously close cases and
affirmatively choosing not to develop or pursue actual
leads or evidence;

b.

Knowingly and deliberately fabricating evidence to
manufacture probable cause to arrest and/or strengthen a
case for conviction;

c.

Knowingly and deliberately withholding material
exculpatory and impeachment (“Brady”) evidence
contained in polices files, including but not limited to, the
“Miscellaneous” file, when it would be apparent to any
reasonable officer that the Defendant would be entitled to
such evidence.

80a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.10 Filed 12/06/17 Page 10 of 39

36.

Defendant, DETROIT, through its final policymakers, further

maintained a custom and policy of failing to adequately train, supervise,
and/or discipline officers concerning proper and constitutionally adequate
evidence collection, analysis, and disclosure, including the duty not to
fabricate evidence and to disclose apparent exculpatory and impeachment
evidence, such as that contained in the “Miscellaneous” file.
37.

DETROIT’s customs and policies, set forth above,

demonstrated deliberate indifference to the constitutional rights of its
citizens, including Ledura Watkins, and were the moving force behind the
individual Defendants’ constitutional violations.
38.

Also on October 21, 1975, SCHWARTZ obtained hair samples

from Travis Herndon to compare to hair samples taken from the victim’s
clothing and bedroom. Herndon’s hair samples were placed in EPT
#374677.
39.

On October 22, 1975, one day after procuring Herndon’s made-

up statement, SCHWARTZ filed a Warrant Request with the Wayne County
Prosecutor’s Office.
40.

HEALY was not involved in the decision to seek a warrant for

Plaintiff’s arrest, as SCHWARTZ submitted the Investigator’s
Report/Warrant Request to the Prosecutor’s Office and swore to facts in

81a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.11 Filed 12/06/17 Page 11 of 39

support of the warrant, which was signed by Judge John Patrick O’Brien on
October 22, 1975.
41.

SCHWARTZ knew that probable cause was lacking for the

arrest, as he and HEALY threatened and coerced Travis Herndon into
making up a fabricated statement implicating Ledura Watkins.
42.

SCHWARTZ knew that there was no physical evidence or

eyewitness evidence linking Ledura Watkins to the murder.
43.

On October 22, 1975, a warrant for Ledura Watkins’ arrest was

signed by Judge, John Patrick O’Brien. SCHWARTZ did not tell the judge
that he and HEALY had manufactured the Travis Herndon witness
statement.
44.

Pursuant to the arrest warrant, Plaintiff was arrested the same

45.

On or about October 29, 1975, SCHWARTZ obtained hair

day.

samples from Ledura Watkins. They were designated as EPT #362821.
46.

Sometime after October 29, 1975, BADACZEWSKI issued his

report on analysis of trace evidence in the case, including comparison
analysis of hairs obtained from Travis Herndon, Ledura Watkins, and the
victim, Yvette Ingram.

82a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.12 Filed 12/06/17 Page 12 of 39

47.

The 4-page lab report, which was signed by BADACZEWSKI

and his lab supervisor, Sgt. Mary Jarrett, concluded that the hair samples
allegedly procured from Ledura Watkins and compared to hair samples
from the victim’s clothes and bedroom were “microscopically similar and
could have a common origin with several unknown hairs on [the victim’s]
pants (item C3).”
48.

BADACZEWSKI fabricated the lab report results and chose not

to support his typed final report with notes or bases for his conclusions.
BADACZEWSKI fabricated the lab results to manufacture probable cause
to help convict Ledura Watkins of murder.
49.

BADACZEWSKI’s lab report was fabricated because it shows

that EPT #362821 was actually obtained on September 7, 1975 and turned
over to the lab on September 8, 1975, while hair samples were not
obtained from Plaintiff until October 29, 1975.
50.

BADACZEWSKI also compared Travis Herndon’s hair samples

to unknown hair samples collected, and concluded that they were “found to
be microscopically similar to unknown hair on pants (Item C3) and could
have a common origin.”
51.

Ledura Watkins’ murder trial commenced on March 8, 1976.

83a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.13 Filed 12/06/17 Page 13 of 39

52.

During the trial, Prosecutor HEALY made an “offer of proof” that

no steps were taken, nor promises made, with respect to Herndon’s
robbery charges in the Circuit Court. TT 296.
53.

Both HEALY and SCHWARTZ, the Officer-in-Charge who was

sitting at counsel’s table with HEALY, knew that HEALY’s statement was
false.
54.

HEALY also elicited testimony from Herndon that no one ever

went to Circuit Court to speak with a judge on his behalf or try to help him.
TT 338.
55.

Both HEALY and SCHWARTZ knew that Herndon’s statement

was false.
56.

At trial, Herndon testified that on September 6, 1975, he met

with Gary Vazana and Mr. Watkins at a Holiday Inn hotel in Highland Park.
According to Herndon, Vazana was a corrupt Highland Park officer, known
for his drug dealing and criminal activity. TT 393.
57.

Herndon further testified that Vazana instructed Herndon and

Mr. Watkins to take Vazana’s .38 revolver and car, with personalized
plates, and go to Yvette Ingram’s home. Vanzana’s orders were to kill
Ingram, sell drugs found in her home, and share the money. TT 394-398.

84a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.14 Filed 12/06/17 Page 14 of 39

58.

Herndon testified that he and Mr. Watkins drove to Ingram’s

home and forced their way into her home with the gun. According to
Herndon, Mr. Watkins took the gun from him and took Ingram upstairs
while Herndon searched downstairs. Herndon then followed them up to the
bedroom. TT 405-407.
59.

According to Herndon, after Ingram told them where the drugs

were hidden, Herndon retrieved the drugs and took three rings from the
dresser. TT 411-412.
60.

At that point, Mr. Watkins allegedly told Herndon to hold pillows

over Ingram’s head and Herndon complied. Herndon testified that Mr.
Watkins then shot Ingram twice through the pillow. TT 416-418, 428.
61.

Herndon claimed marijuana was stolen from the bedroom floor

and both men left through the back door, retrieved the car, and returned to
the Holiday Inn. TT 420-422, 424.
62.

Herndon stated he gave the drugs to Vazana, while Watkins

returned Vazana’s gun back to him. Herndon kept the rings and money. TT
425.
63.

According to Herndon, he gave one ring to Mr. Watkins the day

after the murder. He then pawned the second ring and sold the pawn ticket

85a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.15 Filed 12/06/17 Page 15 of 39

to Edgar Young. Herndon testified that he gave Watkins half the money,
and then gave the third ring to Watkins. TT 428-429.
64.

Herndon was the only person to implicate Mr. Watkins in Yvette

Ingram’s murder.
65.

The only physical evidence linking Mr. Watkins to the scene

was a single strand of hair. BADACZEWSKI, a FBI-trained forensic hair
examiner, testified in support of the admissibility of the hair evidence
implicating Watkins.
66.

BADACZEWSKI testified that one hair from the victim’s pants

was microscopically similar to one known head hair from Watkins, and that
his opinion was based on “reasonable scientific certainty.” TT 767-70.
67.

BADACZEWSKI later testified that there was a “high

probability” of a match between Ledura Watkins’ hair and a single hair
found on the victim’s pants. TT 811. He also testified that, in fact, the
single hair on the victim’s pants was a match to Ledura Watkins. TT 805806.
68.

In doing so, BADACZEWSKI violated all national standards

regarding hair identification and the probability of a match between two
hairs.

86a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.16 Filed 12/06/17 Page 16 of 39

69.

BADACZEWSKI intentionally chose not to disclose to HEALY in

pre-trial meetings that he could only testify that Watkins’ hair sample “could
have” a common origin, and that Watkins could not be ruled out as a
source of the hair found on Ingram’s pants. He also deliberately and
intentionally chose not to tell HEALY that HEALY should not try to elicit
responses to questions indicating that there was a “high probability” or
certainty that the hair on Ingram’s pants was from Watkins.
70.

SCHWARTZ, the Officer-in-Charge of the investigation, also

testified at trial. He testified that Herndon had given consistent statements
about his role in the murder and that Herndon had always indicated Mr.
Watkins as the shooter. TT 830.
71.

SCHWARTZ knew that his statements, made under oath, were

72.

When SCHWARTZ testified that Herndon had always given

false.

consistent statements regarding the murder, SCHWARTZ was aware of
three different versions given by Herndon: 1) that Watkins killed Ingram by
himself; 2) that Herndon and Vazana killed Ingram and Watkins was not
involved; and 3) that Herndon and Watkins killed Ingram on orders from
Vazana and used Vazana’s car and gun to accomplish the crime.

87a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.17 Filed 12/06/17 Page 17 of 39

73.

On cross-examination, SCHWARTZ told the jury that he

became certain that Herndon did not shoot Ingram because SCHWARTZ
“had the class to give him a polygraph” exam. TT 828.
74.

SCHWARTZ knew that his statement, made under oath, was

untrue when he made it. As would later be discovered, SCHWARTZ knew
that Herndon had not passed a polygraph examination.
75.

At trial, BADACZEWSKI testified that he did not know when the

hair samples were tested because he did not have a date on the report.
Neither he nor SCHWARTZ had provided the prosecutor, HEALY, or the
defense, with the first page of the report, which contained the date and
BADACZEWSKI’s signature.
76.

Providing the first page of the lab report would have exposed

the fabrication that EPT #362821 had been obtained seven weeks before
Plaintiff’s hair samples were procured.
77.

Travis Herndon’s testimony was the centerpiece of the State’s

case, since he was the only witness to identify Plaintiff as the shooter, and
no witnesses or physical evidence placed Ledura Watkins at the scene of
the murder. The prosecutor stressed Herndon’s testimony in his opening
statement and closing argument:
I guess it boils down to simply this. Is Travis Herndon
telling the truth when he tells of the envolvement (sic) of Ledora

88a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.18 Filed 12/06/17 Page 18 of 39

(sic) Watkins …. Because that is what the whole trial turns
upon. (TT 233).
The proofs offered by the People and the proofs offered by
the defense have suggested three areas for your consideration
with respect to the guilt of Ledora (sic) Watkins …. The first and
most obvious area of consideration would be the testimony of
Travis Herndon. (TT at 946).
78.

The prosecutor also suggested that Herndon’s testimony about

the scene of the murder was corroborated by witnesses who appeared on
the scene after the body was discovered, including police officers and
neighbors. He continued:
Now, you have heard, mostly on the examination of Mr. Cohn, of
the Detroit police officers … about the steps taken by the Detroit
Police to back up the story as told by Travis Herndon …. But you
learn of the corroboration of the testimony of Travis Herndon
through the Detroit police officers, through the witnesses called
by the prosecution, and I think more importantly through the
witnesses called by the defense. (TT 948-949).
79.

Finally, the prosecutor discussed that the physical hair evidence

could not be the basis of the conviction by itself:
The final piece of corroboration is a hair. And I want you to
understand clearly what this hair does and why it is offered here.
More importantly, I want you to understand that the hair does not,
I do not suggest to you that the hair by itself is enough to convict
Ledora (sic) Watkins because it isn’t. The hair by itself is not
enough. (TT 965-966).

89a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.19 Filed 12/06/17 Page 19 of 39

80.

However, the prosecutor stated that the hair evidence

corroborated Herndon’s testimony that Ledura Watkins was present at the
scene of the murder.
81.

On March 16, 1976, the Recorder’s Court jury convicted Plaintiff

of first-degree murder for allegedly murdering Yvette Ingram. On April 15,
1976, Watkins was sentenced to a term of life in prison without the possibility
of parole.
82

But for Defendants’ conduct, as set forth below, there would

have been no probable cause for an arrest warrant.
POST-CONVICTION DEVELOPMENTS
83.

After his appeal of right, Mr. Watkins filed a delayed motion for

new trial based on an affidavit signed by Travis Herndon on June 12, 1980,
recanting his trial testimony.
84.

Herndon also wrote a letter to the trial court on November 16,

1980, copying then-Chief Judge, Samuel Gardner, regarding Herndon’s
false trial testimony. The letters were discovered in a court file.1

Herndon wrote a letter to Judge Susan Borman on August 12, 2000, again
admitting to murdering Yvette Ingram and lying at the Watkins trial.
1

90a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.20 Filed 12/06/17 Page 20 of 39

85.

An evidentiary hearing was held on several days between

November 1980 and May 1981. Travis Herndon, SCHWARTZ, and HEALY
testified at the evidentiary hearing.
86.

Herndon testified that he initially implicated Watkins over a

grudge. Herndon also testified that at around the time that SCHWARTZ told
him Vazana was dead, he told SCHWARTZ, and later, HEALY, that he and
Vazana committed the murder. Herndon also testified Watkins was not
involved and did not receive any of the stolen rings.
87.

The Brady implication of this piece of evidence is apparent

because it also provides critical impeachment evidence against Ronald
Badaczewski, the evidence technician. The evidence would weaken his
conclusion that the single hair found on the victim’s pants was
microscopically similar to Watkins’ known hair sample and could have
come from a common origin (Watkins head). If Watkins was not present at
the murder, the hair on the victim’s pants could not have come from his
head. Thus, it would undercut Badaczewski’s trial testimony, where he
testified to a “high probability” as to the hair identification, TT 811, and that
a single hair found on Yvette Ingram’s pants was, in fact, from Ledura
Watkins. TT 805-806.

91a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.21 Filed 12/06/17 Page 21 of 39

88.

On July 20, 2009, following numerous FOIA denials by the

Detroit Police Department and the Wayne County Prosecutor’s Office, and
in response to a discovery order issued by the trial court, Mr. Watkins
received approximately 345 pages from the Detroit Homicide file, including
a “Miscellaneous File.”
89.

One piece of material Brady evidence contained in the

Miscellaneous file that the police never provided to the prosecutor or
defense was a memo from Police Officer James Rossler describing
Herndon’s first statement to the police on October 14, 1975, which
indicated that Mr. Watkins alone had committed the murder while Herndon
and Vazana stayed back at the hotel.
90.

The Rossler memo would have provided important

impeachment evidence against the State’s star witness, Travis Herndon, as
it contradicted his trial testimony regarding his involvement in the murder
and demonstrated yet a third version of events put forth by the only witness
who actually witnessed the murder.
91.

The Rossler memo would also have impeached SCHWARTZ,

who testified at trial that Herndon had given consistent statements about
the killing and that Watkins was the shooter.

92a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.22 Filed 12/06/17 Page 22 of 39

92.

Another significant piece of evidence in the “Miscellaneous file,”

that was never provided by the police to the prosecutor or defendant, was
an anonymous letter from “The Corporation” to Yvette Ingram’s mother,
post-marked October 8, 1975, detailing a threat to her and other family
members over missing money, presumably relating to a drug transaction.
The letter stated, in pertinent part:
We are very sorry about your daughter’s death. But you
see there was quite a large sum of money involved. For the
last month, we have investigated quite a few of Yvette’s friends,
and even threatened some of them and their families, but we
couldn’t come up with the money. However, we know that she
talked to you and her cousin Marilyn quite a lot. This was
verified by people that we had to threatened (sic).
So you two are the only two left we haven’t contacted.
We’ve had you and Marilyn under observation for a
couple of weeks and we are positive that one of you know
where the money is .... Now if you call the police this will call for
instant execution (same as Yvette) …. So if you and Marilyn
don’t get together and discuss where the money is it will mean
death for all parties concerned. We will be contacting both of
you shortly and ther (sic) had better be positive answers or
else. This is not one party talking, but the syndicate, so you
can see Yvette was in way over her head. For your sake,
please, co-operate.
THE CORPORATION
93.

The significance of this Brady evidence is obvious: It

demonstrates that Yvette Ingram may have been executed because of the
apparent theft of “a large sum of money” from organized crime, relating to

93a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.23 Filed 12/06/17 Page 23 of 39

her drug dealing. It would clearly have been exculpatory, as there was
never any suggestion that Watkins was part of organized crime, and could
have been used to impeach the testimony of Travis Herndon and Sgt.
SCHWARTZ, who seemingly did no investigation into other suspects once
he had Herndon’s statement, and did no investigation into the victim’s drug
dealing history and possible enemies.
94.

Also present in the “Miscellaneous” file, which was never turned

over to the prosecutor or defense counsel before trial, was a memo authored
by Sgt. James Harkness and sent to Sgt. Gale of the Homicide section, dated
October 3, 1975, stating that the victim’s neighbor, Horace Lee Brown, was
examined by polygraph and that it was the opinion of the examiner that “the
subject’s truthfulness cannot be verified and he cannot be cleared in this
matter.”
95.

The Harkness memo relating to Horace Lee Brown’s polygraph

results also contained a handwritten note from Officer Lashaw, which stated
“The timing is incredible. Brown hears a scream – calls her – and within 3
minutes Leon is banging on the door. Possibly Leon killed her, heard the
phone, panicked and went out the back door, came around front for his car
and decided to play innocent and knocked on her door.”

94a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.24 Filed 12/06/17 Page 24 of 39

96.

Following Mr. Watkins’ conviction in March of 1976, but before

the 1980-81 Evidentiary Hearing, a previously undisclosed DPD “interoffice memorandum” was discovered. The memorandum, dated October
24, 1975, was from polygraph examiner, James Harkness, to Sgt.
SCHWARTZ. After giving Herndon the polygraph exam, Harkness
concluded that Herndon’s “truthfulness cannot be verified and he cannot be
cleared in this matter.”
97.

The Brady impeachment value of the Harkness memo is again

obvious: it would impeach the credibility of Sgt. SCHWARTZ, who “opened
the door” when he testified he became convinced of Herndon’s veracity
after SCHWARTZ “had the class to give him a polygraph,” clearly implying
that Herndon must have passed the exam. It would show that SCHWARTZ
knew Herndon had not passed the polygraph exam five months before
SCHWARTZ testified, and one day after Mr. Watkins was arrested. It could
also have been used to impeach the credibility of Mr. Herndon.
98.

In 2012, the Cooley Law School Innocence Project obtained a

four-page lab report, even after the Wayne County Conviction Integrity Unit
had represented that there were no documents or evidence at the DPD
Crime Lab. This document, turned over to Ledura Watkins’ defense team
for the first time, included the first page of the lab report, which revealed the

95a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.25 Filed 12/06/17 Page 25 of 39

September 8, 1975, date that hair samples were provided to the Crime Lab,
including EPT #362821.
99.

In September of 2016, the Cooley Law School Innocence Project

filed its appearance on behalf of Ledura Watkins to secure his freedom.
100. As part of Mr. Watkins’ Successive Motion from Relief from
Judgment, the Cooley Innocence Project attached the Affidavit of Julie
Howenstine, a forensic hair analysis expert formerly with the Michigan State
Police Crime Lab. Ms. Howenstine’s affidavit challenged Mr. Badaczewski’s
testimony and characterizations of the certainty of hair analysis through
probabilities, as being seriously flawed.
101. The Wayne County Prosecutor’s Office agreed that
Defendant’s Motion for Relief from Judgment should be granted,
and the case dismissed, and stipulated to the following facts
regarding the flawed hair analysis testimony:
a.
The ground raised by Defendant that warrants
granting him relief is that the evidence in this case included
Detroit Police testimony regarding microscopic hair analysis
which is undermined by new Federal Bureau of Investigation
standards of hair comparison. (Stipulated Order Granting
Defendant’s Successive Motion for Relief from Judgment
and Dismissing the Case Without Prejudice, 6-15-17, ¶ (1)).
b.
Officer Badaczewski testified at the jury trial that of
all the hairs found at the crime scene and on the victim’s clothing,
most belonged to the victim, and those that did not were
microscopically similar and could have come from a common

96a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.26 Filed 12/06/17 Page 26 of 39

origin as hairs belonging to Defendant and Herndon. As to the
hair that was microscopically similar to Defendants’ hair, he was
talking about one hair from the pants of the victim in comparison
to hair taken from three places from Defendant’s head. In so
testifying, the terms “reasonable scientific certainty” and “high
probability” were used. Id. at ¶ (4).
c.
Having found no evidence or expert to refute what
Julie Howenstine sets forth in her affidavit, Julie Howenstine’s
proposed testimony and the new (2016) revised FBI standards
for hair comparisons are newly discovered evidence. That new
evidence makes a different result probable on retrial. Id. at ¶ (7).
102. On June 15, 2017, Judge Bruce Morrow signed the Stipulated
Order Granting Defendant’s Successive Motion for Relief from Judgment
and Dismissing the Case Without Prejudice.
103. Plaintiff was released from prison on June 15, 2017.
104. From his arrest on October 22, 1975 to his release on June 15,
2017, Ledura Watkins spent 15,206 days, or 41 years, 7 months, and 18
days in jail and/or prison for a crime he did not commit.
105. Due to the conduct of Defendants, HEALY, SCHWARTZ, and
BADACZEWSKI, as set forth below, Plaintiff, LEDURA WATKINS, suffered
the following injuries and damages:
a.

Suffering a deprivation of liberty by being wrongfully
incarcerated and imprisoned for a period of over forty-one
years, including significant time spent in solitary
confinement;

b.

Severe emotional distress for the period from his arrest to
the present, including, but not limited to: the emotional

97a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.27 Filed 12/06/17 Page 27 of 39

distress of being charged with first-degree murder and
felony-firearm, facing a sentence of life in prison without
the possibility of parole; and being wrongfully convicted of
crimes the Defendants knew he did not commit;
c.

Physical manifestations of emotional distress including,
but not limited to, sleeplessness, irritability, loss of
appetite, headaches, and other symptoms;

d.

Fright, shock, indignity, humiliation, outrage, and
embarrassment of being wrongfully charged and
imprisoned for murder;

e.

Loss of enjoyment of daily activities;

f.

Not being able to attend the funerals of several family
members;

g.

Physical injuries suffered in prison;

h.

Loss of employment opportunity, past income, and future
earning capacity;

i.

Restricted and/or complete loss of all forms of personal
freedom and physical liberty, including but not limited to
diet, sleep, personal contact, educational opportunity,
vocational opportunity, personal fulfillment, sexual activity,
family relations, recreational activities, and personal
expression;

j.

Many of Plaintiff’s injuries and damages are likely to be
permanent;

k.

Other damages which may be revealed through
discovery.

98a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.28 Filed 12/06/17 Page 28 of 39

COUNT I
CONSTITUTIONAL VIOLATIONS BY INDIVIDUAL
DEFENDANTS PURSUANT TO 42 U.S.C. § 1983
106. Plaintiff incorporates by reference each preceding paragraph as
if fully stated herein.
107. Defendant, SCHWARTZ, was under a duty to refrain from
fabricating evidence to establish probable cause for an arrest warrant and
frame an innocent man of murder.
108. Defendant, SCHWARTZ, was under an unwavering legal duty
(“Brady” duty) to disclose to the prosecutor all material evidence where its
exculpatory and impeachment value was apparent.
109. Defendant, SCHWARTZ, as Officer-in-Charge, was under a
further duty to make truthful statements to the prosecutor and magistrate
judge to establish probable cause for an arrest warrant.
110. Defendant, HEALY, as prosecutor, was under a duty not to
fabricate evidence to manufacture probable cause to frame an innocent
man of murder.
111. Defendant, BADACZEWSKI, was under a duty to refrain from
fabricating evidence to frame an innocent man of murder.
112. Defendants violated LEDURA WATKINS’ constitutionallyprotected rights, including:

99a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.29 Filed 12/06/17 Page 29 of 39

a.
His right not to be deprived of liberty based upon
fabrication of evidence by a government official acting in an
investigatory capacity, including a prosecutor, police detective, and
police evidence technician;
b.
His right to Brady evidence, protected by the Due Process
clause of the Fifth Amendment, as applicable to the States via the
Fourteenth Amendment to the U. S. Constitution;
c.
His right not to be seized and continuously detained
without probable cause, based upon a police officer’s deliberate and
knowingly false statements and material omissions to prosecutors
and magistrate judges, guaranteed by the Fourth Amendment; and
d.
His right not to be the subject of a civil conspiracy to
fabricate evidence to establish probable cause for an illegal arrest
and prosecution.
113. Plaintiff’s constitutional rights were violated in at least the
following ways:
Fabrication of Evidence
Defendants, HEALY and SCHWARTZ, deliberately and knowingly
fabricated evidence to create probable cause; namely, Herndon’s
statement implicating Plaintiff in the Yvette Ingram murder, which was
material to a finding of probable cause that Plaintiff had committed
the crime of murder, which would otherwise have been lacking; such
conduct constituting a claim of “fabrication of evidence” under the
Fourth Amendment;
Defendant, BADACZEWSKI, deliberately and knowingly fabricated
evidence to support a conviction, by stating in his lab report that
Plaintiff’s hair was microscopically similar to “several unknown hairs”
on the victim’s pants, when BADACZEWSKI knew that EPT #362821
was obtained on September 7, 1975, and Plaintiff’s hair sample was
obtained on November 30, 1975; such conduct constituting a claim of
“fabrication of evidence” under the Fourth Amendment.

100a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.30 Filed 12/06/17 Page 30 of 39

Brady Violations
Defendant, SCHWARTZ, deliberately and knowingly, or with reckless
disregard for the truth, chose not to disclose material exculpatory and
impeachment evidence in his files to the prosecutor in violation of his
constitutional obligation under Brady v Maryland, 373 US 83 (1963)
and its progeny, which would have resulted in no arrest warrant being
issued, or a finding of lack of probable cause at the preliminary exam
or an acquittal at trial; such conduct constituting a claim for a “Brady
violation” under the Fifth Amendment.
Defendant, BADACZEWSKI, deliberately and knowingly, or with
reckless disregard for the truth, chose not to disclose material
exculpatory and impeachment evidence to the prosecutor in violation
of his constitutional obligation under Brady v Maryland, 373 US 83
(1963) and its progeny, which would have resulted in an acquittal at
trial; such conduct constituting a claim for a “Brady violation” under
the Fifth Amendment.
SCHWARTZ’s Brady violations included:
a.

The “Harkness memo” to Sgt. SCHWARTZ, discovered in the
“Miscellaneous” file, stating that Herndon had not passed his
polygraph exam;

b.

The “Rossler memo” to Sgt. SCHWARTZ, discovered in the
“Miscellaneous” file, describing Herndon’s initial statement to
police;

c.

Page one of the four-page lab report indicating that EPT #362821
had been obtained seven weeks before Plaintiff’s hair sample.

d.

The “Harkness memo” to Sgt. Gale of the Homicide section,
dated October 3, 1975, stating that the victim’s neighbor, Horace
Lee Brown, was examined by polygraph and that it was the
opinion of the examiner that “the subject’s truthfulness cannot be
verified and he cannot be cleared in this matter.”

e.

The handwritten note by Officer Lashaw under the Harkness
memo regarding Horace Lee Brown, stating “The timing is

101a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.31 Filed 12/06/17 Page 31 of 39

incredible. Brown hears a scream – calls her – and within 3
minutes Leon is banging on the door. Possibly Leon killed her,
heard the phone, panicked and went out the back door, came
around front for his car and decided to play innocent and knocked
on her door.”
BADACZEWSKI’s Brady violations included:
a.

Not revealing to the prosecutor in pre-trial meetings that he had
fabricated the lab reports and had hidden page one of the fourpage lab report indicating that EPT #362821 had been obtained
seven weeks before Plaintiff’s hair sample.

b.

Deliberately and knowingly withholding from the prosecutor in
pre-trial meetings that he could only state that he could not rule
out Plaintiff as being present at the crime scene, based on
Badaczewski’s forensic analysis, and that he could not testify to
a reasonable degree of scientific certainty, or to a “high
probability,” or positively identify the hair he labeled as EPT
#362821 as belonging to Plaintiff.

Malicious Prosecution
Defendant, SCHWARTZ, influenced or participated in the initiation of
criminal prosecution when he deliberately and knowingly fabricated
evidence by manufacturing Travis Herndon’s tape-recorded version
of the murder, and supplied false information and omitted information
which showed a reckless disregard for the truth in requesting an
arrest warrant and swearing to facts in support of probable cause,
which was material to a finding of probable cause. But for
SCHWARTZ’s false statements and material omissions, probable
cause would have been lacking; such conduct constituting a claim of
federal “malicious prosecution” under the Fourth Amendment.
Civil Conspiracy
Defendants, HEALY and SCHWARTZ, deliberately and knowingly
conspired to fabricate evidence (Herndon’s statement implicating
Plaintiff), in violation of Plaintiff’s constitutional right to be free from
illegal seizure without probable cause, and his right not to be

102a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.32 Filed 12/06/17 Page 32 of 39

deprived of liberty based upon fabrication of evidence by a
government official acting in an investigatory capacity, including a
prosecutor and police detective.
DETROIT’s Monell Liability
a.
DETROIT had a custom and policy to authorize, condone,
tolerate, and approve illegal and unconstitutional actions by Detroit
Police Department officers and command staff, which demonstrated
“deliberate indifference” to the constitutional rights of its citizens, and
was the moving force behind the individual Defendants’ violations of
Plaintiff's constitutional rights including, but not limited to:
1.

Conducting inadequate investigations into serious felony
cases, such as murder, to expeditiously close cases and
affirmatively choosing not to develop or pursue actual
leads or evidence;

2.

Knowingly and deliberately fabricating evidence to
manufacture probable cause to arrest and/or strengthen a
case for conviction;

3.

Knowingly withholding “Miscellaneous” files in homicide
cases that contained material exculpatory and
impeachment “Brady” evidence that would be apparent to
any reasonable officer and should have been turned over
to the prosecutor and defendant.

b.
DETROIT further created policies, practices and customs,
including a failure to provide adequate training to its police officers,
including Defendants, SCHWARTZ and BADACZEWSKI, in the
manner set forth above, which demonstrated “deliberate indifference”
to the constitutional rights of its citizens, and was the moving force
behind the individual Defendants’ violations of Plaintiff's constitutional
rights.
114. Plaintiff’s right to Brady evidence, and the police officers’
constitutional duty to turn over material and apparent “Brady” evidence,
was clearly established before October 22, 1975.

103a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.33 Filed 12/06/17 Page 33 of 39

115. Defendants’ Brady violations resulted in Plaintiff not receiving a
fair trial, described as “a trial resulting in a verdict worthy of confidence.”
Kyles v. Whitley, 514 U.S. 419, 434, (1995).
116. Plaintiff’s right not to be deprived of liberty based upon
fabrication of evidence by a government official acting in an investigatory
capacity, including a prosecutor, police detective, and police evidence
technician, was clearly established before October 22, 1975.
117. Plaintiff’s right not to be seized and continuously detained
without probable cause, based upon a police officer’s deliberate and
knowing fabrication of evidence and false statements and material
omissions to prosecutors and magistrate judges, guaranteed by the Fourth
Amendment, was clearly established before October 22, 1975.
118. As a direct and proximate result of the Defendants’ willful
violation of his constitutionally-protected rights, Plaintiff was detained
without probable cause, charged with crimes he did not commit, wrongfully
convicted and imprisoned, and deprived of his liberty for over four decades,
causing him to suffer the injuries and damages set forth above.
WHEREFORE, Plaintiff, LEDURA WATKINS, prays for damages,
jointly and severally as to all Defendants, including:

104a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.34 Filed 12/06/17 Page 34 of 39

a. Past and future compensatory damages against all defendants in
a minimum amount of Eighty-Four Million Dollars
($84,000,000.00);
b. Punitive damages as to Defendant, SCHWARTZ, in a minimum
amount of Twenty-Eight Million Dollars ($28,000,000.00);
c. Punitive damages as to Defendant, HEALY, in a minimum amount
of Twenty-Eight Million Dollars ($28,000,000.00);
d. Punitive damages as to Defendant, BADACZEWSKI, in a
minimum amount of Twenty-Eight Million Dollars
($28,000,000.00);
e. Reasonable attorney fees and costs pursuant to 42 U.S.C. § 1988;
f. The costs and disbursements of this action pursuant to 42 U.S.C.
§ 1920; and,
g. Such other and further relief as appears just and proper.
COUNT II
COMMON LAW MALICIOUS PROSECUTION
BY DEFENDANT, NEIL SCHWARTZ
119. Plaintiff incorporates by reference each preceding paragraph as
if fully stated herein.
120. Defendant, SCHWARTZ, initiated criminal prosecution against
Plaintiff in state court when he submitted a Warrant Request and swore to
false facts in support of an arrest warrant.
121. The criminal proceedings ultimately terminated in Plaintiff’s
favor with a dismissal of the charges in state court on June 15, 2017.

105a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.35 Filed 12/06/17 Page 35 of 39

122. SCHWARTZ acted maliciously and/or with a wanton or reckless
disregard for Plaintiff’s rights, by deliberately fabricating evidence and
knowingly and/or recklessly stating false and misleading facts in his
Request for Warrant, which were relied upon by the Wayne County
Prosecutor’s Office. In doing so, SCHWARTZ acted with malice and did
not act with good faith.
123. The prosecution was undertaken without probable cause or
good faith, and with malice, to frame Plaintiff for the murder of Yvette
Ingram because SCHWARTZ’s target, Gary Vazana, was already dead,
and not with the intention of bringing Plaintiff to justice for having committed
the alleged murder.
124. As a direct and proximate result of SCHWARTZ’s malicious
prosecution, Plaintiff, LEDURA WATKINS, was charged with crimes he did
not commit, causing him to suffer the injuries and damages set forth above.
125. SCHWARTZ’s conduct was malicious and so willful and wanton
as to demonstrate a reckless disregard of Plaintiff’s rights, and would
readily inspire feelings of humiliation, outrage, and indignity, such as would
warrant exemplary damages.
WHEREFORE, Plaintiff, LEDURA WATKINS, prays for such past and
future compensatory and exemplary damages against all Defendants as

106a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.36 Filed 12/06/17 Page 36 of 39

are available pursuant to the common-law of the State of Michigan, in a
minimum amount of Eighty-Four Million Dollars ($84,000,000.00), together
with pre-judgment interest, costs, and attorney fees in an amount to be
determined by the Court.
COUNT III
COMMON LAW MALICIOUS PROSECUTION
BY DEFENDANT, ROBERT H. HEALY
126. Plaintiff incorporates by reference each preceding paragraph as
if fully stated herein.
127. Defendant, HEALY, influenced the initiation of criminal
prosecution against Plaintiff in state court when he fabricated evidence in
his investigatory capacity to manufacture probable cause, which he knew
would be submitted to the prosecutor’s office in a Warrant Request.
128. The criminal proceedings ultimately terminated in Plaintiff’s
favor with a dismissal of the charges in state court on June 15, 2017.
129. HEALY acted maliciously and/or with a wanton or reckless
disregard for Plaintiff’s rights, by deliberately fabricating evidence in his
investigative capacity. In doing so, HEALY acted with malice and did not
act with good faith.
130. The prosecution was undertaken without probable cause or
good faith, and with malice, to frame Plaintiff for the murder of Yvette

107a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.37 Filed 12/06/17 Page 37 of 39

Ingram because HEALY’s target, Gary Vazana, was already dead, and not
with the intention of bringing Plaintiff to justice for having committed the
alleged murder.
131. As a direct and proximate result of HEALY’s malicious
prosecution, Plaintiff, LEDURA WATKINS, was charged with crimes he did
not commit, causing him to suffer the injuries and damages set forth above.
132. HEALY’s conduct was malicious and so willful and wanton as to
demonstrate a reckless disregard of Plaintiff’s rights, and would readily
inspire feelings of humiliation, outrage, and indignity, such as would
warrant exemplary damages.
WHEREFORE, Plaintiff, LEDURA WATKINS, prays for such past and
future compensatory and exemplary damages against all Defendants as
are available pursuant to the common-law of the State of Michigan, in a
minimum amount of Eighty-Four Million Dollars ($84,000,000.00), together
with pre-judgment interest, costs, and attorney fees in an amount to be
determined by the Court.
COUNT IV
COMMON LAW INTENTIONAL INFLICTION
OF EMOTIONAL DISTRESS BY DEFENDANTS
133. Plaintiff incorporates by reference each preceding paragraph as
if fully stated herein.

108a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.38 Filed 12/06/17 Page 38 of 39

134. Defendants, by their extreme and outrageous conduct,
described above, demonstrated such intent and/or recklessness as to
cause Plaintiff severe emotional distress.
135. Defendants’ conduct can only be described as atrocious,
outrageous, and utterly intolerable in a civilized society.
136. Defendants’ conduct meets the elements of the common law
claim for Intentional Infliction of Emotional Distress.
WHEREFORE, Plaintiff, LEDURA WATKINS, prays for such past and
future compensatory and exemplary damages against all Defendants as
are available pursuant to the common-law of the State of Michigan, in a
minimum amount of Eighty-Four Million Dollars ($84,000,000.00), together
with pre-judgment interest, costs, and attorney fees in an amount to be
determined by the Court.

s/Wolfgang Mueller
MUELLER LAW FIRM
Attorney for Plaintiff
34405 W. 12 Mile Road, Ste. 200A
Farmington Hills, MI 48331
(248) 489-9653
wolf@wolfmuellerlaw.com
(P43728)
Dated: December 6, 2017

109a

Case 4:17-cv-13940-MFL-MKM ECF No. 1, PageID.39 Filed 12/06/17 Page 39 of 39

JURY DEMAND
Plaintiff, by and through his attorneys, MUELLER LAW FIRM,
demands a jury trial in this matter.

s/Wolfgang Mueller
MUELLER LAW FIRM
Attorney for Plaintiff
34405 W. 12 Mile Road, Ste. 200A
Farmington Hills, MI 48331
(248) 489-9653
wolf@wolfmuellerlaw.com
(P43728)
Dated: December 6, 2017

110a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.60 Filed 02/20/18 Page 1 of 18

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LEDURA WATKINS, individually,
Plaintiff,

Case No. 2:17-cv-13940

-v-

Hon. Matthew F. Leitman

ROBERT H. HEALY, in his
individual capacity; John Ferguson,
Esq., Personal Representative of the
Estate of NEIL SCHWARTZ,
deceased, in his individual capacity;
RONALD BADACZEWSKI, in his
individual capacity, CITY OF
DETROIT, a Municipal corporation;
jointly and severally,

Mag. Judge Mona K. Majzoub

Defendants.

MOTION TO ABSTAIN BY DEFENDANT ROBERT H. HEALY
Pursuant to the Colorado River abstention doctrine, Defendant former
Assistant Wayne County Prosecuting Attorney Robert H. Healy moves for the
Court to abstain to Plaintiff Ledura Watkins’ (“Plaintiff”) first-filed state court case
seeking to litigate the same factual and legal issues. In support of his motion, APA
Healy relies upon the attached Brief.

111a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.61 Filed 02/20/18 Page 2 of 18

Pursuant to E.D. Mich. L.R. 7.1(a), on February 20, 2018, counsel for APA
Healy contacted counsel for Plaintiff, explained the nature of the motion and its
legal basis and requested but did not obtain concurrence in the relief sought.
Dated: February 20, 2018

Respectfully submitted,
By: /s/Davidde A. Stella
Zenna Elhasan (P67961)
Wayne County Corporation Counsel
Davidde A. Stella (P69948)
Assistant Corporation Counsel
500 Griswold St., 30th Floor
Detroit MI 48226
(313) 224-5030
dstella@waynecounty.com
Attorneys for Robert H. Healy

112a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.62 Filed 02/20/18 Page 3 of 18

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LEDURA WATKINS, individually,
Plaintiff,

Case No. 2:17-cv-13940

-v-

Hon. Matthew F. Leitman

ROBERT H. HEALY, in his
individual capacity; John Ferguson,
Esq., Personal Representative of the
Estate of NEIL SCHWARTZ,
deceased, in his individual capacity;
RONALD BADACZEWSKI, in his
individual capacity, CITY OF
DETROIT, a Municipal corporation;
jointly and severally,

Mag. Judge Mona K. Majzoub

Defendants.

BRIEF IN SUPPORT OF MOTION TO ABSTAIN
BY DEFENDANT ROBERT H. HEALY

113a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.63 Filed 02/20/18 Page 4 of 18

CONCISE STATEMENT OF ISSUES PRESENTED
Should the Court abstain to Plaintiff’s first-filed state case and stay the
present case under the Colorado River abstention doctrine?

i

114a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.64 Filed 02/20/18 Page 5 of 18

CONTROLLING OR MOST APPLICABLE AUTHORITY
Colorado River Water Conservation District v. United States, 424 U.S. 800 (1976).
Moses H. Cone Memorial Hosp. v. Mercury Construction Corp., 460 U.S. 1
(1983).
Romine v. Compuserve Corp., 160 F.3d 337 (6th Cir. 1998).
Preferred Care of Delaware, Inc. v. Vanarsdale, 676 F. App'x 388 (6th Cir. 2017)
(unpublished).

ii

115a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.65 Filed 02/20/18 Page 6 of 18

INTRODUCTION
Plaintiff Ledura Watkins (“Plaintiff”), recently released from the Michigan
Department of Corrections after being convicted of first-degree murder by a jury in
1976, asserts this civil action under 42 U.S.C. § 1983 and state law claiming, in
relevant part, that former Detroit Police Department Sergeant Neil Schwartz and
former Assistant Wayne County Prosecuting Attorney Robert H. Healy1
“fabricated evidence” against him at the time of his arrest and prosecution because
they chose to believe one of allegedly “two” stories told by Plaintiff’s accomplice.
In 1980, Plaintiff’s accomplice, also serving a lengthy sentence in the same MDOC
facility as Plaintiff for an unrelated armed robbery conviction, attempted to
“recant” his 1976 trial testimony, stating, for the first time, that he told “two”
different stories of the murder to the DPD. Following an extensive evidentiary
hearing in 1980 and 1981, the state trial court judge found the accomplice’s
“recanted” testimony incredible and refused to order a new trial.
Between 1976 and 2015, state and federal courts rejected all of Plaintiff’s
requests for a new trial, relief from judgment, and a writ of habeas corpus. His
criminal case was ultimately dismissed during June 2017 only because the FBI

1

APA Healy, who is now 85 years old and living in the State of Washington,
retired from Wayne County in 1994 after 24 years of service. Co-Defendant
former Detroit Police Office Neil Schwartz retired from the DPD in 1979 after 25
years of service, and has passed away. Co-Defendant Officer Badaczewski is now
70 years old, and retired from the DPD in 1988.
1

116a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.66 Filed 02/20/18 Page 7 of 18

does not presently consider microscopic hair analysis evidence like the kind used
at the 1976 trial to be scientifically accurate enough for criminal proceedings.
Unfortunately, because the DPD did not preserve the hair sample from 42 years
ago, modern DNA testing was not possible.

However, the Wayne County

Prosecutor has not conceded, and has no plans to concede, Plaintiff’s “innocence”
for the murder of Ingram.
As explained in detail below, three-and-a-half months prior to the present
suit, Plaintiff filed suit in state court under Michigan’s Wrongful Incarceration
Compensation Act (the “WICA”) seeking to recover money damages for his
allegedly wrongful incarceration. Under the WICA, Plaintiff has the burden to
show that he did not actually commit the murder, and was not an accomplice or
accessory to the murder. In both cases, Plaintiff seeks to use the same allegations
of law enforcement misconduct to carry his respective burdens. Accordingly, the
Colorado River abstention doctrine instructs that this federal proceeding should be
stayed until the resolution of Plaintiff’s first-filed pending state case seeking to
litigate the same issues as asserted in this case.
RELEVANT FACTS
A.

March 1976: Plaintiff is Convicted By A Jury of the Murder of Ms.
Yvette Ingram.
Ms. Yvette Ingram, a 25 year-old schoolteacher, was murdered in her

apartment in Detroit, Michigan, on September 6, 1975. (Exhibit 1, DPD Report).
2

117a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.67 Filed 02/20/18 Page 8 of 18

Based on the statements of the accomplice to the murder, Plaintiff was arrested by
the DPD and charged with the murder of Ingram. Following a jury trial, where the
primary evidence consisted of the accomplice’s lengthy and detailed testimony and
a microscopic hair evidence examination performed by the DPD, and where
Plaintiff himself testified denying his involvement, Plaintiff was convicted on
March 16, 1976, of first degree murder. (Exhibit 2, 4/15/76 Order of Conviction).
On April 15, 1976, the state trial court sentenced Plaintiff to life imprisonment
without parole. (Id.). Plaintiff raised several issues on direct appeal – including an
alleged failure of the prosecutor to grant immunity to a possible defense witness
and the reliability of the microscopic hair analysis. Finding no merit to either his
of contentions, the Michigan Court of Appeals affirmed his conviction. See People
v. Watkins, 259 N.W.2d 381, 383-85 (Mich. Ct. App. 1977). On May 4, 1979, the
Michigan Supreme Court denied Plaintiff’s application for leave to appeal. See
People v. Watkins, 406 Mich. 954 (1979).
B.

1976 – 2015: State and Federal Courts Reject All Challenges to
Plaintiff’s Conviction.
In a procedural history too extensive to recount in detail for the purposes of

this motion, Plaintiff launched a series of collateral attacks to his conviction,
including: (1) a 1976 motion for a new trial; (2) a 1980 evidentiary hearing
regarding the accomplice’s “recanted” testimony”; (3) a 1981 delayed motion for a
new trial; (4) a 1986 petition for a writ of habeas corpus in federal court; (5) a 1997
3

118a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.68 Filed 02/20/18 Page 9 of 18

motion for relief from judgment; and (6) a 2014 motion for relief from judgment.
Courts rejected all of these challenges, and the appellate courts affirmed the denials
that were appealed.
C.

January – June 2017: Plaintiff Files an Amended Motion for Relief
From Judgment; the Criminal Case is Dismissed Because of the
Unreliability of the Hair Analysis Evidence.
During February 2014, Plaintiff filed a motion for relief from judgment,

asserting “newly-discovered” evidence.

(Exhibit 3, 2/14 Motion w/o Exhibits).

After full briefing, the state trial court denied the motion on October 27, 2014.
(Exhibit 4, 10/27/14 Order). The Michigan of Court of Appeals denied Plaintiff’s
application for leave to appeal for the reason that the “newly-discovered” evidence
did not conform to the Michigan Court Rules standards for such. (Exhibit 5,
8/26/15 Order).
After a remand by the Michigan Supreme Court for the state trial court to
consider Plaintiff’s claim of “newly-discovered” evidence, without expression any
view regarding the merits of this “evidence,” see People v. Watkins, 883 N.W.2d
758 (Mich. 2016), on January 20, 2017, he filed an amended motion for relief from
judgment, raising the following issues: (1) the DPD withheld exculpatory evidence
in violation of Brady v. Maryland; (2) evidence existed to impeach the
accomplice’s trial testimony; and (3) new scientific evidence casting doubt on the
hair evidence. (Exhibit 6, 1/20/17 Motion w/o Exhibits). Efforts were made to
4

119a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.69 Filed 02/20/18 Page 10 of 18

track down the original DPD evidence files from the 1975-76 case to re-test the
hair samples for DNA evidence. However, the relevant physical evidence from the
case had not been retained by the DPD.
On June 15, 2017, the state trial court, by agreement of the parties, dismissed
the criminal case on the basis that without the hair evidence, there was insufficient
evidence to proceed to a new trial at the time. (Exhibit 7, 6/15/17 Order). The
stipulation did not declare that Plaintiff was “innocent” or that law enforcement
believed that Plaintiff had been definitively “cleared” of the crime.
D.

July 2017: Plaintiff Files a Lawsuit in State Court Under Michigan’s
Wrongful Incarceration Compensation Act.
On July 25, 2017, Plaintiff filed a lawsuit under Michigan’s recently-enacted

WICA law. (Exhibit 8, State Court Complaint). In that case, Plaintiff alleges that
(1) police officers attempted coerced Plaintiff’s accomplice to testify against him;
(2) the accomplice recanted his 1975/76 accounts in 1980; (3) the prosecution
refused to give immunity to a possible defense witness in 1976; (4) the
investigators did not disclose that it attempted to “help” Plaintiff’s accomplice in
the sentencing for his separate and unrelated armed robbery case; (5) Sergeant
Schwartz failed to turn over various pieces of Brady evidence to the prosecutor;
and (6) Officer Badaczewski intentionally overstated the evidentiary value of the
hair evidence in 1975 and 1980. (Id.).

5

120a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.70 Filed 02/20/18 Page 11 of 18

Discovery has already commenced in the case. (Exhibit 9, State Court Case
Docket).

Without informing either the City of Detroit or Wayne County,

Plaintiff’s counsel noticed and took the undefended depositions of former DPD
Officer Badaczewski on October 24, 2017, and then flew to the State of
Washington to depose APA Healy on November 2, 2017. The City of Detroit and
Wayne County did not find out that Plaintiff’s counsel took the depositions of its
former employees until after the present lawsuit had been served on their former
employees. The state court case remains open and ongoing.
E.

December 2017: Plaintiff Files the Present Case.
On or about December 6, 2017, Plaintiff filed the present case against APA

Healy, Sergeant Schwartz, and Officer Badaczewski, asserting the same allegations
of misconduct as his WICA case. APA Healy was not served with the lawsuit until
early January 2018.
ARGUMENT
In Colorado River Water Conservation District v. United States, 424 U.S.
800 (1976), the United States Supreme Court held that despite the obligation of
federal courts to exercise jurisdiction under the law, they may abstain to a parallel
state court proceeding. Id. at 817. “Despite the virtually unflagging obligation of
the federal courts to exercise jurisdiction given to them, considerations of judicial
economy and federal-state comity may justify abstention in situations involving the
6

121a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.71 Filed 02/20/18 Page 12 of 18

contemporaneous exercise of jurisdiction by state and federal courts.” Romine v.
Compuserve Corp., 160 F.3d 337, 339 (6th Cir. 1998) (internal citation and
quotation marks omitted). In determining whether abstention is appropriate, courts
undertake a two-pronged inquiry. First, the state and federal proceedings must be
considered “parallel.” Id. Second, the eight factors outlined in Colorado River
and Moses H. Cone Memorial Hosp. v. Mercury Construction Corp., 460 U.S. 1
(1983), must be evaluated. Id. at 340-41. These factors include: (1) whether the
state court has assumed jurisdiction over any res or property; (2) whether the
federal forum is less convenient to the parties; (3) the avoidance of piecemeal
litigation; (4) whether the governing law is state or federal; (5) whether the source
of law is state or federal; (6) the adequacy of the state court action to protect
federal plaintiff’s rights; (7) the relative progress of the state and federal
proceedings; and (8) the presence or absence of concurrent jurisdiction. Id. “These
factors, however, do not comprise a mechanical checklist. Rather, they require a
careful balancing of the important factors as they apply in a give case depending
on the particular facts at hand.” Id. at 341 (citation omitted).
Not only is Plaintiff’s state court case “parallel,” but the balance of the eight
factors weigh in favor of abstention.

7

122a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.72 Filed 02/20/18 Page 13 of 18

A.

Plaintiff’s First-Filed State Case is “Parallel.”
In evaluating whether state and federal cases are parallel, “exact parallelism

is not required; it is enough if the two proceedings are substantially similar.” Id. at
340. Neither exact identity of parties nor causes of action are required as long as
the interests at stake are “congruent.” Id. (internal citations omitted). “As long as
the parties are substantially similar and the claims in both suits are predicated on
the same allegations as to the same material facts, the two actions will come close
enough to count as parallel.” Preferred Care of Delaware, Inc. v. Vanarsdale, 676
F. App'x 388, 393-94 (6th Cir. 2017) (unpublished) (citation and quotation marks
omitted).
Effective March 29, 2017, the WICA permits “an individual convicted under
the law of this state and subsequently imprisoned in a state correction facility for 1
or more crimes that he or she did not commit [to] bring an action against this state
in the court of claims as allowed by this act.” Mich. Comp. Laws § 691.1753. To
recover, a former state inmate has the burden to demonstrate that: (1) “The
plaintiff’s judgment of conviction was reversed or vacated and either the charges
were dismissed or the plaintiff was determined on retrial to be not guilty. However,
the plaintiff is not entitled to compensation under this act if the plaintiff was
convicted of another criminal offense arising from the same transaction and either
that offense was not dismissed or the plaintiff was convicted of that offense on
8

123a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.73 Filed 02/20/18 Page 14 of 18

retrial”; and (2) “New evidence demonstrates that the plaintiff did not perpetrate
the crime and was not an accomplice or accessory to the acts that were the basis of
the conviction, results in the reversal or vacation of the charges in the judgment of
conviction or a gubernatorial pardon, and results in either dismissal of all of the
charges or a finding of not guilty on all of the charges on retrial.” Mich. Comp.
Laws § 691.1755(1)(b) & (c). “New evidence” is defined as “any evidence that
was not presented in the proceedings leading to plaintiff’s conviction, including
new testimony, expert interpretation, the results of DNA testing, or other test
results relating to evidence that was presented in the proceedings leading to
plaintiff’s conviction. New evidence does not include a recantation by a witness
unless there is other evidence to support the recantation or unless the prosecuting
attorney for the county . . . agrees that the recantation constitutes new evidence
without other evidence to support the recantation.”

Mich. Comp. Laws §

691.1752(b).
To prevail in the WICA case, Plaintiff has the burden to show that he did
not commit the murder and/or was not an accomplice to the murder. Mich. Comp.
Laws § 691.1754(1)(c). In an attempt to satisfy his burden in the state case, he
alleges that law enforcement and the Wayne County Prosecutor used
unconstitutional means and unreliable evidence to secure his conviction. Likewise
in this case, Plaintiff alleges that APA Healy and Sergeant Schwartz “fabricated”
9

124a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.74 Filed 02/20/18 Page 15 of 18

evidence by choosing one of “two” stories told by his accomplice, that Sergeant
Schwartz failed to turn over Brady evidence to the prosecutor that could have been
used at the 1976 trial, and that Officer Badaczewski intentionally distorted the
probative value of the microscopic hair evidence. A comparison of the complaints
filed in the state case and the present case demonstrates that the same set of facts,
legal issues, witnesses, and documentary evidence are at issue in both. In both
cases, Plaintiff alleges that: (1) law enforcement attempted coerced Plaintiff’s
accomplice to testify against him; (2) the accomplice recanted his 1975/76
accounts in 1980; (3) the prosecution refused to give immunity to a possible
defense witness in 1976; (4) the investigators did not disclose to the jury that it
attempted to “help” Plaintiff’s accomplice in the sentencing for his separate and
unrelated armed robbery case; (5) Sergeant Schwartz failed to turn over various
pieces of Brady evidence to the prosecutor; and (6) Officer Badaczewski
intentionally overstated the evidentiary value of the hair evidence in 1975 and
1980.
Because the state case and the present case are parallel, the first Colorado
River abstention prong is satisfied.
B.

The Moses H. Cone Factors Weigh in Favor of Abstention.
1.

Whether the State Court Has Assumed Jurisdiction Over Any Res or
Property.

10

125a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.75 Filed 02/20/18 Page 16 of 18

This factor favors neither party as there is no real or personal property at
issue.
2.

Whether the Federal Forum is Less Convenient to the Parties.

This factor favors neither party as Plaintiff and his counsel are located in
southeastern Michigan.
3.

Avoidance of Piecemeal Litigation.

The avoidance of piecemeal litigation is the “paramount” factor in deciding
whether abstention is appropriate. Vanarsdale, 676 F. App’x at 395. “When a
case proceeds on parallel tracks in state and federal court, the threat to efficient
adjudication is self-evident. But judicial economy is not the only value that is
placed in jeopardy. The legitimacy of the court system in the eyes of the public and
fairness to the individual litigants also are endangered by duplicative suits that are
the product of gamemanship or that result in conflicting adjudication.” Romine,
160 F.3d at 341 (citation omitted). Here, because of the complete factual overlap
between the two cases, the duplicative discovery that would occur, and the risk of
inconsistent adjudication of the same facts, this factor strongly favors abstention.
4.

Whether the Source of Governing Law is State or Federal.

Because the source of governing law is both state and federal, this factor
favors neither party.
5.

The Adequacy of the State Court Action to Protect Federal Plaintiff’s
Rights.
11

126a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.76 Filed 02/20/18 Page 17 of 18

This factor favors neither party as Plaintiff does not assert federal claims in
the state court proceeding. However, the state court proceeding provides adequate
due process, discovery, and an impartial forum to litigate Plaintiff’s claims.
6.

The Relative Progress of the State and Federal Proceedings.

This factor favors APA Healy. The state case is much further along than the
federal case. Plaintiff filed the state case months before the present case. The
State of Michigan has already answered the Complaint, a scheduling order was
issued on September 18, 2017, and the Plaintiff has already taken the depositions
of both APA Healy and Officer Badaczewski.2 Indeed, Plaintiff most likely used
information gleaned from the depositions of APA Healy and Mr. Badaczewski to
draft the complaint in the present case.
7.

The Presence or Absence of Concurrent Jurisdiction.

It does not appear that either court could fully exercise concurrent
jurisdiction over the claims asserted by Plaintiff in the respective cases. The
Michigan Court of Claims only has jurisdiction over claims against the State of
Michigan and cannot hear claims against other local governments. Likewise, it
would not appear that Plaintiff could assert the WICA claims in federal court under

2

As explained above, Plaintiff provided no notice either to Wayne County or to the
City of Detroit that he was seeking to take the depositions of these individuals.
12

127a

Case 4:17-cv-13940-MFL-MKM ECF No. 8, PageID.77 Filed 02/20/18 Page 18 of 18

a supplemental jurisdiction theory as Michigan limits the forum for that statutory
claim to the court of claims.
Because the cases are “parallel,” and the eight factors weigh in favor of
abstention, the Court should stay the case pending the final disposition of the state
case.
CONCLUSION
For the foregoing reasons, APA Healy respectfully requests that the Court
abstain and stay the case pursuant to Colorado River abstention doctrine.
Dated: February 20, 2018

Respectfully submitted,
By: /s/Davidde A. Stella
Zenna Elhasan (P67961)
Wayne County Corporation Counsel
Davidde A. Stella (P69948)
Assistant Corporation Counsel
500 Griswold St., 30th Floor
Detroit MI 48226
(313) 224-5030
dstella@waynecounty.com
Attorneys for Robert H. Healy

CERTIFICATE OF SERVICE
I certify that on February 20, 2018, I filed a copy of the foregoing with the
Clerk of the Court using the electronic filing system which will send electronic
notification of this filing to all parties.
By: /s/Davidde A. Stella
Davidde A. Stella (P69948)
Assistant Corporation Counsel
13

128a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-5, PageID.149 Filed 02/20/18 Page 2 of 4

129a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-5, PageID.150 Filed 02/20/18 Page 3 of 4

130a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-5, PageID.151 Filed 02/20/18 Page 4 of 4

131a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-8, PageID.210 Filed 02/20/18 Page 2 of 4

132a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-8, PageID.211 Filed 02/20/18 Page 3 of 4

133a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-8, PageID.212 Filed 02/20/18 Page 4 of 4

134a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.214 Filed 02/20/18 Page 2 of 128

135a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.215 Filed 02/20/18 Page 3 of 128

136a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.216 Filed 02/20/18 Page 4 of 128

137a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.217 Filed 02/20/18 Page 5 of 128

138a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.218 Filed 02/20/18 Page 6 of 128

139a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.219 Filed 02/20/18 Page 7 of 128

140a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.220 Filed 02/20/18 Page 8 of 128

141a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.221 Filed 02/20/18 Page 9 of 128

142a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.222 Filed 02/20/18 Page 10 of 128

143a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.223 Filed 02/20/18 Page 11 of 128

144a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.224 Filed 02/20/18 Page 12 of 128

145a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.225 Filed 02/20/18 Page 13 of 128

146a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.226 Filed 02/20/18 Page 14 of 128

147a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.227 Filed 02/20/18 Page 15 of 128

148a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.228 Filed 02/20/18 Page 16 of 128

149a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.229 Filed 02/20/18 Page 17 of 128

150a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.230 Filed 02/20/18 Page 18 of 128

151a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.231 Filed 02/20/18 Page 19 of 128

152a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.232 Filed 02/20/18 Page 20 of 128

153a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.233 Filed 02/20/18 Page 21 of 128

154a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.234 Filed 02/20/18 Page 22 of 128

155a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.235 Filed 02/20/18 Page 23 of 128

156a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.236 Filed 02/20/18 Page 24 of 128

157a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.237 Filed 02/20/18 Page 25 of 128

158a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.238 Filed 02/20/18 Page 26 of 128

159a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.239 Filed 02/20/18 Page 27 of 128

160a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.240 Filed 02/20/18 Page 28 of 128

161a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.241 Filed 02/20/18 Page 29 of 128

162a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.242 Filed 02/20/18 Page 30 of 128

163a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.243 Filed 02/20/18 Page 31 of 128

164a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.244 Filed 02/20/18 Page 32 of 128

165a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.245 Filed 02/20/18 Page 33 of 128

166a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.246 Filed 02/20/18 Page 34 of 128

167a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.247 Filed 02/20/18 Page 35 of 128

168a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.248 Filed 02/20/18 Page 36 of 128

169a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.249 Filed 02/20/18 Page 37 of 128

170a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.250 Filed 02/20/18 Page 38 of 128

171a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.251 Filed 02/20/18 Page 39 of 128

172a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.252 Filed 02/20/18 Page 40 of 128

173a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.253 Filed 02/20/18 Page 41 of 128

174a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.254 Filed 02/20/18 Page 42 of 128

175a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.255 Filed 02/20/18 Page 43 of 128

176a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.256 Filed 02/20/18 Page 44 of 128

177a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.257 Filed 02/20/18 Page 45 of 128

178a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.258 Filed 02/20/18 Page 46 of 128

179a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.259 Filed 02/20/18 Page 47 of 128

180a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.260 Filed 02/20/18 Page 48 of 128

181a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.261 Filed 02/20/18 Page 49 of 128

182a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.262 Filed 02/20/18 Page 50 of 128

183a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.263 Filed 02/20/18 Page 51 of 128

184a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.264 Filed 02/20/18 Page 52 of 128

185a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.265 Filed 02/20/18 Page 53 of 128

186a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.266 Filed 02/20/18 Page 54 of 128

187a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.267 Filed 02/20/18 Page 55 of 128

188a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.268 Filed 02/20/18 Page 56 of 128

189a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.269 Filed 02/20/18 Page 57 of 128

190a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.270 Filed 02/20/18 Page 58 of 128

191a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.271 Filed 02/20/18 Page 59 of 128

192a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.272 Filed 02/20/18 Page 60 of 128

193a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.273 Filed 02/20/18 Page 61 of 128

194a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.274 Filed 02/20/18 Page 62 of 128

195a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.275 Filed 02/20/18 Page 63 of 128

196a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.276 Filed 02/20/18 Page 64 of 128

197a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.277 Filed 02/20/18 Page 65 of 128

198a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.278 Filed 02/20/18 Page 66 of 128

199a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.279 Filed 02/20/18 Page 67 of 128

200a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.280 Filed 02/20/18 Page 68 of 128

201a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.281 Filed 02/20/18 Page 69 of 128

202a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.282 Filed 02/20/18 Page 70 of 128

203a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.283 Filed 02/20/18 Page 71 of 128

204a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.284 Filed 02/20/18 Page 72 of 128

205a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.285 Filed 02/20/18 Page 73 of 128

206a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.286 Filed 02/20/18 Page 74 of 128

207a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.287 Filed 02/20/18 Page 75 of 128

208a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.288 Filed 02/20/18 Page 76 of 128

209a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.289 Filed 02/20/18 Page 77 of 128

210a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.290 Filed 02/20/18 Page 78 of 128

211a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.291 Filed 02/20/18 Page 79 of 128

212a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.292 Filed 02/20/18 Page 80 of 128

213a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.293 Filed 02/20/18 Page 81 of 128

214a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.294 Filed 02/20/18 Page 82 of 128

215a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.295 Filed 02/20/18 Page 83 of 128

216a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.296 Filed 02/20/18 Page 84 of 128

217a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.297 Filed 02/20/18 Page 85 of 128

218a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.298 Filed 02/20/18 Page 86 of 128

219a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.299 Filed 02/20/18 Page 87 of 128

220a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.300 Filed 02/20/18 Page 88 of 128

221a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.301 Filed 02/20/18 Page 89 of 128

222a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.302 Filed 02/20/18 Page 90 of 128

223a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.303 Filed 02/20/18 Page 91 of 128

224a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.304 Filed 02/20/18 Page 92 of 128

225a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.305 Filed 02/20/18 Page 93 of 128

226a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.306 Filed 02/20/18 Page 94 of 128

227a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.307 Filed 02/20/18 Page 95 of 128

228a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.308 Filed 02/20/18 Page 96 of 128

229a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.309 Filed 02/20/18 Page 97 of 128

230a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.310 Filed 02/20/18 Page 98 of 128

231a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.311 Filed 02/20/18 Page 99 of 128

232a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.312 Filed 02/20/18 Page 100 of 128

233a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.313 Filed 02/20/18 Page 101 of 128

234a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.314 Filed 02/20/18 Page 102 of 128

235a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.315 Filed 02/20/18 Page 103 of 128

236a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.316 Filed 02/20/18 Page 104 of 128

237a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.317 Filed 02/20/18 Page 105 of 128

238a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.318 Filed 02/20/18 Page 106 of 128

239a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.319 Filed 02/20/18 Page 107 of 128

240a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.320 Filed 02/20/18 Page 108 of 128

241a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.321 Filed 02/20/18 Page 109 of 128

242a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.322 Filed 02/20/18 Page 110 of 128

243a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.323 Filed 02/20/18 Page 111 of 128

244a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.324 Filed 02/20/18 Page 112 of 128

245a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.325 Filed 02/20/18 Page 113 of 128

246a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.326 Filed 02/20/18 Page 114 of 128

247a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.327 Filed 02/20/18 Page 115 of 128

248a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.328 Filed 02/20/18 Page 116 of 128

249a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.329 Filed 02/20/18 Page 117 of 128

250a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.330 Filed 02/20/18 Page 118 of 128

251a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.331 Filed 02/20/18 Page 119 of 128

252a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.332 Filed 02/20/18 Page 120 of 128

253a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.333 Filed 02/20/18 Page 121 of 128

254a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.334 Filed 02/20/18 Page 122 of 128

255a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.335 Filed 02/20/18 Page 123 of 128

256a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.336 Filed 02/20/18 Page 124 of 128

257a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.337 Filed 02/20/18 Page 125 of 128

258a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.338 Filed 02/20/18 Page 126 of 128

259a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.339 Filed 02/20/18 Page 127 of 128

260a

Case 4:17-cv-13940-MFL-MKM ECF No. 8-9, PageID.340 Filed 02/20/18 Page 128 of 128

261a

STATE OF MICHIGAN
COURT OF APPEALS

LEDURA WATKINS,

UNPUBLISHED
October 22, 2020

Plaintiff-Appellant,
V

No. 348855
Court of Claims
LC No. 17-000218-MZ

STATE OF MICHIGAN,
Defendant-Appellee,
and
WAYNE COUNTY PROSECUTOR,
Intervening Defendant-Appellee.

Before: METER, P.J., and SHAPIRO and RIORDAN, JJ.
PER CURIAM.
Plaintiff, Ledura Watkins, appeals as of right the trial court’s order granting summary
disposition under MCR 2.116(C)(10) (no genuine issue of material fact) in favor of defendant, the
state of Michigan, and intervening defendant, the Wayne County Prosecutor. Plaintiff sought
compensation under the Wrongful Imprisonment Compensation Act (WICA), MCL 691.1751 et
seq., after his first-degree murder conviction was vacated on the basis of new evidence revising
the strength of the conclusions that may be drawn from microscopic hair analysis evidence.
Because the trial court did not err in its ruling that this new evidence did not give rise to a genuine
issue of material fact that plaintiff did not perpetrate or participate in the offense, we affirm.
I. BACKGROUND
Detroit police officers found the body of Yvette Ingram, who had been shot in the head, on
the evening of September 6, 1975. Travis Herndon told police that he had information about the
murder after he was arrested for an unrelated armed robbery. Plaintiff was subsequently arrested
and charged with the murder. At plaintiff’s trial, Herndon testified that he had spent time with
plaintiff and Gary Vazana in September 1975, and that on the evening of September 6, 1975,

262a

Vazana told plaintiff and Herndon to kill Ingram, who sold drugs. Herndon also said that Vazana
gave plaintiff a gun, that plaintiff drove the two of them to Ingram’s house in Vazana’s car and
gave Herndon the gun. Plaintiff rang the doorbell because he knew Ingram, while Herndon stood
to the side with the gun. When Ingram answered the door, plaintiff pushed her inside, and Herndon
followed them upstairs into the bedroom where he retrieved a stash of drugs. According to
Herndon, plaintiff, who had the gun, told Herndon to hold a pillow over Ingram’s face, and plaintiff
then put the gun to the pillow and shot Ingram twice.
The circuit court heard arguments about the admissibility of microscopic hair analysis
evidence outside the presence of the jury. Detroit Police Officer Ronald Badaczewski and
Sergeant Mary Jarrett, who were both assigned to the serology and trace evidence area of the crime
lab, testified. They both testified that microscopic hair analysis involved the comparison of known
and unknown hair samples on the basis of 15 different characteristics, that a known and unknown
hair could be microscopically similar and have a common origin, and that it was not possible to
say with reasonable scientific certainty that an unknown hair came from a known suspect. Sergeant
Jarrett stated that microscopic hair analysis was more accurately used as a tool of comparison
rather than identification, and she agreed that it should be considered corroborative, not conclusive.
After the circuit court ruled the evidence admissible, Officer Badaczewski testified in front
of the jury about the hair comparison process. He stated that he received known hair samples from
Ingram, plaintiff, and Herndon, as well as unknown hairs from clothing and bedding at the crime
scene. Comparing the unknown hairs from the crime scene that were dissimilar to Ingram’s hair
with the samples taken from plaintiff and Herndon, he confirmed, “within reasonable scientific
certainty,” that the unknown hairs were similar to hairs taken from Herndon and from plaintiff.
Officer Badaczewski testified that hairs taken from the scene and hairs taken from Herndon and
plaintiff “were microscopically similar and could have come from a common origin.” Officer
Badaczewski stated that of the 12 to 15 hairs found on Ingram’s pants, one hair was similar to
plaintiff’s hair. Officer Badaczewski further testified that it was not possible to assign a “degree
of reliability” to make a positive identification, but he agreed that it was possible to state with a
“high degree of probability” that an unknown hair and a known hair sample had “a common
origin.”
Plaintiff was convicted of first-degree premeditated murder and sentenced to life
imprisonment. This Court affirmed the conviction, in part concluding that the trial court had
properly ruled that the microscopic hair analysis evidence was admissible. People v Watkins, 78
Mich App 89, 95-96; 259 NW2d 381 (1977). Herndon subsequently recanted his trial testimony
in June 1980, stating that Vazana, who had since died, was the one who killed Ingram while
Herndon was with Vazana. Plaintiff then filed a motion for a new trial, which the circuit court
denied, rejecting Herndon’s recantation as unreliable. Plaintiff did not appeal this decision. In
2010, plaintiff applied for a pardon, in which he took responsibility for the killing. Attached to
the application were psychological reports from the 1980s, noting that plaintiff had made more
direct statements of responsibility for the killing.
In 2013, the Federal Bureau of Investigation (FBI) agreed that examiners regularly
overstated the conclusions that could be drawn from microscopic hair analysis evidence. It
concluded that a forensic examiner could state that a known hair sample could be included or
excluded as a possible source of unknown hair at a crime scene, but it was not possible to attach a

263a

probability to this possible inclusion or exclusion because the size of the pool of people who could
have been a source for the hair was unknown. Thus, a forensic examiner who testified that an
unknown hair likely came from a known source would have been overstating the conclusions that
could be drawn from microscopic hair analysis evidence. Julie Howenstine, a forensic biology
and forensic DNA specialist, stated in an affidavit that Officer Badaczewski’s trial testimony
overstated the significance of the evidence in plaintiff’s case when he stated his opinion with a
reasonable scientific certainty.
Plaintiff filed a motion for relief from judgment on the basis of this new evidence regarding
the limitations of microscopic hair analysis evidence. With the parties’ agreement, the circuit court
granted the motion, vacated plaintiff’s conviction and sentence, and dismissed the case without
prejudice because the prosecution did not have sufficient evidence to retry the case. The stipulated
dismissal order noted that the prosecution’s case rested on Herndon’s testimony and the
microscopic hair analysis evidence, that the hair samples had since been destroyed and could not
be DNA tested, and that the new evidence made a different result probable on retrial because
Howenstine’s proposed testimony and the new FBI standards were unrefuted.
Plaintiff subsequently filed a complaint for compensation under the WICA, citing
Herndon’s recantation, the 2013 FBI determination, and the Howenstine affidavit as new evidence
showing that he did not perpetrate the offense. Officer Badaczewski testified that in 1975, when
offering a level of certainty as to how hairs compared to each other, he would state that they were
“microscopically similar and could have had a common origin.” Officer Badaczewski testified
that it was possible to use hair analysis to exclude a suspect, but not to include a suspect. When
presented with the hypothetical scenario of how to describe a hair that was potentially similar to
hair samples from two different people, Officer Badaczewski stated that he would not be able to
eliminate either individual, but he could say it was more likely to be one individual over the other.
In that scenario, Officer Badaczewski stated, hair comparison was not a tool of identification, but
it had “probative value” that he would use to advise an investigator to look more closely at one
suspect over another.
The state filed a motion for summary disposition. The Wayne County Prosecutor
concurred and argued that plaintiff did not produce evidence that showed he did not perpetrate the
crime. It produced a report from David Stephens, a forensic scientist, that criticized Howenstine’s
affidavit. Stephens acknowledged that Officer Badaczewski may have overstated the conclusions
that could be drawn from the microscopic hair analysis evidence at trial and at his 2017 deposition
because Officer Badaczewski did not clarify whether his testimony related only to the three known
sources, Ingram, plaintiff, and Herndon, or to the entire population. Plaintiff responded that
Herndon’s recantation was also new evidence that was corroborated by other evidence in the form
of the discredited microscopic hair analysis evidence, showing that plaintiff was not present during
the offense. Defendants replied that plaintiff supplied no evidence corroborating Herndon’s
recantation and that the microscopic hair analysis evidence remained probative of plaintiff’s
involvement because only Officer Badaczewski’s testimony about the level of certainty was
undermined, and that the hair still connected plaintiff to the murder scene.
The trial court granted summary disposition in favor of defendants. It ruled that the
microscopic hair analysis evidence retained probative value even after correcting for Officer
Badaczewski’s overstatements of the evidence because Officer Badaczewski’s testimony that a

264a

hair found on Ingram’s pants was microscopically similar to, and could have a common origin
with, plaintiff’s hair remained valid. The trial court ruled that the evidence regarding the
developments in microscopic hair analysis science was the only new evidence that caused
plaintiff’s conviction to be vacated and that it would not consider any other new evidence cited by
plaintiff.
II. DISCUSSION
Plaintiff argues that the trial court erred by continuing to assign probative value to the
microscopic hair analysis evidence and by ruling that there was no genuine issue of material fact
as to whether the new evidence that resulted in the vacation of plaintiff’s conviction showed that
he did not perpetrate the offense. We disagree.
This Court reviews de novo a trial court’s ruling on a motion for summary disposition as
well as matters of statutory interpretation. Sullivan v Michigan, 328 Mich App 74, 80; 935 NW2d
413 (2019). Summary disposition is proper when “there is no genuine issue as to any material
fact, and the moving party is entitled to judgment or partial judgment as a matter of law.” MCR
2.116(C)(10). “A motion for summary disposition pursuant to MCR 2.116(C)(10) tests whether
there is factual support for a claim and is appropriate when there is no genuine issue concerning
any material fact.” Maples v Michigan, 328 Mich App 209, 217; 936 NW2d 857 (2019). This
Court considers all substantively admissible documentary evidence in the light most favorable to
the nonmoving party. Auto-Owners Ins Co v Seils, 310 Mich App 132, 155; 871 NW2d 530
(2015). “When interpreting a statute, the goal is to ascertain and give effect to the intent of the
Legislature. Where the language of the statute is unambiguous, the statute must be applied as
written.” Ricks v Michigan, 330 Mich App 277, ___; ___ NW2d ___ (2019) (Docket No. 342710)
(quotation marks and citation omitted); slip op at 3.
An individual who has been convicted of and imprisoned for a crime “that he or she did
not commit” may seek compensation from the state. MCL 691.1753. To be entitled to judgment
under the WICA, a plaintiff must establish, by clear and convincing evidence, all of the following:
(a) The plaintiff was convicted of 1 or more crimes under the law of this
state, was sentenced to a term of imprisonment in a state correctional facility for
the crime or crimes, and served at least part of the sentence.
(b) The plaintiff’s judgment of conviction was reversed or vacated and
either the charges were dismissed or the plaintiff was determined on retrial to be
not guilty. . . .
(c) New evidence demonstrates that the plaintiff did not perpetrate the crime
and was not an accomplice or accessory to the acts that were the basis of the
conviction, results in the reversal or vacation of the charges in the judgment of
conviction or a gubernatorial pardon, and results in either dismissal of all of the
charges or a finding of not guilty on all of the charges on retrial. [MCL
691.1755(1).]
MCL 691.1752(b) defines “new evidence” as follows:

265a

(b) “New evidence” means any evidence that was not presented in the
proceedings leading to plaintiff’s conviction, including new testimony, expert
interpretation, the results of DNA testing, or other test results relating to evidence
that was presented in the proceedings leading to plaintiff’s conviction. New
evidence does not include a recantation by a witness unless there is other evidence
to support the recantation or unless the prosecuting attorney for the county in which
the plaintiff was convicted or, if the department of attorney general prosecuted the
case, the attorney general agrees that the recantation constitutes new evidence
without other evidence to support the recantation.
In this case, the parties dispute whether the new evidence clearly and convincingly shows
that plaintiff did not perpetrate or participate in the killing of Ingram, as required by the first clause
of MCL 691.1755(1)(c). The trial court ruled that the new evidence consisted of evidence calling
into question the microscopic hair analysis evidence, as stated in the stipulated order vacating the
conviction. Plaintiff does not contest this ruling. Instead, he argues that the trial court minimized
the effect of Howenstine’s criticism of the evidence given that the circuit court vacated the
conviction on the basis of that criticism with the prosecution’s agreement, ignored Officer
Badaczewski’s deposition testimony that hair comparison evidence served investigative purposes
only, and inflated the significance of Officer Badaczewski’s trial testimony that was discredited
by the new evidence.
Undermining the level of certainty of Officer Badaczewski’s trial testimony about the hair
analysis evidence does not give rise to a genuine issue of material fact that plaintiff did not
perpetrate or participate in the offense. Officer Badaczewski testified in front of the jury that hair
samples obtained from plaintiff and one hair found at the crime scene “were microscopically
similar and could have come from a common origin,” and Officer Badaczewski endorsed the
phrase “reasonable scientific certainty” to describe the strength of that conclusion. Howenstine
criticized the use of the phrase “reasonable scientific certainty” as misleading and not scientifically
supported. Howenstine asserted that microscopic hair analysis cannot be used to conclusively link
or exclude a known hair sample to or from an unknown hair. The FBI likewise criticized assertions
of probability in connection with such evidence, but it would allow forensic examiners to opine
whether a known hair sample could be included or excluded as a source of an unknown hair.1
Microscopic hair analysis evidence may still be useful in stating that an individual may or may not
have been present at a crime scene as long as no probabilities are attached to how likely it was that
the individual may or may not have been present. Consequently, even with the FBI acknowledging
that such evidence had been overstated in the past, such evidence remains viable. Consistent with
the limited usefulness of microscopic hair analysis evidence, Howenstine did not criticize Officer
Badaczewski’s testimony that the unknown hair and plaintiff’s hair were microscopically similar
and could have come from a common origin. Officer Badaczewski’s testimony that the hairs were
“similar” and “could” have had a common origin did not state a conclusive opinion, which is
consistent with the FBI guidance and Howenstine’s affidavit. Accordingly, Officer Badaczewski’s
testimony that the hairs could have been similar was not discredited; rather, the certainty or

We need not address plaintiff’s argument that this document was admissible because the trial
court considered the effect of the document before ruling it inadmissible hearsay.
1

266a

probability of this conclusion was limited. For this reason, the trial court did not err by continuing
to assign “probative” value to Officer Badaczewski’s testimony.
Plaintiff contests this ruling by citing Officer Badaczewski’s deposition testimony that
microscopic hair analysis evidence has probative value during an investigation but should not be
used at trial. Officer Badaczewski testified that hair analysis could be a useful investigatory tool
when presented with the hypothetical scenario of a hair possibly corresponding to two different
suspects. Officer Badaczewski stated that if he could not eliminate one or the other suspect, he
would tell an investigator that the hair was more similar to suspect A rather than suspect B, but he
would not so testify in court. This hypothetical scenario is different from what Officer
Badaczewski testified to at trial when he stated that one of the hairs was microscopically similar
to and could have a common origin with plaintiff’s hair because Officer Badaczewski did not
testify that the hair was similar to both plaintiff’s hair and Herndon’s hair. Therefore, the trial
court did not err by concluding that Officer Badaczewski’s deposition testimony did not affect the
probative value of the subject evidence.
Additionally, Herndon’s testimony remains an obstacle to plaintiff’s argument that the new
evidence clearly and convincingly established that plaintiff did not perpetrate or participate in the
offense. At trial, Herndon’s testimony about how he and plaintiff committed the murder was the
primary evidence against plaintiff. The hair analysis evidence corroborated Herndon’s testimony
that plaintiff was present, although defense counsel made the point on cross-examination that the
hair could have been present in Ingram’s house for months, consistent with testimony that plaintiff
had been to Ingram’s house before. Plaintiff’s conviction was vacated because of the limitations
on microscopic hair analysis evidence and the prosecution’s inability to test the hair evidence.
Herndon’s recantation, which the circuit court previously rejected as unreliable, did not contribute
to the vacation of the conviction and the dismissal of the charge. Revising the import of the hair
analysis evidence reduced the corroboration for Herndon’s trial testimony, but it does not create a
genuine issue of material fact regarding plaintiff’s involvement.
Plaintiff criticizes the trial court’s reliance on statements made in the 2010 clemency
application because those remarks did not constitute new evidence, contrary to the trial court’s
ruling that the analysis was limited to whether the new evidence regarding the interpretation of the
hair analysis evidence showed that plaintiff did not perpetrate the offense. The trial court’s reliance
on plaintiff’s statements accepting responsibility for the killing in the 2010 clemency application
may have been extraneous to the requirement in MCL 691.1755(1)(c) that a WICA claimant show
that the new evidence clearly and convincingly demonstrates the plaintiff’s innocence, but they do
not detract from its ruling that the new evidence did not show that plaintiff did not perpetrate or
participate in the offense. Therefore, the trial court’s reliance on those statements was not error
requiring reversal.
When the prosecution agreed to the order vacating plaintiff’s conviction, the prosecution
noted that the hair was no longer available for DNA testing, and it agreed that Howenstine’s
unrefuted affidavit and the FBI’s revised standards for evaluating hair evidence were new evidence
that made a different result probable on retrial. The prosecution’s agreement to the order vacating
plaintiff’s conviction reflected its inability to prove guilt beyond a reasonable doubt. This
recognition, however, does not translate to a genuine issue of material fact regarding whether
plaintiff perpetrated or participated in the offense for the purpose of a WICA claim.

267a

Affirmed.

/s/ Patrick M. Meter
/s/ Michael J. Riordan

268a

STATE OF MICHIGAN
COURT OF APPEALS

LEDURA WATKINS,

UNPUBLISHED
October 22, 2020

Plaintiff-Appellant,
v

No. 348855
Court of Claims
LC No. 17-000218-MZ

STATE OF MICHIGAN,
Defendant-Appellee,
and
WAYNE COUNTY PROSECUTOR,
Intervening Defendant-Appellee.

Before: METER, P.J., and SHAPIRO and RIORDAN, JJ.
SHAPIRO, J. (dissenting).
I respectfully dissent. Plaintiff Ledura Watkins was convicted of first-degree murder in
1975. The evidence supporting his conviction was the testimony of Travis Herndon and a police
evidence technician. Herndon long since recanted his testimony and confessed that he and Gary
Vanzana, a corrupt police officer, committed the murder. The evidence technician testified at trial
that one hair found on the victim was “to [his] scientific satisfaction the hair[ ] of Ledura Watkins.”
He further agreed that there it was “highly probable” that the hair came from plaintiff.
In 2013, the FBI recognized the problem of prosecution witnesses overstating the reliability
of hair identification and issued guidelines for such testimony. In his motion for new trial, plaintiff
submitted the FBI’s report as well as an affidavit from a forensic biology expert setting forth
several criticisms of the evidence technician. The prosecution agreed that the technician’s
testimony had been improper and, given the post-trial destruction of the hair samples and the
recantation, that it did not have sufficient evidence to retry the case. Thus, plaintiff was released
after 45 years of imprisonment and filed suit against the state as provided for by the Wrongful
Incarceration Compensation Act (WICA), MCL 691.1751 et seq.

269a

MCL 691.1755(1) sets forth the elements of such a claim. It is not disputed that plaintiff
has satisfied the first two requirements found in MCL 691.1755(1)(a)-(b).
The legal question now before us is whether the recantation can be considered “new
evidence” under MCL 691.1755(1)(c) consistent with MCL 691.1752(B), which requires that
“there is other evidence to support the recantation . . . .” I would conclude that the new
understanding of the limits of forensic hair evidence is evidence that supports the recantation and
that the Legislature’s intent was to prevent a recantation from serving as the sole basis for
compensation under WICA, not to require that a recantation be ignored despite the presence of
additional grounds to conclude the individual was innocent of the crime.
The factual question is therefore whether the recantation, combined with the present
recognition that the technician’s testimony was erroneous and misleading, constitutes clear and
convincing evidence that plaintiff did not commit the crime. In my view, this question should not
have been determined on the basis of affidavits and depositions, but rather after a trial that would
allow the trial court, as finder of fact, to actually hear and see the witnesses in order to make
necessary credibility decisions. Certainly, the new evidence creates a question of fact as to
plaintiff’s innocence. Whether it constitutes clear and convincing evidence turns largely on the
credibility of the recanting witnesses, the technician and relevant experts. That should be
determined by the court as factfinder after hearing the witnesses testify rather than at the summarydisposition stage. This case has, in a sense, been pending for 45 years and deserves the finality
that only a trial can provide.
/s/ Douglas B. Shapiro

270a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.4996 Filed 04/26/18 Page 1 of 45

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LEDURA WATKINS, individually,
Plaintiff,

Case No. 2:17-cv-13940

-v-

Hon. Matthew F. Leitman

ROBERT H. HEALY, in his
individual capacity; John Ferguson,
Esq., Personal Representative of the
Estate of NEIL SCHWARTZ,
deceased, in his individual capacity;
RONALD BADACZEWSKI, in his
individual capacity, CITY OF
DETROIT, a Municipal corporation;
jointly and severally,

Mag. Judge Mona K. Majzoub

Defendants.

AMENDED MOTION TO DISMISS BY DEFENDANT ROBERT H. HEALY
Pursuant to Fed. R. Civ. P. 12(b)(6), Defendant former Assistant Wayne
County Prosecuting Attorney Robert H. Healy moves to dismiss the Complaint
filed by Plaintiff Ledura Watkins (“Plaintiff”). In support of his motion, APA
Healy relies upon the attached Brief.

271a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.4997 Filed 04/26/18 Page 2 of 45

Pursuant to E.D. Mich. L.R. 7.1(a), on April 11, 2018, counsel for APA
Healy contacted counsel for Plaintiff, explained the nature of the motion and its
legal basis and requested but did not obtain concurrence in the relief sought.
Dated: April 26, 2018

Respectfully submitted,
By: /s/Davidde A. Stella
Zenna Elhasan (P67961)
Wayne County Corporation Counsel
Davidde A. Stella (P69948)
Assistant Corporation Counsel
500 Griswold St., 30th Floor
Detroit MI 48226
(313) 224-5030
dstella@waynecounty.com
Attorneys for Robert H. Healy

272a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.4998 Filed 04/26/18 Page 3 of 45

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LEDURA WATKINS, individually,
Plaintiff,

Case No. 2:17-cv-13940

-v-

Hon. Matthew F. Leitman

ROBERT H. HEALY, in his
individual capacity; John Ferguson,
Esq., Personal Representative of the
Estate of NEIL SCHWARTZ,
deceased, in his individual capacity;
RONALD BADACZEWSKI, in his
individual capacity, CITY OF
DETROIT, a Municipal corporation;
jointly and severally,

Mag. Judge Mona K. Majzoub

Defendants.

AMENDED BRIEF IN SUPPORT OF MOTION TO DISMISS
BY DEFENDANT ROBERT H. HEALY

273a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.4999 Filed 04/26/18 Page 4 of 45

CONCISE STATEMENT OF ISSUES PRESENTED
1.

Is Defendant Robert H. Healy entitled to absolute and/or qualified immunity
on the Fourth Amendment claims under 42 U.S.C. § 1983 against him?

2.

Are Plaintiff’s Fourth Amendment under 42 U.S.C. § 1983 claims barred by
the applicable statute of limitations?

3.

Is Defendant Robert H. Healy entitled to immunity on the state law claims of
malicious prosecution and intentional infliction of emotional distress?

4.

Has the statute of limitations expired on the state law intentional infliction of
emotional distress claims?

i

274a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5000 Filed 04/26/18 Page 5 of 45

CONTROLLING OR MOST APPLICABLE AUTHORITY
Issue No. 1:

Absolute and Qualified Immunity

Adams v. Hanson, 656 F.3d 397 (6th Cir. 2011).
Beckett v. Ford, 385 F. App’x 435 (6th Cir. 2010) (unpublished).
District of Columbia v. Wesby, 138. S. Ct. 577 (2018).
Jones v. Shankland, 800 F.2d 77 (6th Cir. 1986).
Koubriti v. Convertino, 593 F.3d 459 (6th Cir. 2010).
Issue No. 2:

Federal Statute of Limitations

Allen v. McCurry, 449 U.S. 90 (1980).
Briscoe v. Lahue, 460 U.S. 325 (1983).
Collyer v. Darling, 98 F.3d 211 (6th Cir. 1996).
Haring v. Prosise, 462 U.S. 306 (1983).
Manuel v. City of Joliet, 137 S. Ct. 911 (2017).
McCune v. City of Grand Rapids, 842 F.2d 903 (6th Cir. 1988).
Wallace v. Kato, 549 U.S. 384 (2007).
Issue No. 3:

State Law Claims

Killian v. Fuller, 412 N.W.2d 698 (Mich. Ct. App. 1987).
Matthews v. Blue Cross & Blue Shield, 572 N.W.2d 603 (Mich. 1998).
Peterson Novelties, Inc. v. City of Berkley, 672 N.W.2d 351 (Mich. Ct. App. 2003).
Roberts v. Auto-Owners Ins. Co., 374 N.W.2d 905 (Mich. 1985).
ii

275a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5001 Filed 04/26/18 Page 6 of 45

INTRODUCTION
Plaintiff Ledura Watkins (“Plaintiff”), recently released from the Michigan
Department of Corrections (the “MDOC”) after being convicted of first-degree
murder by a jury in 1976, brings this civil action under 42 U.S.C. § 1983 and state
law, seeking $168,000,000 in damages, claiming, in relevant part, that nowdeceased Detroit Police Department Sergeant Neil Schwartz and former Assistant
Wayne County Prosecuting Attorney Robert H. Healy1 “fabricated evidence”
against him because they chose to believe one of allegedly “two” stories told by
Plaintiff’s accomplice.

In 1980, four years after Plaintiff’s criminal trial, his

accomplice, Travis Herndon, also serving a lengthy sentence in the same MDOC
facility for an unrelated armed robbery conviction, attempted to “recant” his 1976
trial testimony, stating, for the first time, that he told “two” different stories of the
murder to the DPD. Following an extensive evidentiary hearing in 1980 and 1981,
the state trial court found Herndon’s attempted “recantation” not credible and
refused to order a new trial.
Between 1976 and 2015, state and federal courts rejected all of Plaintiff’s
requests for a new trial, relief from judgment, and a writ of habeas corpus. His
criminal case was dismissed during June 2017 only because the FBI now does not
1

APA Healy, who is now 85 years old, retired from Wayne County in 1994 after
24 years of service. Former Detroit Police Office Neil Schwartz retired from the
DPD in 1979 after 25 years of service, and passed away in 2010. DPD Evidence
Technician Ronald Badaczewski retired from the DPD in 1988.
1

276a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5002 Filed 04/26/18 Page 7 of 45

generally consider microscopic hair analysis evidence like the kind used at the
1976 trial to be sufficiently accurate for criminal proceedings. Unfortunately,
because the DPD did not preserve the hair sample from 42 years ago, modern DNA
testing was not possible. However, at no time has the Wayne County Prosecutor’s
Office conceded Plaintiff’s innocence for the murder.
As explained in detail below, absolute and/or qualified immunity bars the
assertion of a Fourth Amendment “fabrication of evidence” claim against APA
Healy. Alternatively, the applicable statute of limitations under § 1983 has run on
the Fourth Amendment claim. Finally, immunity from suit and the applicable
statute of limitations bar the state law claims of malicious prosecution and
intentional infliction of emotional distress.
RELEVANT FACTS
A.

October 1975 – March 1976: Plaintiff is Arrested, Prosecuted, and
Convicted for the Murder of Yvette Ingram in the City of Detroit.
1.

September 6, 1975: Yvette Ingram is Murdered in Detroit, Michigan.

On the night of September 6, 1975, Yvette Ingram, a 25 year-old
schoolteacher, was robbed and murdered in her apartment at 20501 Hubbell St. in
Detroit, Michigan. (Ex. 1, Police Report).2 She was discovered by friends at

2

The Exhibits attached to this Motion are properly considered under Rule 12(b)(6)
because they substantiate matters referred to in the Complaint, are matters attached
to the Complaint, or are public documents of which the Court can take judicial
2

277a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5003 Filed 04/26/18 Page 8 of 45

around 11:10 pm. (Id.). DPD Investigators subsequently collected and tested
various items found at the scene – including evidence of bullets, clothing,
suspected narcotics, and some hairs. (Ex. 2, Crime Scene Report). On September
7, 1975, an autopsy concluded that the cause of death was two consecutive gunshot
wounds to the right temple. (Ex. 3, Autopsy Report).
2.

October 1975: The Homicide Investigation.

During mid-October 1975, an individual named “Travis Herndon”3 was
being held in the Highland Park Jail on an unrelated armed robbery charge. (Ex. 5,
HPPD Report). There, Herndon voluntarily told HPPD Detective Roberts that
Plaintiff and he had committed the murder on orders of a crooked Highland Park
Police Officer named Gary Vazana. (Id.).
On October 21, 1975, Detective Roberts contacted the DPD about
Herndon’s statements. (Ex. 6, Evidentiary Hrg. Tr. at 7). Sergeant Schwartz of the
Wayne County Organized Crime Task Force brought Herndon from the Wayne
County Jail over to his office for questioning. (Id.). Herndon identified Plaintiff as
the killer and admitted that he had assisted with the robbery and murder. (Id. at 912). Herndon also stated that Vazana had provided the gun, gloves, and a vehicle

notice. See Overall v. Ascension, 23 F. Supp. 3d 816, 824 (E.D. Mich. 2014)
(citations omitted).
3

On April 4, 2017, Herndon was released from the MDOC after serving lengthy
sentences for armed robbery and felony firearm. (Ex.4, OTIS Record).
3

278a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5004 Filed 04/26/18 Page 9 of 45

for robbery and murder. (Id. at 12). Sergeant Schwartz told him that in exchange
for truthful testimony at trial that Herndon would be granted immunity for
prosecution for his participation in the murder. (Id. at 10).
During the early afternoon of October 21, 1975, Herndon agreed to a taperecorded statement of his account. (Ex. 7, Statement; Ex. 6, Evidentiary Hrg. Tr. at
11). Herndon recounted in incredible detail that at Vazana’s room at the Holiday
Inn in Highland Park, Vazana ordered Herndon and Plaintiff to rob and murder
Ingram. (Ex. 7, Statement at 2-3). He also stated that he had known Plaintiff for
the past five or six years, and both had sold drugs for Vazana. (Id. at 5-6). He also
stated that Plaintiff had known Ingram before the murder. (Id. at 9).
At 10:15 pm the night of October 21, 1975, Vazana was found dead in his
Highland Park residence. (Ex. 66, Detroit News Article).
On October 22, 1975, a warrant request for Plaintiff was submitted to the
Wayne County Prosecutor’s Office.

(Ex. 8, Request; Ex. 9, Warrant

Recommendation). The state court authorized the warrant. (Ex. 10, Warrant
Authorization). On October 23, 1975, DPD Sergeants Schwartz and Ives arrested
Plaintiff. (Ex. 11, 10/23/75 Report). Plaintiff was provided his Miranda rights,
and requested to see an attorney before talking to investigators. (Id.). On October
29, 1975, DPD took hair samples from Plaintiff. (Ex. 12, Search Warrant).

4

279a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5005 Filed 04/26/18 Page 10 of 45

On October 29, 1975, Plaintiff and his attorney, Robert M. Cohn, agreed to
take a polygraph test administered by the DPD. (Ex. 6, Evidentiary Hrg Tr. at 16).
The examiner noted the following:
It is the opinion of the undersigned examiner, based on the analysis of
LEDURA ROBERT WATKINS’s polygraph examination, that he is
not telling the truth to the pertinent test questions.
1.
2.
3.
4.

Sept 6, Do you know for sure who shot Yvette? Ans. No
Sept 6, Did you personally shoot Yvette? Ans. No
Were you present when Yvette was shot? Ans. No
Did you plan with anyone to kill Yvette? Ans. No

During the post test interview WATKINS did tell the undersigned
he lied on the test. The only admission he would make was that
TRAVIS HERNDON showed him three rings in his room at the
Holiday Inn. Subject refused to say anything else.
(Ex. 13, Polygraph Results) (emphasis added).
3.

October 31, 1975: Plaintiff is Arraigned and Bound Over For Trial.

On October 31, 1975, Plaintiff was arraigned. (Ex. 14, Arraignment). The
same day, a preliminary examination was held on the first-degree murder charges.
At that exam, Herndon testified that he had known Plaintiff for five years. (Ex. 15,
Exam Tr. at 7-8). He further testified that at the Holiday Inn, Vazana told Plaintiff
and him to go to Ingram’s house to rob and murder her. (Id. at 10). Vazana
provided a gun, gloves, and a vehicle to the two. (Id. at 10-12). He testified that
Plaintiff knew personally knew Ingram. (Id. at 12). The two drove to Ingram’s
house and waited outside. (Id. at 13). Both approached the house, and Plaintiff
5

280a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5006 Filed 04/26/18 Page 11 of 45

knocked on the front door. (Id. at 14). When Ingram answered, the two pushed her
inside. (Id.). The two took Ingram up the stairs to a bedroom, where they searched
for money and drugs. (Id. at 15-16). In addition to drugs, Herndon found three
diamond rings and $40 in cash, which he pocketed. (Id. at 16-17). At that point,
someone outside rang the doorbell and the phone rang. (Id. at 17-18). Herndon
testified that Plaintiff told him to hold a pillow over Ingram’s head, at which point
Plaintiff shot her twice in the head. (Id. at 18). The two then proceeded to exit the
apartment by the back door with three rings, $40 in cash, “reefer,” and some small
bags of cocaine. (Id. at 18-19). The two went back to the Holiday Inn to speak
with Vazana. (Id. at 21). Herndon testified that he gave Plaintiff one of the rings
and $20, pawned one and split the profits with Plaintiff, and then gave Plaintiff the
final ring to assist with the bond for a female friend. (Id. at 24-25). Herndon
testified that he and Plaintiff had no personal issues between them, and that they
had collaborated in other crimes in the past. (Id. at 32 & 36). Herndon stated that
he voluntarily told the HPPD about Plaintiff killing Ingram. (Id. at 35). At the
conclusion of the hearing, the state court bound Plaintiff over for trial. (Id. at 47).
4.

December 1975: Plaintiff Attempts to Convince Herndon to Change
His Testimony.

Although Plaintiff and Watkins were incarcerated at the Wayne County Jail
at the same time, they were supposed to be segregated. (Ex.6, Evidentiary Hrg. Tr.
at 19). During December 1975, Plaintiff attempted to get Herndon to change his
6

281a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5007 Filed 04/26/18 Page 12 of 45

testimony.

(Id. at 19-20).

After Herndon told Sergeant Schwartz about the

incident, Schwartz took additional steps to keep the two segregated. (Id. at 20-22).
5.

March 16, 1976: Plaintiff is Convicted of the Murder of Ingram.

Plaintiff’s criminal trial lasted from March 8 to 16, 1976.

A number of

witnesses testified. 4 Herndon provided extensive testimony at trial, consistent with
his prior statements to law enforcement and at the preliminary examination, which
was then subject to cross-examination. In summary, Herndon testified:
 He had known Plaintiff for about five years and considered himself
close to him. (Id. at 380-81, 389 & 456).

4

Mattie Ingram (Yvette’s Mother) testified regarding the identity of Ingram.
(Ex.16, Trial Tr. at 246-47). Dr. Millard Bass (Wayne County Assistant Medical
Examiner) testified as to the cause of Ingram’s death – two close range gunshot
wounds to the right side of the head. (Id. at 249-55). Horace Brown (Ingram’s
neighbor) testified about hearing a scream from Ingram’s apartment, hearing the
sounds of someone running up her stairs, attempting to call Ingram, and letting
Ingram’s friends know that she had been screaming. (Id. at 255-70). Leon
Breeden, Jr. (Ingram’s friend) testified that he stopped by Ingram’s house at
around 10:45 or 11:00 pm the night of the murder. He rang Ingram’s doorbell but
no one came to the door. He heard someone running down the stairs and then
some “thumping” sounds from the upstairs. He went back out to his car, when
several of Ingram’s friends arrived. After trying the doorbell and having Brown
continue telephoning, Breeden and one of the ladies went in the apartment, found it
ransacked, and then discovered Ingram shot in her bed upstairs. (Id. at 271-90).
Delores Leak (Ingram’s friend) testified that she had witnessed Breeden and
another of Ingram’s friends come out through the front door. Leak proceeded
inside and saw Ingram’s body in the bed upstairs. (Id. at 317-25). Marguerite Dent
testified that she had come over with Ingram’s friends and witnessed Breeden and
another Ingram’s friends come out of the front door. She then proceeded with
others upstairs and saw Ingram’s body. (Id. at 326-38). Carolyn Leak (Ingram’s
friend) testified to going with Breeden in the backdoor and discovering Ingram’s
body. (Id. at 339-75).
7

282a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5008 Filed 04/26/18 Page 13 of 45

 He had met Highland Park Officer Vazana in 1971 when the latter had
been assigned to Highland Park High School. (Id. at 381). The two
had done drugs together at that time. (Id. at 439-46). Since that time,
Herndon had sold drugs for Vazana on occasion. (Id. at 503).
 On September 9, 1975, he had been arrested for assault and later let
out on bond. On October 14, 1975, he had been rearrested for the
same offense and was being detained at the Highland Park Police
Department. He eventually went to trial on an assault with intent to
rob, and was convicted. (Id. at 439).
 While in custody of Highland Park, he voluntarily approached an
officer to tell him about the murder of Ingram. (Id. at 384 & 450).
 After being transferred to the Wayne County Jail, he met with
Sergeant Schwartz regarding the murder. (Id. at 451-52). Herndon
did not request any immunity for his account, but immunity was
offered to him by law enforcement. (Id. at 386-87). He stated he
would have told the story of the murder whether he had received
immunity or not. (Id. at 452). He had not been promised anything
further other than immunity in the murder case. (Id. at 454).
 He provided a recorded statement of the incident to Sergeant
Schwartz, and reviewed it. (Id. at 438). He reaffirmed at trial that the
statement given to Sergeant Schwartz was accurate. (Id. at 544).
 In early September 1975, Herndon was staying with Plaintiff and
Vazana at Vazana’s room at the Holiday Inn in Highland Park, where
Vazana kept several weapons. (Id. at 389-9, 394 & 467-68). Herndon
testified that Plaintiff was closer to Vazana than he was. (Id. at 391).
 Plaintiff knew Ingram because he had bought cocaine from her in the
past. Herndon had only been to her apartment before with Plaintiff
when the latter was buying drugs from her. (Id. at 391-93 & 463-66).
 The night of the murder, around 9 pm, Vazana hatched a plan where
Plaintiff and Herndon would rob and murder Ingram because it was
known that she had drugs and cash at her apartment. Ingram would
have to be murdered because she would recognize and be able to
8

283a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5009 Filed 04/26/18 Page 14 of 45

identify Plaintiff. Vazana provided a gun, his car, and gloves to the
two. (Id. at 394-400).
 Plaintiff and Herndon pulled up to Ingram’s apartment in Detroit, and
saw her move her car into the driveway and go into her place. Their
plan was for Plaintiff to ring the doorbell, with Herndon standing out
of view with a gun, and gain access to her apartment. Ingram
answered the doorbell, and Plaintiff pushed her back into her
apartment. (Id. at 404-05).
 Plaintiff forced Ingram upstairs with his gun and told her to lay down
on her bed. Herndon went through her purse. Plaintiff asked Ingram
where the drugs and cash were. Herndon located some drugs and
three rings in her drawer. (Id at 405-12).
 During the encounter, Ingram’s telephone began to ring and someone
ringing the doorbell. Herndon moved the phone. At that point,
Plaintiff asked Herndon to hold a pillow over Ingram’s head, and
Plaintiff shot her in the head twice through it. (Id. at 413-20).
 They both then exited Ingram’s apartment through the back door and
ran towards 8 Mile Road. Plaintiff told Herndon to go back and get
the car. Herndon did so, picked up Plaintiff, and both returned to
Vazana at the Holiday Inn. (Id. at 421-24).
 The two gave the gun, the car keys, the cocaine, and $40 taken from
Ingram to Vazana. Herndon gave two of the rings to Plaintiff and
pawned the third one. After spending about 45 minutes at the Holiday
Inn, they went back to Herndon’s house, and then later returned to the
Holiday Inn. (Id. at 425-30).
 Law enforcement did not tell him what to say regarding the murder,
and Sergeant Schwartz only wanted the truth from him about the
murder. (Id. at 558-60 & 565).
DPD personnel testified to: (1) discovering the murder scene; forensic work
done at the crime scene, including dusting for prints, photos, collection of

9

284a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5010 Filed 04/26/18 Page 15 of 45

evidence, the search of the residence, and the discovery of marijuana at the scene;
(3) following various leads in the murder investigation; and (4) taking hair samples
from Plaintiff and Herndon. (Id. at 592-97; 597-637; 637-39 & 746-48).
DPD Evidence Technician Ronald Badaczewski and DPD Sergeant Mary
Jarrett testified regarding the hair evidence found at the scene.

Badaczewski

explained that the technique of “microscopic hair analysis” was a widelyrecognized investigative technique at the time. He explained that microscopic hair
analysis can be used to eliminate, with a 100% certainty, hair from a particular
individual. (Id. at 673). He also explained that microscopic hair analysis cannot
be used to make a positive identification, but to show that a hair was
microscopically similar and could have a “common origin,” and that the science
complied with FBI standards at the time. (Id. at 674). He also testified that he had
extensive training in microscopic hair analysis techniques and had analyzed
approximately 100,000 hairs in his career. (Id. at 670-71, 681 & 694-95).
Sergeant Jarrett, who had testified in approximately 5,000 prior cases,
further explained that microscopic hair evidence involved the comparison of 15
characteristics of a hair sample – and that all 15 characteristics must match before
a “common origin” determination can be made. (Id. at 701-02 & 707). At the time
of trial, she testified that microscopic hair analysis was a standard technique in
every forensic lab. (Id. at 703). Badaczewski testified that the hair found at the
10

285a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5011 Filed 04/26/18 Page 16 of 45

crime scene matched Plaintiff in all 15 characteristics, and thus “could” have a
“common origin” with Plaintiff. (Id. at 810-11 & 814). Plaintiff introduced no
evidence, expert or otherwise, to rebut this evidence.
Sergeant Schwartz testified that he received information from the HPPD that
Herndon had knowledge of the Ingram murder. (Id. at 818-19). He stated that he
offered immunity to Herndon contingent on him telling the truth about the murder.
(Id. at 820). Herndon then made a recorded statement. (Id. at 823-24).5
Two witnesses testified in Plaintiff’s defense – his mother, Gloria Watkins,
and Plaintiff himself. Ms. Watkins admitted that Plaintiff stayed at the Holiday Inn
with Vazana when he was not at home. (Id. at 870-71).
Plaintiff was the last witness at trial to testify.
 He admitted to a prior conviction for carrying a concealed weapon.
(Id. at 884-85).
 He could not provide an alibi for the night of the murder because he
could not “remember” what he was doing at that time. (Id. at 893).
 He admitted that he had been to the Highland Park Holiday Inn with
Vazana in the past, and that Vazana would let him use the room when
Vazana was not using it. (Id. at 893-94, 911 & 914). He had known
Vazana since high school. (Id. at 909). He stated that he did not
know that Vazana was “crooked,” and denied ever selling drugs for
him. (Id. at 910-11).

5

During the jury trial, Plaintiff’s counsel stipulated on the record that Herndon did
not know about the fact that Vazana had died at the time he spoke with Sergeant
Schwartz. (Id. at 821-22).
11

286a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5012 Filed 04/26/18 Page 17 of 45

 He admitted that he personally knew Ingram, had been to her house
on prior occasions, and had bought drugs from her starting in the
summer of 1975. (Id. at 897-98 & 902, 915).
 He admitted to drug use and that he got the money for drugs from his
mother and other relatives. (Id. at 899-901).
 He denied that he murdered Ingram or that he received any of
Ingram’s rings from Herndon. He claimed that he did not see Vazana
in September 1975. (Id. at 893, 903-04 & 920).
The jury began its deliberations late in the afternoon on March 15, 1976.
(Id. at 1067-68).6 It announced a unanimous verdict of guilty at 3:15 pm the
following day. (Ex. 17, Jury Verdict Tr.). On April 15, 1976, the state court
sentenced Plaintiff to life in prison without the possibility of parole. (Ex. 18,
Sentencing Tr.; Ex. 19, 4/15/76 Sentencing Order).
On May 25, 1976, Plaintiff moved for a new trial arguing only that the
WCPO should have provided immunity to possible defense witness Michael
Miller, who would purportedly offer impeachment evidence against Herndon on
the issue of the selling of one of Ingram’s rings. (Ex. 20, 5/25/76 Motion for a
New Trial). On July 22, 1976, the state court held a hearing on Plaintiff’s motion

6

At trial, there were several side issues raised, including disputes about the fate of
Ingram’s three rings and a break-in committed by Plaintiff and Herndon of a
residence owned by an individual named “Donald Dean.” Eddie Neal testified to
the identity of one of Ingram’s rings. (Id. at 585-92). Edgar Young confirmed that
he had bought the pawn slip for one of the rings from Herndon. (Id. at 656-57).
Donald Dean and Bernard Hails testified regarding a break-in committed by
Plaintiff and Herndon of Dean’s residence. (Id. at 836-40 & 849-51).
12

287a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5013 Filed 04/26/18 Page 18 of 45

for a new trial. (Ex. 21, 7/22/76 Hrg. Tr.). On November 24, 1976, the state court
denied the motion. (Ex. 22, 11/24/76 Order).
B.

July 1976 – May 1979: The Michigan Court of Appeals and Supreme
Court Reject Plaintiff’s Direct Appeal of His Conviction.
On July 15, 1976, Plaintiff filed a direct appeal of his conviction. (Ex. 23,

Claim of Appeal). On appeal, Plaintiff argued that: (1) the prosecution refused to
provide immunity to a putative defense witness, who would have testified that
Herndon sold him one of the rings stolen from Ingram, contradicting Herndon’s
testimony; and (2) the microscopic hair analysis was erroneously admitted. The
Michigan Court of Appeals held that prosecutors enjoy absolute discretion
regarding immunity requests from witnesses, and that the hair evidence was not
scientifically unreliable under the standards of the day. See People v. Watkins, 259
N.W.2d 381, 383-85 (Mich. Ct. App. 1977). On May 4, 1979, the Michigan
Supreme Court denied Plaintiff’s application for leave to appeal. See People v.
Watkins, 406 Mich. 954 (1979).
C.

November 1980 – May 1981: After Holding an Extensive Evidentiary
Hearing, the State Court Denies Plaintiff’s Motion for a New Trial.
In two affidavits drafted while in the MDOC Ionia Correctional Facility (the

same facility where Plaintiff was incarcerated), Herndon attempted to “recant” his
1976 trial testimony. (Ex. 24, 7/2/80 Motion). He admitted to initially telling
HPPD and DPD that Plaintiff had committed the murder, but then claimed that he
13

288a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5014 Filed 04/26/18 Page 19 of 45

gave law enforcement a “second story” upon learning that Vazana was dead. (Id.).
In the alleged “second story,” he claimed that Vazana murdered Ingram, and not
Plaintiff. (Id.). Herndon also stated that that Sergeant Schwartz and APA Healy
threatened to prosecute him for Ingram’s murder and the murder of a “Junior
Cunningham” if Herndon did not implicate Plaintiff in the murder. (Id.). In a
second affidavit, Herndon attempted to “clarify” his trial testimony by stating that
he did sell one of Ingram’s rings to “Michael Miller.” On July 2, 1980, Plaintiff
moved for a new trial based on these two affidavits. (Id.).
On October 9, 1980, the state trial court granted the motion for an
evidentiary hearing on the issue of Herndon’s recantation. (Ex. 25, 10/9/80 Order).
The hearing was held on November 5, 12, and 19, 1980, and January 20 and
February 4, 1981. (Ex. 6, Evidentiary Hrg. Tr.). Herndon, Sergeant Schwartz, and
APA Healy were called as witnesses. Plaintiff chose not to testify.
Sergeant Schwartz testified that he never threatened Herndon or told him to
lie about the details of Ingram’s murder. (Ex. 6, Evidentiary Hrg. at 17-18).
Sergeant Schwartz further denied telling Herndon on October 21, 1975, that
Vazana was dead, which was consistent with Plaintiff’s stipulation at trial that
Herndon did not know about Vazana’s death at the time he told the account of the
murder, and the fact that at the time of Schwartz’s interaction with Herndon,
Vazana had not yet been discovered dead. (Id. at 19 & 25). At no time did
14

289a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5015 Filed 04/26/18 Page 20 of 45

Herndon tell Schwartz that he was planning on lying at trial. (Id. at 22-23).
Sergeant Schwartz did not threaten Herndon with charging murder of Junior
Cunningham. (Id. at 26-27). Herndon had first discussed Cunningham with him
only after Plaintiff had been arrested. (Id. at 29-30).
To support his alleged “recantation,” Herndon testified to the following:
 He admitted that he told the HPPD and DPD the same account that
Plaintiff had murdered Ingram and that he had given the transcribed tape
recorded statement. (Id. at 49-50 & 51-52).
 He stated that Sergeant Schwartz told him that Vazana was dead on
October 21, 1975, before he provided his transcribed statement. (Id. at
51).7 However, later in his testimony, Herndon could not say for sure
how he found out about Vazana. (Id. at 96).
 He stated that the reason he testified against Plaintiff was that he had a
grudge with him at the time based on the fact that Herndon thought that
Plaintiff had taken a shot at him with a gun. (Id. at 55 & 91).
 He stated that in meetings before trial APA Healy told him what to say at
trial and that APA Healy was “disappointed” when Herndon changed his
story. (Id. at 56-57).
7

In Herndon’s 1980 testimony, he claims that the news of Vazana’s death (which
he learned of just before he gave his recorded statement) made him want to come
clean about the murder. He claimed that when he tried to tell Sergeant Schwartz
that Plaintiff was innocent, they threatened to charge him with Ingram’s death and
Junior Cunningham’s death unless he implicated Plaintiff as the shooter.
Herndon’s testimony on this point cannot be true. He testified that he learned of
Vazana’s death and attempted to change his story before giving the recorded
statement. He gave his recorded statement at 1:25 pm on October 21, 1975.
However, Vazana was not discovered dead in his apartment until 10:15 pm that
night. (Ex. 66, Detroit News Article). This is also consistent with Plaintiff’s
counsel’s stipulation on the record at the 1976 trial that Herndon did not know of
Vazana’s death at that time. (Ex. 16, Criminal Trial Tr. at 821-22).
15

290a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5016 Filed 04/26/18 Page 21 of 45

 He stated that his statements to the HPPD, to law enforcement, at the
preliminary examination were all lies. (Id. at 62, 65 & 95-96).
 He stated that all of the trial testimony he offered regarding the
disposition of Ingram’s rings was a lie. (Id. at 60 & 85-87).
 He provided an account of the murder similar to the one offered at trial,
but substituting Vazana into the story for Plaintiff. (Id. at 67-85).
 Contrary to his trial testimony, he stated that Sergeant Schwartz and APA
Healy told him that they would try to intervene in his armed robbery
sentencing. (Id. at 99).
 He stated that before the evidentiary hearing, he was incarcerated at the
MDOC Ionia Correctional Facility with Plaintiff. (Id. at 100-02). Before
that time another inmate named “Willie Dillard” had sent letters to
Herndon about Plaintiff. (Id. at 107-09). Both Plaintiff and Herndon had
been transported together from Ionia to the Wayne County Circuit Court
for the evidentiary hearing. (Id. at 105).
APA Healy testified that he did not instruct Herndon to testify falsely at
trial, and at no time did Herndon tell him a different account of the murder. (Id. at
120). He also testified that he never discussed the unrelated “Junior Cunningham”
murder with Herndon. (Id. at 123). APA Healy stated that he never told Herndon
that any one was going to assist him with his unrelated armed robbery sentencing.
(Id. at 122-25). At the same time, APA Healy had gone to the wrong Judge
Sullivan (there were apparently two “Sullivans” at the time), so his attempted
intervention was ineffective anyway. (Id.).
On February 4, 1981, the WCPO filed a response to Plaintiff’s motion for a
new trial, arguing that Herndon’s “recantation” testimony was not credible. (Ex.
16

291a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5017 Filed 04/26/18 Page 22 of 45

26, 2/4/81 Response). On May 29, 1981, the state court denied the motion for a
new trial, finding Herndon’s recantation not credible. (Ex. 6, Evidentiary Hrg. Tr.
at 141; Ex. 27, 5/29/81 Opinion & Order). There was no appeal.
D.

October 1981 – March 1982: The State Trial Denies Plaintiff’s Delayed
Motion for a New Trial.
On October 5, 1981, Plaintiff filed a delayed motion for a new trial on the

basis of APA Healy’s alleged failure to disclose the fact that he attempted to
intervene in Herndon’s armed robbery sentencing without disclosing that fact to
the jury in Plaintiff’s trial. (Ex. 28, 10/5/81 Motion). On December 16, 1981, the
WCPO filed a response, pointing out that because Herndon did not know that APA
Healy and Sergeant Schwartz had attempted to contact his sentencing judge
regarding leniency, that could not have affected Plaintiff’s trial. (Ex. 29, 12/16/81
Response). On March 8, 1982, the state court issued an Opinion denying the
motion. (Ex.30, 3/8/82 Opinion; Ex.31, 3/11/82 Order).
E.

March 1982 – December 1983: The Michigan Court of Appeals and
Supreme Court Reject Plaintiff’s Appeal of the Denial of the Delayed
Motion for a New Trial.
On March 24, 1982, Plaintiff filed a delayed application for leave to appeal

on the issue of whether the prosecution violated his due process rights were
violated when APA Healy failed to inform the jury that he and Sergeant Schwartz
had attempted to intervene in Herndon’s sentencing for armed robbery. (Ex. 32,
3/24/82 Application). On July 8, 1982, the Michigan Court of Appeals granted the
17

292a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5018 Filed 04/26/18 Page 23 of 45

delayed application. (Ex. 33, 7/8/82 Order).

On July 15, 1982, Plaintiff filed a

brief. (Ex. 34, 7/15/82 Brief). On October 20, 1982, the WCPO filed a response.
(Ex. 35, 10/14/82 Response).
On May 24, 1983, the Michigan Court of Appeals affirmed the state trial
court’s order. (Ex. 36, 5/24/83 Opinion). In relevant part, the court reasoned that
“[i]f Herndon did not know or reasonably anticipate the efforts by those connected
with the prosecutor’s office to intercede on his behalf in the circuit court case, such
plainly could not have influenced the witness to testify against the defendant” or,
even if Herndon did know, he knew “that they had been futile.” (Id. at 4-5).
On May 27, 1983, Plaintiff filed an application for leave to appeal with the
Michigan Supreme Court, raising solely the Herndon leniency issue.

(Ex.37,

5/27/83 Application). On June 17, 1983, the WCPO filed a response. (Ex.38,
6/17/83 Response). On December 29, 1983, the Michigan Supreme Court denied
leave to appeal. See People v. Watkins, 418 Mich. 897 (1983).
F.

April 1986 – July 1989: Federal Courts Reject Plaintiff’s Petition for a
Writ of Habeas Corpus.
On April 22, 1986, Plaintiff filed a pro se petition for a writ of habeas corpus

in the United States District Court for the Eastern District of Michigan, arguing
primarily the Herndon immunity issue. (Ex. 39, 4/22/86 Petition). On July 18,
1986, the WCPO filed a response. (Ex. 40, 7/18/86 Response). On November 21,

18

293a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5019 Filed 04/26/18 Page 24 of 45

1986, the district court denied the petition on the merits.

(Ex. 41, 11/21/86

Opinion & Judgment).
A year and a half later, Plaintiff petitioned the district court to recall the
judgment and to re-issue it to provide him a right to timely appeal. (Ex. 42,
6/22/88 Petition). Plaintiff claimed that he did not know that he had a right of
appeal from the 1986 judgment. On June 28, 1988, the district court denied the
request. (Ex. 43, 6/28/88 Order). On July 27, 1989, the Sixth Circuit affirmed the
denial of the petition. See Watkins v. Foltz, 880 F.2d 415, 1989 U.S. App. LEXIS
10952 (6th Cir. July 27, 1989) (unpublished).
G.

June 1997 – November 1998: Plaintiff Files Another Motion for Relief
from Judgment.
Nine years after his federal habeas petition was denied, on June 23, 1997,

Plaintiff filed a motion for relief from judgment on the bases that: (1) the WCPO
and the state court failed to provide a defense witness immunity; and (2) the state
court erred in refusing to order a new trial based upon Herndon’s “recantation.”
(Ex. 44, 6/23/97 Motion). On April 15, 1998, the WCPO filed a response. (Ex.
45, 4/15/98 Response). On July 13, 1998, the state trial court denied the motion.
(Ex. 46, 7/13/98 Opinion).
On July 30, 1998, Plaintiff filed a motion for reconsideration on the basis
that Mich. Ct. R. 6.500, enacted in 1989, could not act as a bar to file to Plaintiff
filing subsequent post-trial motions in state court. (Ex. 47, 7/30/98 Motion). On
19

294a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5020 Filed 04/26/18 Page 25 of 45

August 6, 1998, the WCPO responded, arguing that a state does not violate due
process when it retroactively restricts the types of issues that can be raised if they
were not raised on direct appeal. (Ex. 48, 8/6/98 Response).
On November 23, 1998, the state court denied the motion on the basis that:
(1) the 1982 change in the law was not retroactive; (2) the recanted testimony issue
had already been decided; and (3) APA Healy’s failure to tell the jury about
Herndon’s sentencing had already been resolved against him in the 1983 appeal.
(Ex. 49, 11/23/98 Opinion).
H.

July 1999 – June 2000: The Michigan Court of Appeals Denies
Consideration of Plaintiff’s Delayed Application for Leave to Appeal.
On July 16, 1999, Plaintiff filed a delayed application for leave to appeal the

state trial court’s July 13, 1998 state trial court order denying the motion for relief
from judgment, raising the following issues: (1) the refusal to grant immunity to
defense witness Miller; (2) that Mich. Ct. R. 6.508 did not apply retroactively; (3)
Herndon’s recantation; and (4) the Herndon sentencing issue. (Ex. 50, 7/16/99
Application). On August 10, 1999, the Michigan Court of Appeals denied the
leave application on the basis that it was not filed within the time frame provided
by the court rules. (Ex. 51, 8/10/99 Order). On September 29, 1999, the Michigan
Court of Appeals denied the motion for reconsideration. (Ex. 52, 8/10/99 Order).
On November 24, 1999, Plaintiff filed a late application for leave to appeal
to the Michigan Supreme Court. (Ex. 53, 11/24/99 Application). On December
20

295a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5021 Filed 04/26/18 Page 26 of 45

21, 1999, the WCPO filed a response. (Ex. 54, 12/21/99 Response). On June 26,
2000, the Michigan Supreme Court denied Plaintiff’s delayed application for leave
to appeal. See People v. Watkins, 642 N.W.2d 676 (Mich. 2000).
I.

February – October 2014: Plaintiff Files a Final Motion for Relief
From Judgment, Ultimately Resulting in this Dismissal Without
Prejudice of the Criminal Case.
Fourteen years later, on February 11, 2014, Plaintiff filed a motion for relief

from judgment under Mich. Ct. R. 6.502(G)(2). Plaintiff contended: (1) there was
another 2006 recantation by Herndon in a letter to a third party; (2) the DPD
homicide file contained names of other suspects, a threatening letter written to
Ingram’s mother, and other notes indicating other possible suspects; (3) evidence
existed to cast doubt on the hair analysis evidence; (4) evidence containing the
results of Herndon’s 1975 polygraph test; and (5) ineffective assistance of counsel
during the 1976 trial. (Ex. 55, 2/11/14 Motion w/o Exhibits). On April 16, 2014,
the WCPO filed a Response. (Ex. 56, 4/16/14 Response w/o Exhibits). On
October 27, 2014, the state court denied the second motion for relief from
judgment. (Ex. 57, 10/27/14 Order).
J.

April 2015 – September 2016: Plaintiff’s Appeal Results in the
Michigan Supreme Court Remanding Some of the Issues in the Second
Motion for Relief From Judgment.
Six months later, on April 27, 2015, Plaintiff filed a delayed application for

leave to appeal of the October 27, 2014 state court trial order, raising the following
21

296a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5022 Filed 04/26/18 Page 27 of 45

issues: (1) that the state trial court should have held an evidentiary hearing on the
newly-discovered evidence from the DPD homicide file, 2006 and 2010 letters
from Herndon, combined with Herndon’s 1980 testimony; (2) that the prosecution
failed to turn over Brady evidence; and (3) Plaintiff had ineffective trial counsel.
(Ex. 58, 4/27/15 Application). On May 8, 2015, the WCPO filed a Response. (Ex.
59, 5/8/15 Response). On August 26, 2015, the Michigan Court of Appeals denied
the application for leave to appeal because Plaintiff’s “newly-discovered” evidence
did not conform to Mich. Ct. R. 6.508(D). (Ex. 60, 8/26/15 Order).
On September 21, 2015, Plaintiff filed an application for leave to the
Michigan Supreme Court. (Ex. 61, 9/21/15 Application). On September 6, 2016,
the Michigan Supreme Court vacated the Court of Appeals Order, holding that the
trial court applied the wrong standard of “newly-discovered” evidence because
Plaintiff had provided evidence that was “newly discovered” for the purposes of
the Michigan Court Rules after he filed his original motion for relief from
judgment – but did not disturb the Michigan Court of Appeals’ rejection of the
ineffective assistance of counsel claim. See People v. Watkins, 883 N.W.2d 758
(Mich. 2016).

The Michigan Supreme Court expressed no view as to the

underlying merits of Plaintiff’s claims.
K.

January – June 2017: Plaintiff Files an Amended Motion for Relief
From Judgment; the Criminal Case is Dismissed Because of the
Unreliability of the Hair Analysis Evidence.
22

297a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5023 Filed 04/26/18 Page 28 of 45

On January 20, 2017, Plaintiff filed an amended motion for relief from
judgment, raising the following issues: (1) the DPD withheld exculpatory evidence
in violation of Brady v. Maryland; (2) evidence impeaching Herndon’s trial
testimony; and (3) scientific evidence casting doubt on the hair evidence. (Ex. 62,
1/20/17 Motion). Efforts were made to track down the original evidence files from
the 1975 case to re-test the hair samples for DNA evidence. However, the relevant
physical evidence from the case had not been retained.
On June 15, 2017, the state trial court, by agreement of the parties, dismissed
the criminal case on the basis that without the hair evidence, there was insufficient
evidence to proceed to a new trial at that time. (Ex. 63, 6/15/17 Stipulated Order).
The stipulation did not declare that Plaintiff was “innocent” or that law
enforcement believed that he had been “cleared” of the crime.
L.

July 2017: Plaintiff Files a Lawsuit in State Court Under Michigan’s
Wrongful Incarceration Compensation Act.
Plaintiff was released from the custody of the MDOC. On July 25, 2017, he

filed a lawsuit under Michigan’s WICA law against the State of Michigan. (Ex.
64, State Court Complaint). In that case, Plaintiff has the burden of proving that he
did not commit the crime or was not an accomplice/or accessory to the crime.
Discovery has already commenced in the case. (Ex. 65, WICA Case Docket).

23

298a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5024 Filed 04/26/18 Page 29 of 45

M.

December 2017: Plaintiff Files the Present Case.
On or about December 6, 2017, Plaintiff filed the present suit against APA

Healy, the Estate of Neil Schwartz, Ronald Badaczewski, and the City of Detroit,
asserting various federal and state law claims.

Against APA Healy, Plaintiff

alleges Fourth Amendment “fabrication of evidence” claim and civil conspiracy
claims under 42 U.S.C. § 1983 and a state law claims of malicious prosecution and
intentional infliction of emotional distress. Against the Estate and Badaczewski,
he asserts a variety of federal and state law claims.
ARGUMENT
A.

Count I (Fabrication of Evidence): APA Healy is Entitled to Absolute
and/or Qualified Immunity on the Claim; In the Alternative, the Claim
is Barred by the Applicable Statute of Limitations.
Plaintiff asserts the following claim against APA Healy:
Defendants, HEALY and Schwartz, deliberately and knowingly
fabricated evidence to create probable cause; namely, Herndon’s
statement implicating Plaintiff in the Yvette Ingram murder, which
was material to finding probable cause that Plaintiff had committed
the crime of murder, which would otherwise have been lacking; such
conduct constituting a claim of “fabrication of evidence” under the
Fourth Amendment[.]

(Doc. No. 1, Compl. ¶ 113).
In Manuel v. City of Joliet, 137 S. Ct. 911 (2017), the United States Supreme
Court clarified that the Fourth Amendment applies to claims involving the legality
of arrest and pretrial detention, and the Due Process Clause of the Fourteenth
24

299a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5025 Filed 04/26/18 Page 30 of 45

Amendment applies to claims involving constitutional misconduct occurring at a
trial that results in a conviction:
[O]nce a trial has occurred, the Fourth Amendment drops out: A
person challenging the sufficiency of evidence to support both a
conviction and any ensuing incarceration does so under the Due
Process Clause of the Fourteenth Amendment. In their words, the
Framers ‘drafted the Fourth Amendment’ to address ‘the matter of
pretrial deprivations of liberty,’ and the Amendment thus provides the
‘standards and procedures’ for the ‘detention of suspects pending
trial.”
Id. at 919-20 & n. 8 (emphases in original). Here, because the Complaint only
alleges a Fourth Amendment violation, APA Healy will address that issue.
1.

Neither the Complaint nor Herndon’s 1980 Testimony State a
Cognizable “Fabrication of Evidence” Claim.

A “fabrication of evidence” claim requires that a plaintiff show that a
defendant “knowingly fabricated evidence” and “there is a reasonable likelihood
that the false evidence could have affected the judgment of the jury.” Stemler v.
City of Florence, 126 F.3d 856, 872 (6th Cir. 1997). The Sixth Circuit has drawn a
clear distinction between claims of “withholding of favorable evidence” and
“fabricating evidence.” “[O]ne involves the suppression of favorable evidence and
the other the manufacture of damaging evidence.” Mills v. Barnard, 869 F.3d
473, 485 (6th Cir. 2017) (citation omitted) (emphases added).

Examples of

“manufacturing” evidence would include planting physical evidence, falsifying lab
reports, doctoring video footage, and the like. The Sixth Circuit has never held
25

300a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5026 Filed 04/26/18 Page 31 of 45

that refusing to credit a recantation constitutes “fabrication of evidence” rather than
“suppression.” Courts are not bound by a party’s labels and can “probe deeper and
examine the substance of the” claim. Minger v. Green, 239 F.3d 793, 799 (6th Cir.
2001).
Here, APA Healy did not “invent” or “manufacture” Herndon’s account of
the murder. Herndon told both the HPPD and the DPD that Plaintiff committed the
murder. Only in 1980, Herndon stated that he changed his story once he found out
that Vazana had died.

Even if Herndon told this “second” story to law

enforcement on October 21, 1975 (and there is not a single contemporaneous piece
of evidence from the 1975/76 investigation and trial corroborating this – indeed,
Vazana had not been discovered dead by the time of day Herndon said he changed
his story), that does not mean that the first account was “manufactured.”
Furthermore, the fact that Plaintiff failed a lie detector test when asked about his
knowledge of and involvement in the murder, and then admitted to DPD that he
did in fact lie, corroborated Herndon’s account implicating Plaintiff.
To accept Plaintiff’s argument would mean that every time favorable
evidence is withheld from a criminal defendant that would also constitute
“fabricating evidence” because without the favorable evidence the unfavorable
evidence has now been “invented.” Because law enforcement did not “create” or
“manufacture” Herndon’s account of the murder, the conduct described in the
26

301a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5027 Filed 04/26/18 Page 32 of 45

Complaint and in Herndon’s 1980 hearing testimony, assuming it is true, could
only constitute a claim of “withholding of evidence” and not a claim of
“fabrication of evidence.”
2.

APA Healy is Entitled to Absolute Immunity on Plaintiff’s Fourth
Amendment Claims.

As a general matter, prosecutors enjoy broad absolute immunity for claims
that they knowingly offered false or incomplete testimony:
Absolutely protected acts of advocacy include those undertaken by a
prosecutor in preparing for the initiation of judicial proceedings or for
trial, and which occur in the course of his role as an advocate for the
State. A prosecutor is thus absolutely protected when she appears in
court in support of an application for a search warrant and presents
evidence at a probable cause hearing, and when she prepares and files
unsworn documents in order to obtain an arrest warrant. Absolute
immunity also protects a prosecutor when she evaluates evidence and
presents that evidence at trial or before a grand jury, prepares
witnesses for trial, and even elicits false testimony from witnesses.
By shielding prosecutors engaging in these activities, absolute
immunity serves the policy of protecting the judicial process.
Adams v. Hanson, 656 F.3d 397, 402 (6th Cir. 2011) (citations and quotation
marks omitted). Prosecutors are similarly immune from all § 1983 claims related
to “withholding” or “suppressing” evidence. Koubriti v. Convertino, 593 F.3d 459,
467 (6th Cir. 2010).

This immunity extends to suits “arising out of even

unquestionably illegal or improper conduct by the prosecutor so long as the general
nature of the action in question is part of the normal duties of the prosecutor.”
Cady v. Arenac County, 574 F.3d 334, 340 (6th Cir. 2009).
27

302a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5028 Filed 04/26/18 Page 33 of 45

Plaintiff seeks to circumvent absolute immunity by claiming that during the
“investigation” of the case, APA Healy participated in the act of suppressing
Herndon’s alleged “second” account of the murder. However, the Sixth Circuit
had held that absolute immunity extends to situations where a prosecutor is alleged
to have participated in the pre-arrest or pre-trial phase of an investigation and
becomes aware of possible exculpatory evidence that is allegedly later not turned
over at trial. See, e.g., Jones v. Shankland, 800 F.2d 77, 80 (6th Cir. 1986)
(holding that failing to disclose exculpatory information, even if learned by
prosecutors during the investigation phase, falls within absolute immunity).
Moreover, Koubriti forecloses Plaintiff’s claim here. In the case, the plaintiff
alleged that the prosecutor was involved in the investigatory phase of the case
where he learned that: (1) law enforcement could not come to a consensus
regarding what certain sketches depicted; and (2) the prosecutor’s decision to order
law enforcement not to take notes during the interviews of several witnesses. The
government relied on both the sketches and the accounts of the witnesses at trial
without disclosing either of these details.

Id.

After the criminal trial, the

government conceded that it had not turned over appropriate Brady material. 593
F.3d at 464. However, the Sixth Circuit held that harm alleged in such a situation
was not the investigation itself, but rather the non-disclosure of evidence
uncovered in the investigation. Id. at 468-69. For such claims, prosecutors enjoy
28

303a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5029 Filed 04/26/18 Page 34 of 45

absolute immunity. Id. Here, the harm is not the fact of the alleged discussions
with Herndon, it was the fact that Plaintiff allegedly did not know about them.
In a remarkably similar case, the Sixth Circuit rejected the same allegations
Plaintiff asserts against APA Healy here:
[E]ven if [the prosecutor] threatened, coerced, or enticed Williams
into presenting false testimony, [the prosecutor] did so as part of his
effort to prosecute Beckett for Cunningham's murder. In other words,
despite Beckett's assertion that any fabrication of evidence "occurred
during the investigatory phase of Beckett's ordeal,” and despite
Beckett's assertion that Anderson was engaged in investigation when
[the prosecutor] checked on whether Beckett and Williams were in
proximity in prison, [the prosecutor] was acting neither as an
investigator nor an administrator when he reviewed with Williams
what Williams would say on the stand. . . .
In other words, the fact that the encounter between Williams and [the
prosecutor] took place before trial does not foreclose the possibility
that [the prosecutor] was acting as an advocate during that encounter,
and so was entitled to absolute prosecutorial immunity.
Beckett v. Ford, 384 F. App’x 435, 451 (6th Cir. 2010) (unpublished) (citation
omitted).
Similarly here, APA Healy’s interaction with Herndon was to evaluate how
he may testify ultimately at a criminal trial against Plaintiff – which is a normal
function of a prosecutor under Koubriti and Beckett. Even if APA Healy engaged
in acts of threatening Herndon to stick to his “first story,” suppressing the “second
story,” and eliciting false testimony at the preliminary examination and trial,

29

304a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5030 Filed 04/26/18 Page 35 of 45

absolute immunity would bar the assertion of all of these claims as they were
performed in connection with the prosecution of Plaintiff for murder.
3.

In the Alternative, APA Healy is Entitled to Qualified Immunity on
the Fourth Amendment Claims.
a.

Plaintiff Cannot Establish That APA Healy Violated “ClearyEstablished Law” That Would Put Him on Notice That the
Alleged Actions Were Unconstitutional.

Second, even if Plaintiff had alleged a cognizable theory of “fabrication of
evidence,” APA Healy would be entitled to qualified immunity because no clearlyestablished law existed in 1976 prohibiting the alleged conduct. “[O]fficers are
entitled to qualified immunity under § 1983 unless (1) they violated a federal
statutory or constitutional right, and (2) the unlawfulness of their conduct was
‘clearly-established at the time.’” District of Columbia v. Wesby, 138. S. Ct. 577,
589 (2018) (citation omitted). “’Clearly established’ means that, at the time of the
officer’s conduct, the law was sufficiently clear that every reasonable official
would understand that what he is doing is unlawful. In other words, existing law
must have placed the constitutionality of the officer’s conduct beyond debate. This
demanding standard protects all but the plainly incompetent or those who
knowingly violate the law.” Id. at 590 (citations omitted).
Thus, Plaintiff cannot rely on the broad, general proposition that “fabricating
evidence” violates the Fourth Amendment. Plaintiff has the burden to show some
binding authority from the United States Supreme Court or from the Sixth Circuit,
30

305a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5031 Filed 04/26/18 Page 36 of 45

prior to 1976, where a court had expressly held “beyond a doubt” that when an
accomplice tells the same account of a crime several times, then later attempts to
change his story, where there is no independent evidence confirming either story,
that law enforcement “fabricates evidence,” rather than “suppresses evidence,” in
violation of the Fourth Amendment.
Moreover, Plaintiff would have to show some pre-1976 authority that held
that what APA Healy allegedly did was not protected by absolute immunity. As
explained above, prosecutors are shielded from claims that they presented
knowingly false testimony. For Plaintiff’s claim to overcome immunity, he would
have to show that there was authority for a proposition that although a prosecutor
presented false testimony at trial, the prosecutor could be nonetheless liable under
the Fourth Amendment in certain circumstances depending on how he/she came to
know the testimony was false. Plaintiff will be unable to do so.
b.

Plaintiff Cannot Establish a Cognizable Fourth Amendment
Claim Because Such a Claim Accrued at the Time of the
Alleged Wrongdoing.

Even assuming that Plaintiff properly alleges and supports a “fabrication of
evidence” claim, such a clam has a three year statute of limitations. See McCune v.
City of Grand Rapids, 842 F.2d 903, 905-06 (6th Cir. 1988).8

8

“Statutes of

Similarly, any claims for “conspiracy” to “fabricate evidence” would also be
subject to a three years statute of limitations from the date of the accrual of the
claim. See Carroll v. Wilkerson, 782 F.2d 44, 45 (6th Cir. 1986). A civil
31

306a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5032 Filed 04/26/18 Page 37 of 45

limitations serve to protect defendants from stale claims, and to protect defendants
from the injustice of defending claims where evidence may have been lost,
memories failed, and witnesses have disappeared.” Miller v. Generac Power
Systems, Inc., No. 15-13256, 2017 U.S. Dist. LEXIS 106708, *12 (E.D. Mich. July
11, 2017) (unpublished) (citation omitted). Under § 1983, claims accrue “when the
plaintiff knows or has reason to know that the act providing the basis of his or her
injury has occurred.” Collyer v. Darling, 98 F.3d 211, 220 (6th Cir. 1996). Here,
there can be no doubt that Plaintiff’s “fabrication of evidence” claim accrued
before or at the time of trial when he learned of Herndon’s “new” testimony. By
that point, he knew or had reason to know of the actions that caused injury, and he
had suffered injury. The statute of limitations has run on his claim.
i.

At the Time of Plaintiff’s Criminal Proceedings, There Was No
Bar to Bringing a Fourth Amendment Civil Claim.

Because the three-year statute of limitations began to run in 1975/76,
Plaintiff’s Fourth Amendment claims here are time-barred. At that time, there was
no legal bar to civil § 1983 collateral challenges either during the criminal
proceedings themselves, or after a conviction. Indeed, at that time in history, the

conspiracy under § 1983 is “an agreement between two or more persons to injure
another by unlawful action.” Hensley v. Gassman, 693 F.3d 681, 695 (6th Cir.
2012) (citation omitted). Civil conspiracy claims are “derivative” and must have
an underlying cognizable legal claim. Spadafore v. Gardner, 330 F.3d 849, 854
(6th Cir. 2003). APA Healy’s immunity from suit would equally apply to
conspiracy claims.
32

307a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5033 Filed 04/26/18 Page 38 of 45

Supreme Court itself heard numerous § 1983 challenges brought by convicted
individuals, finding no categorical bar to their assertion. See, e.g., Allen v.
McCurry, 449 U.S. 90 (1980) (recognizing that a conviction was no absolute bar to
a § 1983 Fourth Amendment challenge, even if the challenge may call into
question the validity of the conviction); Haring v. Prosise, 462 U.S. 306 (1983)
(recognizing that a guilty plea and subsequent conviction did not bar a § 1983
Fourth Amendment claim for an illegal search that found evidence of narcotics that
was used at trial);9 Briscoe v. Lahue, 460 U.S. 325, 327 (1983) (recognizing that
despite their convictions, the plaintiffs were able to maintain a § 1983 action
against police officers for allegedly offering false testimony at trial). In other
words, nothing prevented Plaintiff from filing his lawsuit at some point within
three years of the accrual of his cause of action. There is no legal doctrine
established since 1979 that operates retroactively to resurrect stale § 1983 claims
for individuals who failed to file in the past. Therefore, the statute of limitations
operates to bar the assertion of his Fourth Amendment claims in this proceeding.
ii.

Even if Plaintiff is Somehow Rescued From His Failure to File
Suit Within the Original Limitations Period, his Fourth

9

Allen and Haring both recognized that collateral estoppel could be a bar to
relitigating a claim litigated and decided in a state criminal proceeding, but only if
the party did not have a “full and fair opportunity to litigate the claim or issue
decided[.]” Allen, 449 U.S. at 101. However, a possible collateral estoppel bar
does not extend the statute of limitations on a claim. Simply put, despite his
conviction, Plaintiff could have certainly filed a civil suit by 1979.
33

308a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5034 Filed 04/26/18 Page 39 of 45

Amendment Claims Accrued at the Time of the Alleged
Wrongdoing.
In 2017, the United States Supreme Court had occasion to consider when a
Fourth Amendment “fabrication of evidence” under § 1983 accrued but instead
decided to remand the issue. See Manuel, 137 S. Ct. at 921-22. The Supreme
Court did recognize, however, that the Fourth Amendment is the proper vehicle for
harms incident to pretrial detention, and the Due Process Clause of the Fourteenth
Amendment is the vehicle for harms related to a wrongful incarceration following
an unfair trial. Id. at 919-20 & n. 8 (emphases in original). Two of the Justices
would have held that the accrual date for post-arraignment Fourth Amendment
violations should be when the wrong occurred, not when the criminal case is
dismissed or conviction vacated. See id. at 925-26 (Alito, J., dissenting).
Thus, post-Manuel, the question remains open regarding when a Fourth
Amendment “fabrication of evidence” claim accrues and the limitations period
begins to run under § 1983.10 As explained below, because the Fourth Amendment
is not concerned with harm that occurs as a result of a conviction following an
unfair trial, and because a plaintiff cannot use the Fourth Amendment to recover
damages for the incarceration as a result of the trial, the claim accrues at the time

10

Before Manuel, the Sixth Circuit appears to have assumed that Fourth
Amendment claims encompassed both wrongful pretrial detention and wrongful
incarceration. See Sykes v. Anderson, 625 F.3d 294, 308 (6th Cir. 2010). This can
no longer be correct.
34

309a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5035 Filed 04/26/18 Page 40 of 45

of the wrongdoing and injury as a result of pretrial detention, and not in reference
to when a criminal conviction is ultimately set aside or vacated.
First, under Manuel, because the Fourth Amendment only provides
protection for pretrial detention harms and not for any resulting wrongful
incarceration, under federal law, a plaintiff has a complete cause of action either at
the time of pretrial wrongful detention, or at the latest at the time of the conviction
or acquittal, the time when pretrial detention ends. See Collyer, 98 F.3d at 220
(holding that § 1983 claims generally accrue “when the plaintiff knows or has
reason to know that the act providing the basis of his or her injury has occurred”).
Second, the only way a party can extend a Fourth Amendment claim for
wrongful pretrial detention is if a court somehow inserts a “favorable termination”
element into the claim. Other Fourth Amendment torts like false arrest and false
imprisonment have no “favorable termination” element, thus must be asserted
within three years of the arraignment. Wallace v. Kato, 549 U.S. 384, 389-90
(2007).
The Dissent in Manuel provides a variety of reasons why malicious
prosecution would not be a proper analogy for post-arraignment Fourth
Amendment claims, including: (1) that law enforcement officers lack the authority
to initiate or dismiss criminal cases; (2) incorporating a “malice” element would
leave culpable conduct unpunished; and (3) incorporating a “favorable
35

310a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5036 Filed 04/26/18 Page 41 of 45

termination” requirement would “make no sense” because the Fourth Amendment
protections do not extend past a conviction – all “harm” for which recovery could
be had would have already occurred. Id. at 925-26. Beyond those reasons, the tort
of malicious prosecution provides an improper analogy because it applies only to
private individuals, and not to public prosecutors. See Restat. 2d (Torts) §§ 653 &
656 & comment b. As explained below, Michigan law similarly and completely
immunizes prosecutors from the tort of malicious prosecution. Thus, because
under no circumstances could APA Healy be liable for the tort of malicious
prosecution, it is an improper analogy.
Finally, extending the statute of limitations for decades for a Fourth
Amendment claim based upon facts and harm that were apparent or should have
been apparent to Plaintiff at the time of his trial works a fundamental unfairness
and prejudice to the defense. The Supreme Court has similarly noted that in the
context of Fourth Amendment claims, “Defendants need to be on notice to
preserve beyond the normal limitations period evidence that will be needed for
their defense; and a statute that becomes retroactively extended, by the action of
the plaintiff in crafting a conviction-impugning cause of action, is hardly a statute
of repose.” Wallace, 549 U.S. at 395. In the 42 years since Plaintiff’s detention
and trial: (1) the lead investigator from the DPD passed away; (2) evidence such as
the hair samples are gone because DPD was not on notice to preserve the evidence
36

311a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5037 Filed 04/26/18 Page 42 of 45

because of a planned civil suit; (3) the independent memories of the surviving
defendants have faded; (4) APA Healy’s case file was destroyed under normal
document retention policies; and (5) other witnesses who testified at trial may also
have passed away, may have no memory of the events, or may not be able to be
located. Plaintiff provided no indication that he intended to pursue a civil suit on
the basis of Herndon’s alleged “recantation” until 2017.11 There is no unfairness to
Plaintiff if the statute of limitations is applied because he had a window during
which to assert an action and failed to do so.
B.

Counts III (Malicious Prosecution) & IV (Intentional Infliction of
Emotional Distress): APA Healy Has Absolute Immunity.
Under Michigan law, “[a] public prosecutor is not liable for malicious

prosecution.” Matthews v. Blue Cross & Blue Shield, 572 N.W.2d 603, 610 (Mich.
1998) (citation omitted); Elliott v. Downes, No. 280973, 2009 Mich. App. LEXIS
91, *8 (Mich. Ct. App. Jan. 15, 2009) (unpublished) (“Our Supreme Court has
found that a public prosecutor is not liable for malicious prosecution”). This
immunity “protect the public prosecutor against inquiry into his motives, and from
liability, even though he knows that he has no probable cause for the institution of
proceedings and initiates them for an altogether improper purpose.” Restat. 2d of
After arguing the issue in 1980 and 1981 in state criminal court, the issue was not
raised again in the state criminal proceedings until 1997, 16 years later, and even
then the state court determined in 1998 that it had already decided the credibility of
Herndon’s recantation. (Ex. 49, 11/23/98 Opinion). The issue was not raised
again until 2014, another 16 years later.
11

37

312a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5038 Filed 04/26/18 Page 43 of 45

Torts § 656, cmt. b; see Imbler v. Pachtman, 424 U.S. 409, 424 (1976). This
immunity would likewise apply to state law claims of intentional infliction of
emotional distress. See, e.g., Cheolas v. City of Harper Woods, No. 06-11885,
2009 U.S. Dist. LEXIS 11135, *28-30 (E.D. Mich. Feb. 13, 2009) (unpublished)
(holding that an assistant prosecuting attorney is absolutely immune under state
law for an IIED claim).
C.

Count III (Malicious Prosecution): In the Alternative, Plaintiff Cannot
Establish That the Criminal Proceedings “Terminated in His Favor.”
One of the essential elements of a state law claim for malicious prosecution

is that the plaintiff prove that the “criminal proceedings terminated in his favor.”
See Peterson Novelties, Inc. v. City of Berkley, 672 N.W.2d 351, 363 (Mich. Ct.
App. 2003). However, “courts have held that where a termination results from a
compromise or settlement or is brought about by an action of the accused as a
courtesy or favor or by some act of the accused that prevents the litigation, there is
no favorable termination that will serve as a basis for a cause of action for
malicious prosecution.”

Id. at 363-64 (“In the present case, a ‘dispositive

stipulation’ was entered into by plaintiff Barman which discharged the charges
against him and the plaintiff Peterson employees that were arrested. The
‘dispositive stipulation’ does not amount to a favorable termination required”); see,
e.g., Glass v. Van Lokeren, No. 302385, 2014 Mich. App. LEXIS 496, *20 (Mich.
Ct. App. Mar. 25, 2014) (unpublished) (“The Glasses' stipulation to dismiss the
38

313a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5039 Filed 04/26/18 Page 44 of 45

2008 case and to forgo any appeals eliminated their ability to successfully pursue a
malicious prosecution claim”); McCormick v. Oakwood Healthcare, Inc., No. 1412801, 2016 U.S. Dist. LEXIS 159083, *20 (E.D. Mich. Nov. 17, 2016)
(unpublished) (“Here, the criminal proceedings against plaintiff were terminated
after the parties mutually agreed to dismiss the charges. Thus, plaintiff cannot
establish the second element of the [malicious prosecution] claim”). “Proceedings
are ‘terminated in favor of the accused[ ]’ . . . only when their final disposition is
such as to indicate the innocence of the accused.” Restat. 2d of Torts § 660 cmt. a.
Plaintiff cannot establish as a matter of law that the criminal proceedings
“terminated in his favor” because the state case was resolved by agreement. (Ex.
63, 6/15/17 Order). The agreement did not stipulate to Plaintiff’s innocence or
amount to an acquittal – only because of the lack of necessary scientific certainty
regarding the “hair” evidence, there was presently insufficient evidence to
prosecute him. Because Plaintiff cannot establish that the criminal proceedings
terminated in his favor, the claim fails as a matter of law.
D.

Count IV (IIED): The Statute of Limitations Has Expired On the State
Law Claim of Intentional Infliction of Emotional Distress.
Under Michigan law, the statute of limitations for a claim of intentional

infliction of emotional distress is three years from the accrual of the claim. Mich.
Comp. Laws § 600.5808(8). The Michigan Court of Appeals has rejected the
argument that for a plaintiff alleging IIED in connection with an arrest and
39

314a

Case 4:17-cv-13940-MFL-MKM ECF No. 21, PageID.5040 Filed 04/26/18 Page 45 of 45

prosecution that the claim “accrues” at the time of his or her acquittal or release.
Killian v. Fuller, 412 N.W.2d 698, 701 (Mich. Ct. App. 1987). Here, similarly, the
alleged actions of APA Healy in “fabricating evidence” was completed at the time
of Plaintiff’s arrest and prosecution – in 1975/76. There is no principle under
Michigan state law that would legally bar, or prevent the accrual of, an IIED claim
based upon alleged law enforcement misconduct here.
CONCLUSION
For the foregoing reasons, APA Healy respectfully requests that the Court
dismiss the Complaint against him.
Dated: April 26, 2018

Respectfully submitted,
By: /s/Davidde A. Stella
Zenna Elhasan (P67961)
Wayne County Corporation Counsel
Davidde A. Stella (P69948)
Assistant Corporation Counsel
500 Griswold, Floor 30
Detroit MI 48226
(313) 224-5030
Attorneys for Robert H. Healy

CERTIFICATE OF SERVICE
I certify that on April 26, 2018, I filed a copy of the foregoing with the Clerk
of the Court using the electronic filing system which will send electronic
notification of this filing to all parties.
/s/Davidde A. Stella
Davidde A. Stella (P69948)
40

315a

